<html>
<title> - NO PLACE TO GROW UP: HOW TO SAFELY REDUCE RELIANCE ON FOSTER CARE GROUP HOMES</title>
<body><pre>[Senate Hearing 114-273]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 114-273

                          NO PLACE TO GROW UP:
                     HOW TO SAFELY REDUCE RELIANCE
                       ON FOSTER CARE GROUP HOMES

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2015

                               __________


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     
                                     

            Printed for the use of the Committee on Finance
            
                               ___________
                               
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-209 - PDF                      WASHINGTON : 2016                         

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>  





                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    CHARLES E. SCHUMER, New York
PAT ROBERTS, Kansas                  DEBBIE STABENOW, Michigan
MICHAEL B. ENZI, Wyoming             MARIA CANTWELL, Washington
JOHN CORNYN, Texas                   BILL NELSON, Florida
JOHN THUNE, South Dakota             ROBERT MENENDEZ, New Jersey
RICHARD BURR, North Carolina         THOMAS R. CARPER, Delaware
JOHNNY ISAKSON, Georgia              BENJAMIN L. CARDIN, Maryland
ROB PORTMAN, Ohio                    SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      MICHAEL F. BENNET, Colorado
DANIEL COATS, Indiana                ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina

                     Chris Campbell, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)
  

                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Grassley, Hon. Chuck, a U.S. Senator from Iowa...................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     2
Schumer, Hon. Charles E., a U.S. Senator from New York...........     4
Stabenow, Hon. Debbie, a U.S. Senator from Michigan..............     5

                               WITNESSES

Gruber, Lexie, former foster youth, Hamden, CT...................     6
Kohomban, Jeremy, Ph.D., president and chief executive officer, 
  The Children's Village, New York, NY...........................     8
Reynell, Matthew J., adoptive father, Rochester, NY..............     9
Chang, Joo Yeun, Associate Commissioner, Children's Bureau, 
  Administration on Children, Youth, and Families, Department of 
  Health and Human Services, Washington, DC......................    11

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Cantwell, Hon. Maria:
    Prepared statement...........................................    25
Chang, Joo Yeun:
    Testimony....................................................    11
    Prepared statement...........................................    25
Grassley, Hon. Chuck:
    Opening statement............................................     1
Gruber, Lexie:
    Testimony....................................................     6
    Prepared statement...........................................    28
Hatch, Hon. Orrin G.:
    Prepared statement...........................................    31
Kohomban, Jeremy, Ph.D.:
    Testimony....................................................     8
    Prepared statement...........................................    32
Reynell, Matthew J.:
    Testimony....................................................     9
    Prepared statement...........................................    39
Schumer, Hon. Charles E.:
    Opening statement............................................     4
Stabenow, Hon. Debbie:
    Opening statement............................................     5
Wyden, Hon. Ron:
    Opening statement............................................     2
    Prepared statement...........................................    41

                             Communications

Alliance for Strong Families and Communities.....................    43
American Association of Children's Residential Centers...........    44
Annie E. Casey Foundation........................................    50
Children Awaiting Parents........................................    51
First Focus Campaign for Children................................    56
Generations United...............................................    62
Human Rights Campaign............................................    64
Rachel's Tears Ministry..........................................    66
Young, Nancy and Sid Gardner.....................................    70

 
                          NO PLACE TO GROW UP:
                     HOW TO SAFELY REDUCE RELIANCE
                       ON FOSTER CARE GROUP HOMES

                              ----------                              


                         TUESDAY, MAY 19, 2015

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:06 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Chuck Grassley presiding.
    Present: Senators Toomey, Wyden, Schumer, Stabenow, Bennet, 
Brown, and Casey.
    Also present: Republican Staff: Becky Shipp, Health Policy 
Advisor. Democratic Staff: Laura Berntsen, Senior Advisor for 
Health and Human Services; and Jocelyn Moore, Deputy Staff 
Director.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY, 
                    A U.S. SENATOR FROM IOWA

    Senator Grassley. The committee will come to order.
    Today, the Senate Finance Committee will hear testimony on 
the need to reduce the reliance on foster care group homes. The 
basic premise of this hearing is very simple. Children should 
not be forced to grow up in an institution. It cannot be said 
enough that children fare better when with family.
    Foster youth want the same thing as other children. They 
want a mom and a dad, and they want a place to call home. So we 
must do everything that we can to ensure that children, when 
placed in foster care, are given every opportunity to be normal 
and are nurtured and loved along the way.
    I have worked for decades to ensure that every child gets 
to grow up in a safe and loving family. I was the principle 
drafter of a landmark act called Fostering Connections to 
Success and Increasing Adoptions. As founder and co-chair of 
the Senate Caucus on Foster Youth, I am deeply engaged in 
developing policies that will help all children find loving and 
forever families.
    Group homes, sometimes referred to as congregate care, 
create conditions that make children and young people 
vulnerable to a number of negative outcomes, such as 
homelessness, incarceration, substance abuse, and poverty. 
Group homes are expensive. Some research indicates that they 
are up to 10 times more expensive than family-based homes. It 
calls into question then whether we should be paying for such 
placements when they are associated with negative outcomes. 
What also makes no sense is that in some instances, if the 
proper services had been available, these young people could 
have remained safely at home and not needed to go into foster 
care in the first place.
    Some allege that children and young people in group homes 
have to be there because they cannot be safely placed in a 
family foster care setting. However, the data simply does not 
support that. A recent report from Health and Human Services 
reveals that, quote, ``Children 12 and younger comprise an 
unexpectedly high percentage, 31 percent, of children who 
experience a congregate care setting.''
    According to HHS, 40 percent of children and youth in 
congregate care have no documented clinical or behavioral 
reason for a non-family placement. Many believe that infants, 
children, and young people with manageable behavior issues or 
no behavior issues should not be placed in congregate care 
facilities at all.
    For youth who have severe mental health diagnoses, 
improvement can be made in a specialized setting for a limited 
period of time. However, there is no research whatsoever that a 
long-term placement in a therapeutic group home produces 
positive outcomes. In fact, we will hear today testimony that 
supports anecdotal evidence that concludes that, after a period 
of a few months, any progress made in a therapeutic facility is 
undone.
    But the bottom line is this: children belong in a family. 
Families are where we find support and love and comfort that 
sustain us in challenging times.
    Increasing placement with kin will also reduce the use of 
group homes. There are many benefits to kinship care. Placing 
young people with close relatives provides more stability, 
helps keep siblings together, and reduces the emotional trauma 
of being separated from their parents. Kinship placements also 
allow young people to maintain community, school, and family 
relationships. Children need someone to tuck them in at night 
and make them feel safe. Young people need positive adult role 
models to help them make the transition to adulthood.
    So we need to do whatever we can to ensure that every child 
has a loving, safe, and permanent home. I hope that members 
will listen very carefully to the testimony of our witnesses 
and policy recommendations presented to us today.
    It is now Senator Wyden's turn.

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Chairman Grassley. You 
and Senator Hatch, in my view, have been real leaders on this 
topic, and I am very grateful.
    Obviously, Mr. Chairman, this morning I have to juggle the 
floor where we are working on the trade legislation, so I am 
not going to be able to stay throughout the morning.
    I also want to note that several of my colleagues would 
like to make short statements. I know Senator Schumer has folks 
here from New York. So I would request at this time that our 
colleagues could make short statements.
    As the title of this hearing suggests, foster care group 
homes are no place to grow up. There is no question that 
residential care can play a crucial role in the foster care 
system. There is wide consensus that children and youth, 
especially young children, are best served in a family setting.
    Stays in residential care should be based on the child's 
specialized behavioral and mental health needs or a child's 
clinical disabilities. They should be used only for as long as 
necessary to stabilize the child or youth before returning to a 
family setting.
    My view is, this theory is finally catching on. Over the 
last decade, States have cut by over one-third the number of 
children who reside in congregate care. There has been a wide 
variation in States' success in this area, with some even 
increasing their use of congregate care over the last decade.
    To further reduce residential foster care, it is time to 
also focus this debate on transforming the old group home model 
into one that is considerably more flexible, more flexible to 
meet the needs of each child and family rather than forcing an 
inappropriate and ineffective one-size-fits-all approach.
    The committee is going to hear today that this 
transformation is possible, and we are going to hear that it is 
possible even within the current lopsided funding system. The 
Federal Government can make innovation easier by providing 
greater flexibility in the use of title IV-E foster care 
funds--flexibility that accepts the reality that there is no 
single approach that works for every youngster and every 
family.
    To spur these innovations, we ought to be looking for more 
fresh, creative ideas. That is why this hearing is so important 
and why we need to hear from today's witnesses about their 
experiences with congregate care. I am especially grateful to 
Associate Commissioner Chang for coming to discuss the 
administration's ideas for reducing the use of these settings.
    I am going to wrap up by just making three observations on 
the topic. First, there is no question that high-quality 
residential care plays a crucial role in what is, in effect, a 
continuum of foster care services, but at the same time, it is 
clear that not everybody is on the same page when there is a 
discussion about congregate care. The terms ``congregate 
care,'' ``group homes,'' and ``residential treatment'' are 
often used interchangeably. The structure and quality of these 
settings, in realty, varies very widely, and we are going to 
hear about that from our witnesses today.
    Second, it is important that the discussion over safely 
reducing congregate care commensurately focuses on building 
additional opportunities and the capacity for foster parents, 
kin, adoptive parents, and entire communities to care for kids 
in family settings.
    Finally, the best way to reduce reliance on chronic care is 
to prevent children from entering foster care in the first 
place. For decades, lawmakers, advocates, and others have 
talked about the need to provide support and preventive 
services for children and families in crisis. These investments 
can help keep kids safe in their homes or with other family 
members, while reducing the need for costly and traumatic 
transfers to the foster care system.
    For this reason, I have drafted legislation to reform 
foster care, to give States and tribes the ability to use 
Federal dollars that are now reserved only for foster care 
placements to finance new opportunities to keep families 
together. We ought to be considering those fresh approaches, 
fresh ways of thinking about how we serve the goal that all 
Americans want here, and that is ensuring that kids grow up in 
a healthy and safe environment.
    It is no understatement, Mr. Chairman, that families and 
kids are counting on this committee working together in a 
bipartisan way to get this right. I look forward to working 
with you, Chairman Grassley, and Chairman Hatch. As I have 
indicated, both he and I are tied up also on the floor this 
morning. But this is a very important topic, and we look 
forward to working with our colleagues in a bipartisan way on 
it.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    Senator Grassley. Senator Schumer?

         OPENING STATEMENT OF HON. CHARLES E. SCHUMER, 
                  A U.S. SENATOR FROM NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. I will be brief. 
I want to thank you for having this hearing. I want to welcome 
our witnesses and apologize. I will not be able to stay, with 
everything going on, but I have read their testimony, and it is 
superb.
    I want to particularly welcome Matthew Reynell from 
Rochester, NY and Dr. Jeremy Kohomban from The Children's 
Village, which does a great job in New York City, my home city.
    We all share the goal of trying to keep kids safe and keep 
them in families. Too often our kids enter the child welfare 
system, for various reasons, and in those cases, our goal 
should be to get them the services they need, reunify them with 
their family or place them with a kin family member, or place 
them in a loving, safe foster home.
    The services that these kids need are sometimes at 
residential facilities. But more often than not, as The 
Children's Village in New York and Mr. Reynell have testified 
to, there are community-based services that allow a child to 
live or progress toward living with a family.
    The Children's Village provides services to over 17,000 
children and families each year. Some are at their residential 
treatment centers, but most are not. Mr. Reynell of the great 
city of Rochester, where I was yesterday, has also testified 
that his adopted son thrived at home with him, but also needed 
the services that Crestwood Children's Center provided him.
    Being a parent is a gift, but also a challenge. All 
families have difficulties. All children need help sometimes. 
And the love and commitment that you have shown by not only 
adopting your son, but insisting and ensuring he receive his 
needed services, is what we are all about and why we are here 
today to try to improve the system.
    We need to support other individuals and families who want 
help and get children into healthy and loving environments. The 
experiences of these New Yorkers, Mr. Chairman, provide proof 
that every child is different and will need different services. 
As the ranking member has said, the only way to truly help our 
children is to allow States and localities to have flexibility 
to spend Federal foster care money on what works best for their 
kids, from prevention to residential care to support for foster 
families.
    In New York, about 10,000 kids enter foster care each year, 
but 200,000 kids are being investigated as at-risk. With a 
Federal waiver, New York City has built upon work from the last 
20 years to do just what we need. The city, like many other 
jurisdictions, has drastically reduced the need and use of 
foster care. New York's foster care numbers have shrunk from a 
high of 45,000 children in 1993 to 11,000 in 2014. If there was 
ever a testament that flexibility works, that is it.
    This has happened through a focus on family preservation, 
expediting permanent placements through reunification, 
adoption, and guardianship. Currently, New York City has 
reduced the use of congregate care, the group homes, from 5,000 
to 1,000 children in the past 15 years, as we recognize the 
importance of placing young people in supportive family 
settings wherever possible, including with relatives or in 
kinship care. And, under the Federal waiver that it operates 
under, New York now has additional resources to focus on 
permanent placements and the well-being of children.
    So, Mr. Chairman, we need to help States find what works 
for them and their children. The waivers and our witnesses have 
shown us that flexibility in Federal funding is an important 
step to ensuring that our children remain or end up with a 
loving family.
    Thank you.
    Senator Grassley. Senator Stabenow?

          OPENING STATEMENT OF HON. DEBBIE STABENOW, 
                  A U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Thank you, Mr. Chairman, for holding this 
meeting. It is my pleasure to serve with you as co-chair of the 
bipartisan Foster Youth Caucus. I will wait to speak more 
specifically later so we can hear from our witnesses, but I 
just share in your comments and those of Senator Wyden and 
Senator Schumer about the importance of this.
    I was very pleased years ago to be involved in authoring 
foster care reform in Michigan, and we continue to need to 
focus on children and the opportunity for giving them safe, 
loving homes.
    So I look forward to hearing from the witnesses.
    Senator Grassley. I thank each of the people for their 
opening statements, and particularly the ranking member, 
Senator Wyden.
    So now to introduce--and we will have people testify in the 
order in which I introduce you. First, we will hear from Ms. 
Lexie Gruber, a former foster youth. We congratulate you on 
graduating with honors and for your job with First Focus.
    Dr. Jeremy Kohomban is president and chief executive 
officer of The Children's Village in New York, and I guess you 
could not have a better introduction than Senator Schumer gave 
to you.
    Matthew Reynell is an adoptive father of two children who 
will share his personal experiences. Thank you for that.
    Finally, Associate Commissioner Joo Yeun Chang is with the 
Children's Bureau at the Administration for Children, Youth, 
and Families.
    I welcome all of you to the Senate Finance Committee. As 
you have probably been told by staff, you have 5 minutes, but 
if you have a longer statement, it will be put in the record as 
well.
    So, would you proceed, Ms. Gruber?

   STATEMENT OF LEXIE GRUBER, FORMER FOSTER YOUTH, HAMDEN, CT

    Ms. Gruber. Good morning and thank you, Chairman Grassley, 
Ranking Member Wyden, and members of the committee, for the 
invitation to be here today. I am so humbled and thankful for 
the opportunity to share with you my experiences in a foster 
care group home.
    My written testimony details how I came to be placed in a 
group home setting, and, for the purposes of my oral testimony, 
I will focus on my experiences in a foster care group home.
    Shortly after I turned 17, the Connecticut Department of 
Children and Families decided to find a group home placement 
for me because there simply was not anywhere else for me to go. 
I was a great kid, but there were not many homes for someone my 
age. And DCF also felt that my anxiety and depression made me a 
poor fit for a family.
    When I entered the group home, I was informed that they 
would try to find me a family if I improved my behavior, as if 
my stay in the group home was a trial for me to prove that I 
was worthy of being loved.
    The group home I was placed in looked more like a business 
than a home. The walls were adorned with informational posters 
like those in doctor's offices rather than the familial photos 
that line the walls of my friends' houses. Outside the staff 
office on the second floor hung a whiteboard where the staff 
wrote down information, such as what was for dinner, instead of 
informing us of these things in person.
    Health regulations prevented residents from preparing their 
own food or entering the fridge without gloves, and the 
cabinets were locked to prevent us from stealing food when the 
budget limited the availability of snacks. Within the group 
home, there was a disciplinary system known as a ``level 
system,'' which was more militant than familial. It was a 
punitive system that granted us age-appropriate privileges as 
long as we maintained the most absolutely perfect behavior.
    When you first entered the home, you were on individual 
phase. You got 30 minutes on the computer and one phone call to 
someone outside of your family. Eventually, you could work your 
way up to the third phase, known as community phase, if you 
maintained absolutely perfect behavior for an incredible amount 
of time.
    On community phase, you could go for an hour walk by 
yourself. One of my fondest memories of high school was being 
able to walk to the local corner store and buy my favorite bag 
of chips with the meager allowance that I earned. However, 
these few privileges could be taken away in a single second. 
Any bad behavior, such as swearing, meant that you had every 
privilege taken away, no sacred home passes with your 
biological family and none of those few precious moments 
outside by yourself.
    These privileges were the only thing that kept me sane, and 
I felt constantly on edge, afraid that my lifeline would be 
taken away at any moment. I could not understand why I had to 
act perfectly just to have the basic social privileges of a 
child. Why was I being penalized for having been removed from 
an abusive home? I felt like a wrongly accused offender locked 
away for someone else's crime.
    The group home was staffed in rotating shifts. The staff 
were often tired and on edge due to being overworked and 
underpaid. They tried their best, but they were not supportive 
in their roles, and this was reflected in their interactions 
with residents.
    They would often remind us that they only put up with us 
for the paycheck. Additionally, the staff were not allowed to 
show any physical or emotional affection. During my entire year 
and a half in the group home, I was only told ``I love you'' 
one time, and it was in secret.
    The normalization of being cared for in exchange for profit 
and deprivation of affection led some residents to engage in 
sex trafficking. The group home staffs were also ill-equipped 
to handle the symptoms of my post-traumatic stress disorder. 
They saw my erratic, depressed behavior as acting out, when in 
reality I was a traumatized child trying to make sense of an 
incredibly irrational situation.
    I was also forced to take a myriad of medication. Every 
week, residents of the group home had to attend a mandatory 
meeting with a psychiatrist. If we skipped this meeting, we 
lost all our privileges, and we attended out of fear.
    The doctor prescribed me a pill for every emotion I was 
experiencing. If I was moody during our visit, he would give me 
a new prescription and claim that my behavior was due to mental 
illness rather than seeing moodiness as a normal teenage 
response to being forced to see a doctor.
    Although I desperately wanted and needed a family, there 
was no effort to find me one. They never found me a family 
after spending a year and a half in the group home, and I left 
to attend college. My transition to the dorm room was 
incredibly difficult, as I had no dedicated adults to support 
me as I struggled to acclimate to a college campus.
    It has been 4 years since I left the group home, and my 
life is so much better now. Two days ago, I graduated magna cum 
laude from Quinnipiac University, and I am moving to DC soon 
for a job at First Focus.
    I have completed rigorous treatment for my post-traumatic 
stress disorder. I am now able to enjoy the sweetness of every 
single moment of my incredible life.
    It is still difficult for me to talk about my experiences. 
To be truthful, I would rather put it behind me and just enjoy 
the fact that my life is better now. But I will never do that 
and I cannot do that, because I need to ensure that no other 
innocent child endures what I endured.
    Again, I want to thank the committee for the opportunity to 
testify and share my story, and I am happy to answer any of 
your questions.
    [The prepared statement of Ms. Gruber appears in the 
appendix.]
    Senator Grassley. Thank you very much.
    Dr. Kohomban? Go ahead, please.

   STATEMENT OF JEREMY KOHOMBAN, Ph.D., PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER, THE CHILDREN'S VILLAGE, NEW YORK, NY

    Dr. Kohomban. Good morning, Chairman Grassley, Ranking 
Member Wyden, Senators. Thank you for the opportunity.
    I am Jeremy Kohomban. I am the president and CEO of The 
Children's Village and our affiliates, Harlem Dowling and 
Inwood House. Founded in 1851, The Children's Village has been 
home to some of the earliest examples of residential programs 
in the Nation. Today our organizations serve more than 17,000 
children and families each year.
    We remain one of the largest residential treatment centers 
in the Nation, serving older teens, pregnant teens, teen 
mothers with children, girls who are trafficked, and even 
children adjudicated for sexual offenses.
    Effective residential care is very difficult to do. It is 
tough work. We are strong proponents of effective and 
responsive residential care. However, residential care is 
simply the wrong intervention for most children, including 
teens, a conclusion that the Annie E. Casey Foundation 
documents in their commendable policy report that was released 
today.
    Until a decade ago, our primary prescription was to remove 
and treat children away from families and neighborhoods that 
were considered bad. We followed the best practices of the 
time. We had the very best of intentions.
    While we sought to help, often we did not. Our practices, 
like the practices of child welfare nationwide, managed to do 
the opposite of what was intended. Children and families became 
system-
dependent. They never learned how to belong to each other and 
to act as family with the necessary give, take, and tolerance 
for one another's successes and shortcomings.
    In many cases, our children were aging out and returning to 
the same imperfect families that we kept them away from. They 
did so because they had no other place to go. Others drifted in 
and out of homelessness, disconnected from society, in frequent 
contact with the criminal justice system.
    Many say that the children in residential care are mentally 
ill. That is not true. The majority are children in pain, 
children born into poverty, and today they are children who are 
black and increasingly brown.
    Some will tell you that we cannot find kin or foster 
families to care for these children, especially to care for 
teens. I disagree. It is not easy, but we do it every day. A 
decade ago, The Children's Village had fewer than 50 foster 
families. Today, we have almost 400, many who serve teenagers 
in their homes.
    Changing the perverse incentives of the current funding 
methodology will help. When residential providers get paid by 
the day for each child, we are forced into business models that 
require keeping kids in beds rather than meeting kids' needs 
and helping them live with family. What is best for our 
Nation's children should no longer remain hostage to an archaic 
funding formula.
    The caution here: to safely reduce residential care, there 
has to be a substantial and sustained reinvestment in effective 
community services into the poor, economically disadvantaged, 
and the increasingly racially segregated communities where most 
child welfare children come from.
    A few weeks ago, a teen at our residential treatment center 
said this to me. He said, ``I'm smart. I have been here for 6 
months. My mom is a drinker. She chose not to get help. There 
were lots of drugs, bad money, and bad people in my house. My 
dad is in jail. I don't have contact with him. The Department 
of Social Services put my four younger brothers in different 
placements. I have been in many foster homes. They kept moving 
me. Finally, they sent me to The Children's Village. Sometimes 
I visit my brothers, but I never see my mother. Who do I trust? 
Not a lot of people. I come from a home where my mom beat me, 
but then she was beaten, too. Nobody visits me here; nobody. 
When I graduate, I am going to move down to Florida. There is a 
family friend down there. I am going to attend a big university 
that will take me, like Florida State, Jacksonville, or 
Daytona.''
    Mr. Chairman, I get it. There are no easy answers. Each 
time I hear stories like this, it breaks my heart. I do not 
want to see this boy suffer anymore. I want to keep him 
forever, but he can never truly belong at The Children's 
Village. No child does. They must all leave.
    We cannot undo his terrible past, but together we can help 
him build new memories. If we fail him, the chances are that he 
will recreate his experience with his own children, and he will 
be unprepared to participate in our great democracy. He will be 
disconnected.
    He deserves to know love. He deserves to belong to someone. 
He deserves to be with someone who believes in him, someone who 
helps him reach his American dream. He deserves nothing less 
than what my own children, Nicholas, Jordan, and Abigail, take 
for granted every day--the experience of unconditional love, 
family, and belonging.
    I know we can do this.
    [The prepared statement of Dr. Kohomban appears in the 
appendix.]
    Senator Grassley. Thank you.
    Mr. Reynell?

STATEMENT OF MATTHEW J. REYNELL, ADOPTIVE FATHER, ROCHESTER, NY

    Mr. Reynell. Chairman Grassley, Ranking Member Wyden, and 
all the members of the Senate Finance Committee, thank you for 
inviting me to testify today on this important topic to 
highlight the ways to safely reduce the over-reliance on group 
homes and congregate care.
    My name is Matthew Reynell. I am from Rochester, NY. I am 
excited to tell you about my family's story of adoption through 
the residential treatment facility where my son was placed.
    I met my son, James, on December 31, 2008, thanks to the 
help of a diligent representative at Children Awaiting Parents 
in Hillside who was able to locate him and convince the worker 
to take a shot. He had just turned 8 years old and was living 
at Crestwood Children's Center. James had been brought into the 
foster care system 4 years earlier with his siblings. Prior to 
residing at Crestwood, James had been moved around to several 
foster homes and schools. The foster parents at his last home 
had given him the promise of adoption of all the children 
together, but later decided that James was too much for them to 
handle and had him removed. This is how James came to 
Crestwood.
    I have always believed that no matter what reason, children 
should not end up in group homes or congregate care facilities. 
I viewed these places as awful, where problem children were 
dumped and then forgotten about.
    After learning that James resided at Crestwood, I became 
very upset and thought I needed to get him out of there as soon 
as possible. Going through the process of getting to know James 
through his case workers and treatment team, my attitude and 
beliefs about this awful place were changing.
    James had been severely neglected and received minimal 
schooling prior to arriving at Crestwood Children's Center. He 
could not read or write at age 8. James was a child who had 
always been labeled the problem kid, the kid who did not listen 
like the others, the kid who did not do his school work like 
the others. He had a history of outbursts that made people 
think of him as uncontrollable.
    As a child, not only did James have a difficult and grim 
history with many of the foundations of early childhood 
development absent in his young life, he was born with fetal 
alcohol syndrome and suffered severe neglect mentally, 
physically, and educationally.
    When he arrived at Crestwood, a treatment consisting of 
therapists, psychologists, clinicians, doctors, teachers, and 
occupational therapists was assigned to him. I learned to view 
these dedicated individuals as part of James' extended family 
and discovered the vital role that this team would play in our 
lives.
    However, I cannot help but think where James would be today 
if we did not find him, if he did not find us. The care and 
attention he received from the amazing people at Crestwood were 
crucial to his success in moving forward. Through his 
heartbreak and tragic home life that caused him to mistrust and 
fear his surroundings, as well as the individuals who cared for 
him, he could now truly open his heart and accept that he was 
going to be part of a family.
    I spent 5 months visiting James while he was at Crestwood 
and worked closely with our team. James received the attention 
he both needed and deserved. He was able to start reading and 
writing and functioning in a home environment and, most 
importantly, dealing with all of his past traumas.
    Through my experiences with Crestwood, it is my belief that 
there needs to be a set time frame for children to reside in a 
treatment facility. Please, if you take anything away from what 
I have shared thus far, understand that I think Crestwood is 
the exception in regards to what youth experience in congregate 
or residential care.
    If a child needs to be in a group home placement, the team 
and case workers should always be working to identify a 
permanent resource for that child, whether it be kinship care, 
an adoptive family, or a permanent foster home. Facilities 
should be required to have family inclusion policies. They 
should not be solely focused on the emotional and behavioral 
issues. These are breeding grounds for failure because these 
children have no identified exit strategy.
    Some people believe that treatment must be sustained and 
then permanency found, but in my experience, youth need to feel 
loved and protected by the people who care about them before 
they can start healing their hearts. In my case, I had known 
James for 5 out of the 10 months he had been living at 
Crestwood, and he had made tremendous progress both mentally 
and socially during this time. However, when I asked to move 
him home, the staff kept putting it off out of fear that it 
would not take. James then regressed back into old behaviors 
thinking that we are not going to take him back to our home.
    After moving into our home, James and I were still able to 
keep the same team through Crestwood Children's Center. James 
is now 14 years old, thriving, reading and writing at school 
level, and all of this, I believe, is because of the love of a 
family.
    Our aim and dream for all children in the foster care 
system should always be to find the child a loving, secure, and 
forever family. Now, having gone through this process, I 
understand and believe that to reach this goal may require an 
intervention of a residential treatment facility and the 
services they can provide to both the child and the adoptive 
parent.
    We need to have the group home staff, counties and others 
involved with the child, and the case workers collectively 
working toward the goal of a forever family, whatever that may 
be. I believe residential treatment is something that is 
sometimes needed for children, but we cannot get the outcomes 
we desire if they are set up to only treat the child and not 
include and support the parents or other caretakers the child 
is going to move in with.
    I will conclude with remembering a conversation that James 
and I frequently had in the car when we would take our day 
trips to know each other. We would sing along to songs that 
were popular on the radio and we would get laughing at the end, 
and I would say to James, ``You are a silly boy. What am I 
going to do with you?'' James would reply in a slightly serious 
tone, ``Keep me, please, daddy. Keep me.'' I did, and that 
decision is the best decision I ever made.
    Thank you very much for your time.
    [The prepared statement of Mr. Reynell appears in the 
appendix.]
    Senator Grassley. Thank you.
    Ms. Chang?

STATEMENT OF JOO YEUN CHANG, ASSOCIATE COMMISSIONER, CHILDREN'S 
   BUREAU, ADMINISTRATION ON CHILDREN, YOUTH, AND FAMILIES, 
    DEPARTMENT OF HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Ms. Chang. Chairman Grassley, Ranking Member Wyden, and 
members of the committee, it is my pleasure to appear before 
you on behalf of the Department of Health and Human Services.
    The administration believes that children are best served 
when raised in safe, loving families and that congregate care 
should be limited to children who need intensive residential 
care due to medical issues, and only for as long as those 
interventions are needed. That is why the President's fiscal 
year 2016 budget includes a proposal to limit the use of 
congregate care by increased monitoring and by promoting 
supported family-based care.
    We are grateful to you for having this hearing and bringing 
more attention to this issue.
    My name is Joo Yeun Chang, and I am the Associate 
Commissioner of the Children's Bureau. In this role, I oversee 
the Federal foster care and adoption assistance programs, as 
well as a range of prevention and post-permanency initiatives.
    At HHS, we work with State and tribal agencies that 
administer child welfare systems to ensure that vulnerable 
children in foster care are placed safely in the least 
restrictive, most family-like settings available and that are 
in the best interest of individual children.
    In March of 2015, the Administration for Children and 
Families issued a data brief providing a national look at the 
use of congregate care in child welfare. The brief was 
developed to provide a basic understanding of the use of 
congregate care and to answer the following questions: who is 
placed in congregate care; how long do children stay in these 
placements; are there any predictive factors; and what, if any, 
are the jurisdictional differences in the use of congregate 
care?
    To answer these questions, ACF conducted an analysis of 
State-reported data. We found that, on any given day, an 
estimated 14 percent of all children in foster care were in 
congregate care settings. We also found that children in 
congregate care are almost 6 times more likely to have a child 
behavior problem designation and 3 times more likely to have a 
DSM or mental health diagnosis compared to children in other 
settings. Most children in congregate care are in the setting 
for an average of 8 months, but those with a DSM diagnosis are 
most likely to stay in congregate care settings for more than 1 
year.
    In addition to this point-in-time data, which overly relies 
on children who have been in those settings for longer periods 
of time, we created a longitudinal cohort of children over a 5-
year period of time to better and more fully understand the use 
of congregate care. We found that older children consistently 
represented a majority of those who experienced congregate 
care, and, among these youth, 44 percent had a child behavior 
problem as at least one reason for entry into foster care, 21 
percent had a DSM or a mental health diagnosis, and 6 percent 
had a clinical disability other than a DSM diagnosis. We were 
troubled to find, however, that children with no clinical 
indicators comprised nearly 29 percent of children who 
experienced congregate care.
    Overall results indicate that youth with a DSM diagnosis 
and a child behavior problem indicator were most likely to 
experience congregate care at some point. Children with a DSM 
diagnosis were more likely to have congregate care as a 
subsequent placement, have been previously adopted, and have 
three or more placement moves compared to other subgroups.
    Children with a child behavior problem indicator were more 
likely to enter congregate care as their first placement, while 
in foster care have only one or two placement moves, and then 
finally exit to a permanent home. However, I want to note that 
youth with a child behavior problem indicator were also more 
likely to reenter care after they left and to be transferred to 
another agency, like the juvenile justice system.
    Based on the findings from the data brief and the insights 
we gained from States that have significantly decreased their 
use of congregate care, the administration developed a proposal 
in the President's budget to reduce the use of congregate care 
by significantly increasing the monitoring of congregate care 
use and promoting specialized family-based care. The 
administration's proposal for family-based care impacts any 
child who is in or at risk of being placed in a congregate care 
setting.
    The proposal would amend title IV-E of the Social Security 
Act to provide additional supports and funding to promote 
specialized family-based care as an alternative to congregate 
care for children with behavioral and mental health needs and 
to provide oversight whenever congregate care placements are 
used, at both the initial placement and at 6-month intervals.
    I very much appreciate the committee's interest in the 
issues raised today and the opportunity to speak with you. We 
look forward to working with you to address this crucial issue 
and to improve services for some of our most vulnerable young 
people.
    Thank you.
    [The prepared statement of Ms. Chang appears in the 
appendix.]
    Senator Grassley. Thanks to all the witnesses. I am going 
to start with Ms. Gruber, first of all, to thank you for coming 
to the committee and testifying and sharing your experiences. 
We have a lot to learn from such experiences.
    To begin with, were you involved in determining which 
treatment options were available to you?
    Ms. Gruber. Thank you for your question, Mr. Chairman. My 
input was not taken into consideration. I also had other family 
members, like my uncle and other mentors, who tried to speak 
about what I needed, and their input was not taken as well.
    Senator Grassley. If it is valuable to the committee, I 
would like to have you describe any therapy or counseling that 
was available to you. But the most important thing is, if you 
do not think you need to describe it, do you feel that these 
interventions were helpful?
    Ms. Gruber. The therapy that we received in the home was 
focused on our behaviors and not our trauma. There was no 
connection between why are we acting out and do we understand 
where these behaviors come from.
    There were no trauma-informed practices, and I think that 
was one thing that was really harmful. For example, a lot of 
the therapy I received in the home was about me surviving my 
present situation, and I often discussed how I wanted a family 
and how I did not feel like I was worthy of love because of my 
current situation.
    So I was not even able to deal with the trauma that brought 
me into foster care until I was in college. And so I think that 
is one thing that we can learn from this: being more trauma-
informed and focusing on the trauma rather than the behaviors.
    Senator Grassley. Thank you.
    Mr. Reynell, thank you for appearing before the committee, 
but more importantly, for opening up your home for adopted 
children, and thank you very much for helping them and for what 
you do.
    First question: do you agree that families who want to open 
their homes to children coming from more restrictive placements 
like a group home face a challenge as a child steps down to a 
less restrictive setting?
    Mr. Reynell. Thank you very much. I do, but if there is a 
carefully planned timeline of when that child steps down and 
what supports that you are going to have in place--our supports 
happened to be right through the residential facility where our 
son came from. And we, as the parents, were the driving, 
pushing force towards that, to get him home and say, we will 
deal with what comes next and use the tools and also the staff 
that they have in the treatment facility.
    Senator Grassley. Could you describe the challenges you 
faced with your son and the services and support that helped 
you manage his needs?
    Mr. Reynell. Definitely. James had severe PTSD when he came 
home. He also had fetal alcohol syndrome. He had about 7 homes 
within 4 years, being removed from, first, his biological 
mother and then being removed from his biological siblings.
    James needed a lot of support in all areas: educationally, 
mentally, and physically. We arranged that the Crestwood 
Children's Center would provide us with outpatient care to 
provide him still with his educational resources, psychology 
resources, as well as occupational therapy resources.
    The moneys that we received on behalf of James also all 
went to James's care. We got him tutors as well as an outside 
therapist to come in and work with us in the home.
    Senator Grassley. Ms. Chang, how can we help ensure that 
more children are placed with kin instead of relying on group 
care?
    Ms. Chang. Thank you, Mr. Chairman. That is a great 
question. I think kin are often underutilized and tend to be 
the type of providers who will provide stable homes, 
particularly for children with social and emotional needs.
    One of the things that was really interesting that we found 
in our research was that, even though children with child 
behavior problems or a mental health diagnosis tended to go 
into congregate care, that percentage decreased when kids were 
initially placed with relatives.
    And what we found is, it is pretty intuitive. Relatives are 
more likely to fight harder, to get therapies, and put up with 
things that they may not understand or initially know how to 
deal with. And so I think relatives can be a crucial partner 
with us in helping keep kids out of congregate care.
    With that said, they do sometimes need additional supports. 
They may need specialized help from the case worker who 
actually understands the social and emotional needs of that 
child, who has more time to give to that family, and they may 
need additional support--perhaps the child needs day treatment.
    And so that is one of the reasons why we would support an 
effort to allow IV-E payments to be used to provide additional 
supports to bolster that family so that the child can remain in 
the home and not go into congregate care.
    Senator Grassley. I am going to call on Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman. All of 
you have been great. Ms. Gruber, your testimony was so 
powerful. And what I want to explore with you a little bit more 
is how we can tap the extraordinary untapped potential of kin, 
because I think that this is an area where--and I am just going 
to take a minute to give you a bit of the history.
    Back in the middle 1990s, you might recall, there was a lot 
of discussion about orphanages, and that was all over the news. 
Newt Gingrich said we were going to have to put kids in 
orphanages. And I pointed out at that time that not every one 
of those orphanages is Boys Town and that was something that we 
ought to think about, and I managed to get passed a law called 
the Kinship Care Act.
    What it basically said was, aunts and uncles would have 
first preference in terms of caring for a youngster, a 
grandchild, niece or nephew, as long as they met the child 
custody standards.
    It seemed that things were getting a little bit better for 
a while. We actually had a formal Federal law. It was the first 
Federal law--Ms. Chang remembers this--the Kinship Care Act, 
and it was passed in the middle or late 1990s.
    What I was struck by is--and I want to make sure everybody 
gets to hear this, because I do not think it was part of your 
verbal testimony--here we had a situation where you felt that 
your uncle clearly could meet the child custody standards. He 
basically was not allowed to because he was short one bedroom, 
and the social worker, the staffer, I think you said, could 
have gotten a waiver, but basically just did not bother to go 
out and get the waiver.
    Is that a fair statement of what happened?
    Ms. Gruber. That is an incredibly accurate story about what 
happened. I was placed with my Uncle Chris and Aunt Karen, who 
were very involved with my church. I was still able to be part 
of that community, which was very important to me, and they 
fought to keep me in their home, but because he had one fewer 
bedroom--and there could have been things done.
    There could have been a waiver passed, working with us, but 
it was not done. And my uncle continually reached out to the 
Department and said, ``She needs to stay here.''
    I was also with my sister. And when he reached out to them, 
they basically said, no, stonewall up, we are not going to work 
with you. And from my interpretation of that, it was because it 
would have been more work.
    Senator Wyden. It would have been more work for the 
bureaucracy.
    Ms. Gruber. Yes. And so the bureaucratic technicalities 
weighed more than permanency for me, and it was so important 
for me to live there, but they separated me and my sister. And 
they took me from my uncle's home, and they dropped me off at a 
shelter.
    So now I had gone from being removed from my biological 
family and my beloved dogs to being placed with my uncle, to 
being removed from him again, and now I was homeless, and I 
spent the next 2 years bouncing between homeless shelters, 
group homes, and short-term placements.
    Senator Wyden. I want you to know that I am going to make 
sure, as we talk about this, that we are going to do this in a 
bipartisan way with Democrats and Republicans. This account 
that you have just given provides a real wakeup call to this 
committee, because this is something, colleagues, that should 
not have happened. It should not have happened.
    It is clear that your uncle pulled out all the stops to 
prove that he could provide the kind of quality and healthy 
care that you needed, and yet basically the bureaucracy 
triumphed over common sense. That is essentially what happened 
in this case, and that is what we started trying to prevent 
back in the middle 1990s when we said, look, kin is the best 
place to go.
    I had some particular involvement in it because, before I 
came to the Congress, I was director of a senior citizens 
group, and they said, we want to play a bigger role in this.
    So I am going to wrap up. Ms. Chang, what are we going to 
do now to punch some flexibility into this so that the kinds of 
accounts that Ms. Gruber has given us go into the dustbin of 
history? Because this was a situation where an uncle could have 
ensured that this youngster had a healthy experience, and 
basically he got worn down by the bureaucracy and red tape that 
basically said, bureaucracy counts more than common sense.
    What are we going to be able to do in this bill? And, as 
you know, I put out a draft that focuses primarily on 
flexibility, to make sure that Ms. Gruber's account basically 
goes into the dustbin of history and we have finally achieved 
what we thought we were doing in the 1990s, with a streamlined 
way to make sure that kin who could deliver quality care could 
have that opportunity. Response?
    Ms. Chang. Sure. I thank you for the question, Senator 
Wyden.
    I appreciate your passion, and I think it is exactly this 
type of leadership and vision that we need to move the field in 
a different direction.
    I think what happened to Lexie should never happen to any 
child. You are absolutely right that when a family member is 
available, we should do everything in our power to make sure 
that they can stay in their care and not get in the way of our 
own selves.
    I think there are a couple of things that we can do. One, 
the draft bill, that discussion draft that you described, would 
be an incredibly important step in that direction. If children 
do not need to come into the foster care system in the very 
first instance and then eventually end up in congregate care, 
we should ensure that that is possible, and your discussion 
draft supports that by providing supports to family members 
before kids ever even come into foster care.
    But if they do come into foster care, we believe very 
strongly that, before any child is placed in a congregate care 
setting, there needs to be a judicial review and that the child 
welfare agency needs to demonstrate that they have done an 
evaluation of the child and that there is a compelling reason 
to place that child in that facility, that the facility has the 
capacity to meet the individual needs of that child, and that 
they have a plan to get them back into a family in a reasonable 
period of time.
    So the first step is, you keep kids out of foster care if 
at all possible. Two, you should document that they need to be 
placed in congregate care. And three, you need to support all 
families, including relative caregivers, so that they have the 
capacity to meet the unique and sometimes complex needs of 
children who have experienced trauma and come into the foster 
care system.
    We know we can do this. We just need to actually do 
something bold in legislation that tells States, this is what 
we expect of you, and we are going to give you resources to 
make it possible.
    Senator Wyden. Mr. Chairman, my time is up.
    I would only say, Ms. Chang, that sounds very constructive. 
I would like you to start working with the bipartisan Finance 
Committee staff, Ms. Berntsen, who worked on the draft. And I 
would like to note that her folks are here. So we are very 
proud of the Pacific Northwest, the great work done by Ms. 
Berntsen, and we are happy to have the family here.
    But this can be done in a bipartisan way, colleagues. This 
should not have happened to Ms. Gruber, and what we need, Ms. 
Chang, is for you to work with the bipartisan staff, and let's 
get this done.
    Thank you, Mr. Chairman.
    Senator Grassley. Senator Stabenow, then Senator Casey, and 
then Senator Bennet.
    Senator Stabenow. Well, thank you again, Senator Grassley, 
and to Senator Wyden, thanks. I share your passion and 
commitment on this.
    This is a very important hearing, and we need to do much, 
much more to shine the light of day on what is happening.
    Ms. Gruber, again, to echo what other colleagues have said, 
thank you for coming and sharing what has to be an incredibly 
difficult story to tell, but the good news is you persevered. 
And congratulations on your recent graduation, your new job, 
and your commitment to continue to tell the story, because what 
happened to you should not have happened, and you can help us 
make sure we stop it from happening to any more young people.
    None of what has happened to you is your fault, and it is 
great to see that you are able to go on and understand that. I 
hope you do understand that and are able to go on and 
understand that you can really make a difference.
    Mr. Reynell, thank you for sharing your story as a foster 
parent. James is lucky to have you, and I know you are lucky to 
have him, and so it is great.
    First, let me say, before talking about a particular 
subject--and to follow up on Senator Wyden's proposal to 
increase funding for prevention and family services, which are 
so critical--Ms. Chang, when we talk about making these 
changes, do we have to wait for legislation?
    What can you do in the Department through rules? How can we 
address this question? I have so many questions for you. Ms. 
Gruber's uncle, did he have appeals? I mean, what is the 
process here?
    We are swallowing up children day after day in bureaucracy, 
and this has gone on for years and years and years--and we try 
to fix it. I have been working on this for years and years, 
and, in Michigan, we have put in timetables to move children to 
adoption and do these other things, and then we still have 
situations happening.
    So do we need to pass legislation and all that it takes to 
do that, or what can you guys just do to fix this internally?
    Ms. Chang. Senator Stabenow, thank you so much for the 
question. I share your frustration. If there was anything in my 
power that I could do to make a significant shift in the way 
children are placed in congregate care settings, I would 
absolutely do it.
    That is one of the reasons why we spent so much time 
developing this data brief. We wanted to understand the issue 
and also see what we could do through administrative policy.
    Unfortunately, I do believe that legislative change is 
necessary. The Congress has done so much over many years, with 
much of your leadership here, to change child welfare policy. 
You have made more clear through legislation that States do 
have the discretion to waive individual things like whether you 
are missing one extra bedroom in your house for relatives. And 
the reality is, that has not significantly changed action among 
States.
    I think it is going to take something with a lot of vision 
and clarity from Congress to really change the way we do 
business and the way we approach families.
    Senator Stabenow. So, in order for us to get common sense, 
that you do not have to have an extra bedroom, that rather than 
a young person being on the street, maybe you ought to bring in 
a portable bed that you can get from any store, a blow-up 
mattress--I have those in my house for guests--we have to 
actually pass a law to fix that?
    I just have to say, we had better all see this as a wakeup 
call. For common-sense things like a loving uncle versus the 
street, it does not seem like a tough question to me. And so I 
want to work with you on this, but I would just say that I am 
not suggesting that somehow there is not all kinds of 
bureaucracy there, but this ought to be able to be fixed.
    But let me ask, when we look at the use of congregate 
care--because I want to talk about something else as well--I am 
worried that we are going to be hard-pressed to reduce the use 
of congregate care without making key investments in a wide 
range of programs to support children and families.
    I realize that we need to do that probably before they even 
interact with the foster care system. That is really what 
Senator Wyden was talking about as well, and I am appreciative 
of working with Senator Grassley on the caucus.
    One of those areas is therapeutic foster care, and I wonder 
if you might speak about the clinical intervention for youth 
who have serious mental or emotional or behavioral needs, 
which, for a variety of reasons, is true for children being put 
in this situation, and that, if we are looking at therapeutic 
foster care, we are looking at children being placed with a 
highly trained foster parent and we see the intensive in-home 
services and hopefully the least restrictive outpatient 
placement.
    As you know, there are approximately 40,000 children in all 
50 States receiving services right now, but there is no Federal 
definition under Medicaid for this.
    So we have had legislation. I have had it for a number of 
years. Senators Baldwin and Portman have introduced a bill that 
I am proud to be cosponsoring with Senator Casey and Senator 
Brown to define therapeutic foster care benefits to increase 
quality of care. It is low-cost.
    I hope, Mr. Chairman, that our committee could pass that. 
It is a really important step that we could take.
    Ms. Chang, I wonder if you might speak to that and the 
tools that you need to improve support services for children 
and ultimately keep them in loving homes and out of congregate 
care.
    Ms. Chang. Thank you. We absolutely believe that 
therapeutic foster care is a crucial component of reducing the 
reliance on congregate care. What we are saying is that 
children can get therapies and intervention in homes sometimes 
better than they can in institutional settings.
    But in order for that to be realized, we need to provide, 
as you said, the supports necessary to make that possible. So 
we think that has at least two components. One is training case 
workers so that they can provide supports and identify what a 
family needs.
    A child's need when it is that intensive is not going to be 
static. So from the first time the case worker sees the child, 
over time those needs may change. A case worker needs to have 
enough training to really understand the evolving needs of the 
child and the family.
    So we would have enhanced rates of reimbursement for 
specialized training for case workers. We would also provide 
them with enhanced rates of reimbursement for providing that 
type of support to families, because we know if you have a 
caseload of children with specialized needs, you are not going 
to be able to see as many families because your workload is 
going to be higher. So we think that is a really important 
component: really supporting case workers.
    On the other side, families need to be trained. The good 
news is that relative caregivers, Lexie's uncle, he could be 
trained to be a therapeutic foster parent. This is not limited 
to strangers or professionals.
    If they get the proper training, they could take kids into 
their homes and provide that therapeutic environment 
themselves.
    Senator Stabenow. Thank you.
    Senator Grassley. Senator Casey?
    Senator Casey. Thanks very much, Senator Grassley. I want 
to commend the words of Senator Wyden and his passion and his 
work on this for so many years.
    I realize that most of what we have to do is by way of 
legislation. Sometimes there is no other way to correct a 
problem than to pass a statute or to revise what we have done 
in the past.
    But I want to explore with the panel some ideas about doing 
things in the near term absent the passage of a bill, because 
you might have noticed that, around here, it does take a while 
to get a bill passed.
    So I want to start with Ms. Gruber. I did not hear your 
testimony, but I read it. You have become so familiar now to 
people in the room. Is it okay if I call you Lexie? Everyone is 
calling you Lexie. We do not usually do that. We usually have 
titles and all of that.
    But I was struck by a couple of things you said in your 
written testimony that are so fundamental to how human beings 
interact and what we all need in our lives growing up. You said 
on the second page of your testimony, quote, ``I desperately 
needed the love and support of a family.'' On page 3, you said, 
``I wanted to be able to make my own sandwich again,'' 
something that simple. When you are trying to make your way in 
the world, you want to be able to have some freedom to do 
something that fundamental and simple.
    At the bottom of that page, you had a question: ``Why was I 
being penalized for having been removed from an abusive home?'' 
On the next page, you say, ``I did not receive much emotional 
support or affection.''
    So I cite those all to indicate that what you were seeking 
was not some sophisticated policy or even a trained expert to 
help you through the difficulty you were facing. You just 
needed the basics that a family can provide or something 
comparable to that.
    That is a very powerful statement, and sometimes here we 
have all kinds of theories or policy discussions, but once in a 
while, it is that simple and that profound at the same time.
    Maybe I will start with you, but before I do that, I also 
want to say how much I was impressed by what you have overcome. 
Your story is kind of a triumph of the human spirit.
    I noticed in your testimony you said you graduated from 
Quinnipiac University magna cum laude. I took 4 years of Latin. 
I know that means with high honors. So you should be very proud 
of that.
    But what would you hope that we would do short of passing a 
bill like the one Senator Wyden is talking about, which we hope 
to do and should do? Between now and then, what would you hope 
we would do?
    Ms. Gruber. Thank you for your kind words and compliments. 
I think sometimes when we--I used to work in the House, and I 
think, when we are on Capitol Hill, we get all wrapped up in 
the Federal policy and kind of this utopia. We are having a 
very utopian conversation about how we have these really 
difficult needs and no place to put these kids.
    In an ideal world, what could we do? When you are on the 
ground level and you are on the State and city level, you are 
really dealing with these immediate problems. You do not have 
the privileges and luxuries of being able to theorize the way 
that we have the privilege of doing here.
    I think that we need to really empower the people who work 
in group homes. The staff at my group home, they tried so hard. 
They were paid barely over minimum wage, and they had to work 
three to four jobs, and I think that is a violation of ethical 
labor standards. And I think that we need to empower our 
employees who are taking care of these vulnerable children so 
that they can take care of themselves and their families and 
come to work ready to care and support us in the way that we 
need too.
    Senator Casey. Thank you. I have only less than a minute, 
but, Doctor, is there anything you could add to this in terms 
of kind of short-term things that we could do?
    Dr. Kohomban. Lexie is right. The front lines of our work 
are highly stressed, but I think organizations and leadership 
can provide some flexibility.
    If Lexie had been at Children's Village--I wish she would 
have been--I would have hoped that she would have called me 
directly and said, ``You are the president of Children's 
Village. Why is this happening to me?''
    I think our organizations are often too hierarchical, and 
the people who can truly make the decisions are out of touch at 
times. Not that they do not care, they are just too busy. And 
if we could drive down a culture that says that the most 
important thing I do as the president of Children's Village is 
make time for someone like Lexie, there is nothing more 
important than that, that can make the difference between how 
she feels and her ability to persevere through the system.
    So there are things we can do locally.
    Senator Casey. Commissioner, you answered a couple of 
questions. Maybe I will have you answer one in writing. We are 
over time.
    But is there anything you want to say, Mr. Reynell?
    Mr. Reynell. Just that the love of a family, like Lexie was 
saying, is definitely that catapult that these children need 
who are in residential treatment.
    My son James was not moving forward with his treatment 
while he was living there, and everybody was amazed when he was 
catapulted to reading and writing at grade level and being able 
to participate and be part of a family again. And they kind of 
said, ``Why do you think this is; what did you do differently; 
what tutors did you use; what therapist did you use?'' And I 
said, ``Really I think it was all about the love of a family.''
    So I think, really, finding these children what their 
forever family is going to be, whether it is kinship care or 
through adoption, is definitely the way to go.
    Senator Casey. Thanks very much.
    Senator Grassley. Senator Bennet, I hope that you might be 
the last one and then would close us down. I have an 11:15 
appointment. Would you do that?
    Senator Bennet. I would be happy to do it, Senator 
Grassley.
    Senator Grassley. And I want to thank all of you, not only 
for this Senator, but Senator Hatch, who could not be here, and 
Senator Wyden. They both have important pieces of legislation 
on the floor. They are not ignoring you. This is a very 
important issue. It involves things that some of us, like 
Senator Wyden had said, have been working on since the 1990s.
    Thank you very much.
    Senator Bennet, go ahead.
    Senator Bennet [presiding]. Thank you, Senator Grassley.
    I would like to thank the panel. I missed your testimony, 
but I read your testimony and it was excellent, and I 
appreciate it.
    Day after day, I am amazed in this place how many 
unintended consequences there are that flow from the 
legislation that we write, and I do not think that is 
particularly excusable, but when it comes to our kids, it is 
even more inexcusable than anything else we do.
    I actually wish the entire committee had been here to hear 
this discussion. And I know with Senator Casey and others, we 
will work very hard to make sure that this testimony actually 
does result in legislation.
    I wonder, Ms. Gruber--your testimony was so compelling, the 
life you have lived is so compelling--if you had to boil it 
down to one or two things, as we close this hearing, that this 
committee ought to pay attention to as we move forward, and I 
know you have said versions of it before, but just to simplify 
it and to have it on the record, what are those one or two 
things?
    Ms. Gruber. Well, I think probably the most important thing 
is that we have to believe in and empower our most vulnerable 
children.
    I think one of the reasons why I ended up in a group home 
was because they thought I was a lost cause, that I was not 
going to go anywhere in life.
    I am going to have an incredible life. I am going to do 
incredible things, and I know every child in foster care can 
too if they have someone who believes in them. So we have to 
change the way that we feel about and value vulnerable and 
sometimes broken children.
    I think, second, it is so important for us to remember that 
the sex trafficking that occurs in group homes needs to be 
discussed, and it needs to have ended yesterday. Unfortunately, 
people think that sex trafficking happens in foreign countries, 
but it happened at the home that I lived in. And unfortunately, 
some of my foster sisters who--I actually called them to get 
some feedback on my testimony. Some of my foster sisters who 
were trafficked are still in prostitution. They are still 
addicted to drugs. Some of my foster siblings are dead, and I 
want us to remember the power of that, because, if that is one 
thing that we can discuss today and that we can change today, 
we need to end the sex trafficking of these girls.
    Senator Bennet. Well, they are fortunate to have you as an 
advocate, and we will get after it here. I want to assure you 
of that.
    Ms. Gruber. Thank you.
    Senator Bennet. Ms. Chang, in Colorado, our waiver has 
allowed a large degree of flexibility to reduce dependence on 
group homes and congregate care. We have been able to not just 
target children who need the most immediate help, but children 
who could be at risk of entering foster care as well, and this 
is an area that our office is interested in working on with 
Chairman Hatch and Ranking Member Wyden.
    How is HHS, through its waivers, helping States reduce 
their dependence on congregate care, and what will happen in 
2019 when these waivers expire?
    Ms. Chang. Thank you for that question. I do think the 
waivers provide a really interesting glimpse into the struggles 
and the heart of many State child welfare agencies. When we 
looked at the over 27 States and tribes that have a waiver, 
what we found was that most of them have decided to use the 
dollars that they have flexibility to use to invest in 
prevention.
    What they really are saying is that, one, kids who do not 
need to be coming into foster care are unnecessarily coming in, 
and they are coming in because we do not have access right now 
to a guaranteed source of Federal funding for prevention 
services.
    The second is that they are investing in interventions to 
keep kids out of congregate care settings or to get them out of 
congregate care settings. This is a really complex issue. There 
are issues around the needs of children, but this is also, at 
the heart of it, a business issue.
    So one of the things that Colorado is struggling with is 
that the congregate care providers are a very strong business 
entity that fights to stay in business, and one of the things 
that we found among States that have successfully reduced the 
use of congregate care is that States have been able to 
negotiate with those businesses to have a different business 
model.
    What they said is, we will pay you to care for kids in 
their homes instead of caring for them in institutions. Now, 
that has worked in States that have had the money and the 
flexibility to make those decisions. We want to see a shift in 
Federal policy so that you are not subject to kind of the whims 
of geography and whether your State legislature has decided to 
use its money that way.
    Senator Bennet. Doctor, do you want to get in on this 
conversation?
    Dr. Kohomban. Private providers need to find ways to change 
and transform, or I think we should go out of business, because 
we should not let our business interests get ahead of what is 
good for kids. And I think Lexie's example is an unusual one. 
Most of our children do not reach the heights that Lexie has 
reached. So please remember that Lexie is an anomaly and we 
love her for that, but we need to have 10,000-50,000 Lexies 
every day.
    Senator Bennet. She is the patron saint of lost causes, I 
would say.
    I think that is a very fine way to end this hearing. I want 
to thank all of you on behalf of the committee for appearing 
here today.
    I want to thank all the Senators who participated. This, as 
I said, has been a very compelling discussion, an unusually 
compelling discussion for this place, and I appreciate 
everybody's participation.
    Any questions for the record should be submitted by no 
later than Tuesday, May 26th.
    This hearing is now adjourned. Thank you for being here.
    [Whereupon, at 11:53 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


               Prepared Statement of Hon. Maria Cantwell,
                     a U.S. Senator From Washington
    I applaud the Chairman and Ranking Member for holding today's 
important hearing on the use of group homes in states' child welfare 
systems. While group homes may serve a purpose for some children in 
specific circumstances, we should be exploring ways to responsibly 
limit the use of congregate care so that it supplements, rather than 
supplants, family-based care. I look forward to working with the 
Committee to improve federal incentives under the title IV-E program, 
so that, among other aims, we can cut down on the use of group homes 
and congregate care when better options exist for foster youth.

                                 ______
                                 
     Prepared Statement of Joo Yeun Chang, Associate Commissioner, 
  Children's Bureau, Administration on Children, Youth, and Families, 
                Department of Health and Human Services
    Chairman Hatch, Ranking Member Wyden, and Members of the Committee, 
it is my honor to appear before this Committee on behalf of the 
Department of Health and Human Services (HHS). The Administration 
believes that children are best served when raised in safe, loving 
families, and congregate care use should be limited to children who 
need intensive residential care due to medical issues, and only for as 
long as those interventions are needed. That is why the President's 
Fiscal Year (FY) 2016 Budget includes a proposal to limit the use of 
congregate care, to increase monitoring of congregate care use, and to 
support family-based care as an alternative to congregate care. We are 
grateful to you for having this hearing and bringing more attention to 
the issue.

    My name is Joo Yeun Chang, Associate Commissioner of the Children's 
Bureau. I have worked as a national advocate on child welfare policies 
as a senior staff attorney at the Children's Defense Fund, and 
immediately prior to my appointment to the Bureau, I worked at Casey 
Family Programs Foundation where I worked closely with state and local 
child welfare agencies. In my current role, I oversee the Federal 
foster care and adoption assistance programs as well as a range of 
prevention and post-permanency initiatives.

    At HHS, we work with the state and tribal agencies that run child 
welfare systems to ensure that vulnerable children in foster care are 
placed safely in the least restrictive, most family-like settings 
available and that are in the best interests of each child. Federal law 
gives states flexibility and discretion to make decisions for a child 
on a case-by-case basis to ensure that the best placement is made and 
the individual safety, permanency, and well-being needs of the child 
are met.

    According to the most recent data we have available, in FY 2013, 
there were 402,378 children in foster care, including both IV-E and 
state-funded foster care. Over the past 15 years, we have seen a 
dramatic decline in the total number of children in care, from a high 
of 567,000 in FY 1999 to a low of 402,378 in FY 2013. In FY 2013, the 
average age of a child in foster care was nine, but very young children 
and teens represented the highest subgroups of children in care. 
Seventy-five percent of children in foster care lived in a foster 
family home, 14 percent lived in congregate care settings, and 5 
percent have returned home on a trial basis. Most children and youth in 
foster care are there for less than 2 years; 20 percent are in care for 
2 to 4 years; and 8 percent are in care for 5 years or longer. Of all 
exits from care during the year, the majority (87 percent) exited to a 
permanent home. However, far too many children spend too much of their 
childhood in care without the benefit of a safe, permanent family. For 
children entering care during the year, less than half reached 
permanency within 12 months, and approximately 8 percent of those 
children later re-entered care within 12 months.

    Congregate care includes care in a group home or institution such 
as a child care institution, residential treatment facility, or 
maternity home. There is consensus across multiple stakeholders that 
most children and youth, especially young children, are best served in 
a family setting rather than in group or institutional care. Congregate 
care should be used not as a default placement setting due to a lack of 
appropriate family based care, but as part of a continuum of 
interventions; the question is not if congregate should ever be used, 
but when, for whom, and for how long. The Administration believes that 
stays in congregate care should be based on the specialized behavioral 
and mental health needs or clinical disabilities of children. It should 
be used only for as long as is needed to stabilize the child or youth 
so they can return to a family-like setting.

    In March 2015, the Administration for Children and Families (ACF) 
issued a data brief providing a national look at the use of congregate 
care in child welfare. The brief was developed to provide a basic 
understanding of the use of congregate care, and answer the following 
questions about congregate care utilization:

  (1) Who is placed in congregate care?

  (2) How long do children stay in congregate care?

  (3) Are there any predictive factors?

  (4) What are jurisdictional differences in the use of congregate 
        care?

    To answer these questions, the Children's Bureau, within ACF, 
conducted an analysis of state-reported data through the Adoption and 
Foster Care Analysis and Reporting System (AFCARS). A point-in-time 
analysis of AFCARS found that as of September 30, 2013, (the most 
recent data available), an estimated 14 percent of all children in 
foster care were in congregate care.

    In addition to point-in-time data, we created longitudinal cohorts 
of children who experience congregate care. We followed children who 
entered care in 2006, 2007, and 2008 over 5 years. Older youth 
consistently represented a majority of those who experienced congregate 
care; they made up 69 percent of children and youth who experienced 
congregate care in the 2008 cohort. In our analyses, we found that we 
could effectively group these older children on the basis of diagnosed 
clinical disabilities and/or removal and placement into foster care due 
to a ``child behavior problem'' (CBP). The aforementioned grouping 
resulted in four subgroups:

    (1) children without a clinical diagnosis or CBP but had very 
likely experienced some type of maltreatment, (2) children with at 
least a mental health diagnosis according to the statistical manual of 
mental disorders (DSM), (3) children with a CBP excluding all 
disabilities, but who may have experienced some maltreatment and 
finally, (4) children with any clinical disabilities excluding a DSM 
diagnosis.

    For the older youth population in congregate care, children whose 
reasons for removal from their home include having been identified as 
having a CBP but who do not have a reported DSM diagnosis, nor any 
other disability represented 44 percent of the children in the cohort 
who experienced congregate care. Children with a DSM diagnosis 
represented 21 percent, children with a clinical disability other than 
a DSM diagnosis represented 6 percent, and children with no clinical 
indicators, nor a CBP comprised nearly 29 percent of the children in 
the cohort who experienced congregate care. Among youth with a social/
emotional issue, those with a CBP were more likely to initially be 
placed into congregate care for treatment; youth with a DSM diagnosis 
were more likely to be subsequently placed in congregate care because 
they were not able to safely remain in traditional foster family care. 
Overall, results indicate that youth with a DSM indicator and CBP 
indicator h may experience a need for higher levels of care. Children 
with a DSM diagnosis were more likely to have congregate care as a 
subsequent placement, be previously adopted, and have three or more 
placement moves compared to the other subgroups. Children with a CBP 
indicator were more likely to enter congregate care as their first 
placement, have only one or two placement moves, and exit to 
permanency. These children also were more likely to reenter care and be 
transferred to another agency, which may indicate a need for longer 
term stabilization in an alternate setting.

    Further analysis of those children in care as of September 30th, 
2013 (point-in-time data), demonstrated that children currently in 
congregate care are almost six times more likely to have a ``child 
behavior problem'' designation and three times more likely to have a 
DSM diagnosis compared to children in other foster care settings. Also, 
on average, these children had spent 8 months in their current 
congregate care setting compared to 11 months for children in non-
congregate care settings. However, the overall time in foster care was 
longer for the children in a congregate care setting compared to those 
were in settings other than congregate care, with an average of 27 
months compared to 21 months respectively.

    There has been a significant decrease in the percentage of children 
placed in congregate care settings in the past decade, and this 
reduction is at a greater rate than the overall foster care population. 
Proportionately, children in congregate care comprised 18 percent of 
the foster care population in 2004 and 14 percent in 2013. While these 
trends suggest that child welfare practice is moving toward more 
limited use of congregate care, the depth of improvement is not 
consistent across states, and in some states the use of congregate care 
has increased.

    In order to understand how states have reduced the use of 
congregate care at the state and local level, HHS interviewed a number 
of state and local officials. The data brief highlights practices that 
states and local jurisdictions have used to shorten lengths of stay in 
congregate care, develop alternative interventions for children and 
youth with complex social/emotional needs, and increase the 
effectiveness of congregate care as an intervention for those who need 
it for limited periods of time. A number of states shared that 
increasing placement with relatives has helped reduce the need for 
congregate care. For example, Texas has placed an emphasis on family 
finding and kinship placements in response to the passage of the 
Fostering Connections to Success and Increasing Adoptions Act of 2008. 
An indirect result of increased placements with kinship families has 
been a reduction in the numbers of children placed in congregate care. 
Utah has developed a method of evaluating its congregate care programs 
(e.g., outcome measures, qualitative interviews with youth) to ensure 
that children who need residential services are placed with providers 
who have demonstrated an ability to meet those particular needs.

    Based on the findings from the data brief and the insights we 
gained from states that have significantly decreased their use of 
congregate care, the Administration developed a proposal in the FY 2016 
President's Budget to reduce the use of congregate care by increasing 
monitoring of congregate care use and supporting family-based care as 
an alternative to congregate care. The Administration's proposal for 
family-based care impacts any child who is in, or at-risk of being 
placed in, a congregate care setting. The proposal would amend title 
IV-E of the Social Security Act to provide additional support and 
funding to promote specialized family-based care as an alternative to 
congregate care for children with behavioral and mental health needs, 
and provide oversight when congregate care placements are used. The 
proposal addresses four specific areas:

   It requires an initial justification of appropriateness:

    <all> If a child must be placed in a congregate care facility, 
            title IV-E agencies would be required, as a condition of a 
            child's title IV-E eligibility which provides Federal 
            assistance with the cost of caring for a foster child, to 
            justify congregate care as the least restrictive foster 
            care placement setting appropriate to meet the child's 
            needs. Title IV-E agencies would be required to document 
            their assessment of the child's medical and behavioral 
            health needs that indicate a congregate care setting is 
            necessary. This assessment also would identify the specific 
            goals the child must achieve for discharge to a lower level 
            of care and a more family-like setting, and the time frame 
            in which this transition will occur.

   It would require the continued justification of the appropriateness 
        of the congregate care placement:

    <all> States would be required to request a judicial determination 
            at 6 months and every 6 months thereafter that the 
            placement in the congregate facility is the best option for 
            meeting the child's needs and that the child is progressing 
            towards readiness for a more family-like setting.

   It provides for smaller caseloads and specialized case management:

    <all> Title IV-E agencies would be reimbursed with 60 percent 
            Federal financial participation (FFP) for specialized 
            casework, and 80 percent FFP for specialized caseworker 
            training. This would provide support for specialized case 
            management where caseworkers would have smaller caseloads 
            and receive specialized training so that the caseworkers 
            can focus on family-based care. Specialized case management 
            will vary at state discretion, but overall worker caseloads 
            would be sufficiently low (approximately 1:10) to allow for 
            workers to provide intensive work with the foster family, 
            child, and the child's family. This would include 
            developing, implementing, and monitoring the child's 
            treatment plan, frequent in-person contact and consultation 
            with the foster family, and permanency planning with the 
            child's family. Workers would receive specialized training 
            in such things as behavioral management techniques, and 
            treatment for emotional disturbances.

   It provides specific/targeted foster parent training and support:

    <all> The proposal would provide specialized training and 
            compensation for foster parents who provide a therapeutic 
            environment for a child. A therapeutic foster home is one 
            with specially trained foster families who can provide 
            support and treatment to a child with behavioral and/or 
            mental health challenges.

    <all> It would provide title IV-E reimbursement for the supervision 
            costs for children who may need specialized services during 
            the day.

    This proposal presents a concerted effort to limit the use of 
congregate care facilities for children in foster care by increasing 
investments in family-based care for children who have mental, social, 
or behavioral health needs and monitoring the use of congregate care. 
The Administration estimates this proposal to cost $78 million in FY 
2016 and reduce costs of title IV-E Foster Care by -$69 million over 10 
years. As placements in a congregate care facility are significantly 
more expensive than placements in a foster family home, the main source 
of savings in the proposal is from the reduced use of congregate care 
facilities for foster care placements. This proposal also includes 
supports for foster families and caseworkers; these investments will 
somewhat increase expenditures on other proposed and existing title 
IV-E activities especially in the first few years of the proposal. 
Overall, this proposal will result in a reduction in expenditures on 
maintenance payments as children are placed in less restrictive 
settings that best meet their needs.

    I very much appreciate the Committee's interest in the issues 
raised today and the opportunity to speak with you. We look forward to 
working with you to address this crucial issue and improve services to 
some of our most vulnerable young people. I would be happy to answer 
any questions.\1\
---------------------------------------------------------------------------
    \1\ All data cited in this testimony is from the: U.S. DEPARTMENT 
OF HEALTH AND HUMAN SERVICES Administration for Children and Families, 
Administration on Children, Youth, and Families, Children's Bureau, 
Adoption and Foster Care Analysis and Reporting System (AFCARS); data 
as of July 2014.

                                 ______
                                 
       Prepared Statement of Alexandra ``Lexie'' Morgan Gruber, 
                          Former Foster Youth

    Thank you Chairman Hatch, Ranking Member Wyden, and Members of the 
Committee for the invitation to be here today. My name is Alexandra 
Morgan Gruber, but I prefer to be called Lexie. I am a graduate of 
Quinnipiac University and, most importantly, I am a foster youth. I am 
humbled and thankful for the opportunity to share with you my 
experiences living in foster care and group homes.

    My story begins at the age of 15 when the Connecticut Department of 
Children and Families removed me from my biological family. Although I 
am not comfortable sharing the events that necessitated my removal, I 
will say that my childhood was often distressing and chaotic. As a 
result, I suffered from severe anxiety and depression. When I entered 
foster care, I was traumatized from losing the only family and home I 
had ever known. I was also incredibly confused about the situation. My 
social worker and lawyer never explained to me why I was removed from 
my family. I felt like it was my fault. Overall, my entry into foster 
care served to exacerbate the symptoms of my post-traumatic stress 
disorder.

    I believed that DCF was going to find me a loving family. At first, 
I was placed with my uncle. Being in a familiar and loving environment 
helped me begin to heal from both my stressful childhood and entry into 
foster care. Two months later, my social worker informed me that my 
relative's home did not have enough bedrooms to meet agency regulations 
and I would have to be removed from his home. A waiver could have been 
filed so I could remain in my uncle's home, but department policy 
carried more weight than permanency. My uncommitted social worker did 
not listen to my pleas to stay with my relative. Instead, she picked me 
up from his home and dropped me off at an emergency youth shelter. When 
I moved in, the staff watched as I struggled to carry trash bags filled 
with the few belongings I had left. I collapsed onto my new bed--a 
graffiti covered bed frame in a filthy room. I had lost everything, and 
now I was homeless.

    The next 2 years were spent in a dizzying array of shelters and 
temporary foster care placements. Sometimes I would stay in a placement 
for months, and others I would stay for a single day. The instability 
in my life exacerbated the symptoms of my PTSD. My well-being 
deteriorated as a result of the often harmful, neglectful environments 
I lived in. After nearly 2 years of being bounced between placements, 
DCF attempted to reunify me with my biologically family. I wanted to be 
with my family again, but the situation turned sour and I was quickly 
taken back into foster care. The failed reunification with my family 
left me feeling emotionally wounded, abandoned, and hopeless.

    At this point, DCF decided to find a group home placement for me 
due to a lack of foster care placements and my depression. I was 
crushed to learn that there weren't any homes for me, as I desperately 
needed the love and support of a family as I came of age. I was even 
more hurt that I was being denied a family because of my PTSD. In many 
ways, the group home was made to feel like a punishment for my 
inability to control my unusually depressed behavior.

    They placed me at Allison Gill Lodge, a therapeutic group home 
located in Manchester, Connecticut. When I walked through those doors 
on the first day, I felt like a wrongly accused prisoner walking into a 
jail to serve time for a crime they did not commit. My parents did not 
face any consequences for their actions and were still able to enjoy 
the familiar comforts of home. I was the only individual whose life was 
drastically altered as a result of my entry into foster care. The 
injustice of the situation was viscerally unsettling, and led to me 
experience deep anguish as I tried to comprehend why I was being 
punished for things outside of my control.

    The group home looked more like a business than a home. The walls 
were adorned with informational posters like those in doctors' offices, 
rather than the familial photos and memorabilia that decorated my 
friends' houses. Outside the staff office on the second floor hung a 
whiteboard where the staff wrote down information, such as the weather 
and what was for dinner, instead of informing us of these things in 
person. Above an industrial hand-washing sink in the kitchen hung a 
licensing certificate from the municipal health department, making our 
kitchen look like a fast food restaurant. Health regulations prevented 
residents from preparing their own food or entering the fridge without 
gloves, and the cabinets were locked to prevent us from stealing snacks 
when the budget limited the availability of food. One of the reasons 
why I wanted to be granted home visits with my biological family was 
because I wanted to be able to make my own sandwich again.

    The disciplinary system, known as a ``level system,'' was also more 
militant than familial. It was a punitive system that granted us age-
inappropriate privileges as long as we maintained absolutely perfect 
behavior. There were three levels. When you first entered the group 
home, you were on ``individual phase.'' You only got about 30 minutes 
on the computer, one phone call to someone outside of your family, and 
couldn't be alone in a room without staff. Eventually, you could work 
your way up to the third phase, known as ``community phase,'' if you 
maintained absolutely perfect behavior for an extensive period of time 
(if I remember correctly, it took me 1 year to attain this phase). On 
community phase, you could go for an hour walk by yourself. One of my 
fondest memories at the group home was being able to go for a walk to 
the cornerstone by myself and buy my favorite bag of chips with the 
meager allowance I earned. Those few sweet moments of silence allowed 
me to leave the drama of the group home and enjoy the peace of the 
outdoors. These privileges could be taken away in a single second. Any 
``bad behavior'' such as swearing or talking back meant that you had 
every privilege taken away--no computer, no phone, and none of those 
precious few minutes outside by yourself. There was no consideration 
for normal teenage behavior, and we were punished for things that 
normal ten-year-olds would get away with in a family. These 
``privileges'' were the only thing that kept me sane and I felt 
constantly on edge, afraid that my lifeline would be taken away at any 
moment. I could not understand why I had to act perfectly just to have 
the basic social privileges of a child. Why was I being penalized for 
having been removed from an abusive home?

    In addition to these abnormal aspects of group-home life, my social 
life lacked any hint of normalcy. My high school years did not include 
the quintessential milestones that so many of my peers got to 
experience. Extracurricular allowed me to spend more time outside of 
the group homes, but finding a ride was difficult as the Department of 
Children and Families needed a criminal background check on anyone who 
transported me. If I wanted to go to a friend's house, each member of 
my friend's family would have to undergo a criminal background check. 
It was hard enough to deal with the stigma of being a foster kid in 
suburban Connecticut, and I feared that my friends and their parents 
would think I was a delinquent if I told them they needed a background 
check so I could come for dinner. Making friends was pointless without 
being able to sustain the bond outside of the classroom, so I quit 
trying to make friends and built emotional walls.

    Often, the group home residents were treated like second-class 
human beings. We were allotted two phone calls a day to friends on a 
pre-approved contact list and all phone numbers written down, 
presumably to be used to help them find a girl if she ran away. Social 
media was completely off limits. Every television show I watched and 
website I used was monitored by the staff, and they did not allow me to 
view anything age-appropriate.

    Inside the home, I did not receive much emotional support or 
affection from the staff that served as my primary caregivers. The 
group home was staffed in rotating shifts of staff. Although the 
schedule was often solid, I never managed to remember who was coming in 
at what time or day. In hindsight, I realize that this was because it 
is abnormal for a young person to be cared for in this way and my brain 
simply could not process that information. The staff were often tired 
and on edge due to being overworked and underpaid. They tried their 
best, but they weren't supported in their roles and this was reflected 
in their interactions with residents. They would often remind us that 
they only put up with us for the paycheck and normalized the idea of 
being cared for in exchange for profit, which led some residents to 
engage in sex trafficking. Additionally, the staff were not allowed to 
show us physical affection. Hugs were absolutely off-limits and they 
would be fired if they said they cared about us in a non-professional 
way. During my entire 2 years in the group home, I was only told ``I 
love you'' one time. The staff pulled me aside and told me, and I burst 
out crying because I needed to hear that so badly. The lack of physical 
and verbal emotional support led all the residents, including myself, 
to seek out attention in the community in unhealthy ways. I didn't 
understand why I was taken from people who didn't love me only to be 
given to adults who could not care less about me.

    The group home staffs were also ill equipped to diagnose and handle 
the symptoms of my post-traumatic stress disorder. From the very first 
day, they saw my unusual, depressed and erratic behavior as an 
internal, biological defect rather a series of perfectly normal coping 
mechanisms for my experiences. During my intake evaluation, the group 
home therapist told me that I could possibly go to a foster home if I 
``improved my behavior.'' They saw my erratic, depressed behavior as 
``acting out'' when in reality I was a traumatized child trying to make 
sense of an irrational situation. The daily staff also failed to 
appropriately handle my outbursts. When I acted out, I was forced to 
sit alone on the stairs. The staff did not try to speak calmly to me to 
understand why I was acting out, and resorted to easy tactics like 
time-outs to correct my actions.

    I was also forced to take a myriad of medication. Every week, 
residents of the group home had to attend a mandatory meeting with a 
psychiatrist. If we skipped this meeting, we would be put on 
``individual phase'' and therefore I attended out of fear of losing my 
beloved, meager privileges. The doctor prescribed me a pill for every 
emotion I was experiencing. If I was moody during our visit, he'd give 
me a new prescription and claim that my behavior was due to mental 
illness rather than seeing moodiness as a normal teenage response to 
being forced to see a doctor. He also over-diagnosed me. If I did so 
much as swear during the meeting, he'd give me a label of Oppositional 
Defiance Disorder and give me a medicine to counteract the illness. At 
some points during my stay at the group home, I was so overmedicated 
that developed a tic in my face. Although I did not like the side 
effects of the medication, I had no choice but to take them. The staff 
administered the medicine and inspected under our tongues to make sure 
we swallowed. If we refused our medication, we would be put back on 
individual phase. The group home staff did not pay attention to my 
reactions to the medicine. In fact, the only person who kept an eye out 
was my biological mother. When she saw me repeatedly involuntarily 
scrunch my face during a home visit, she called the doctor and 
expressed concerns that I was overmedicated. Due to her watchful eye 
over the doctor, I was soon taken off that medicine and the doctor was 
more careful in the future. I still have a tic in my face as a result 
of that medication. If my mother did not speak up, I likely would have 
experienced more dangerous side effects of medication. When I left the 
group home, the long list of diagnoses given to me by the group-home 
doctor were dismissed and my depressive behavior was deemed a result of 
significant, complex childhood trauma.

    Overall, I was at the group home for about 1\1/2\ years. During 
this time there was little to no effort to find me a permanent family. 
During my intake evaluation, the group home therapist told me that they 
would try to find me a family if I ``improved my behavior,'' as if this 
my stay at the group home was a trial for me to prove I was worthy of 
being loved. When they said ``behavior'' they were referring to my 
seemingly random fits of anger and sadness. These emotions were rooted 
in my belief that I was unlovable and were a result of the instability 
in my life. The staff and my social worker saw these behaviors as proof 
that I was unlovable and unworthy of a family.

    I eventually left the group home in August 2011 to attend college. 
My transition from the group home to the dorm room was incredibly 
difficult. The staffs at the group home were the only adults I knew, 
but policy prohibited them from contacting me when I moved out. I was 
left with no dedicated adults to support me as I struggled to acclimate 
to a college campus. I spent my first semester in an incredibly dark 
depression, crying myself to sleep and struggling to focus in class. 
When the dorms closed, I had no home to return to. As a result of these 
challenges, I contemplated dropping out of college.

    Today, I am a 22 year old woman living a healthy, happy life. I 
graduated from Quinnipiac University with honors this month, and am 
moving to DC soon for a job at First Focus as Director of Policy and 
Research. My post-traumatic stress disorder has been treated and I am 
now able to fully enjoy the sweetness of every single moment. It is 
very difficult for me to talk about my experience in-group homes. To be 
truthful, I'd rather put it behind me and just enjoy the fact that my 
life is better now. But I cannot do that because I need to ensure that 
no other innocent child endures what I experienced.

    I now know that I am loveable, valuable, and deserve a healthy 
family. It took 4 years of intensive therapy to allow me to reach this 
conclusion. However, my experiences in-group homes left me with 
emotional and physical scars that may never heal. I often have 
nightmares of being back in a group home, unable to leave and confused 
about why I am there. I wake up in cold sweats, scared that I will lose 
all the blessings in my life and have my autonomy taken away again. 
Relationships are still difficult for me, and I struggle to connect 
with others. Many people say I am successful and perhaps this is true 
if we are discussing my career. But I want to emphasize that as a 
result of living in this group home, I struggle to live a life of 
healthy connections and balance.

    If someone were to ask me what group homes are like, I would tell 
him or her that group homes are modern-day orphanages. These 
institutions cannot provide the moral, ethical, or social learning that 
is essential to healthy childhood development. Every child deserves a 
family. When we remove children from unhealthy families, we make a 
promise to provide them with a healthier family that can nurture and 
support them. This is a promise that we must uphold. There is a series 
of data that shows that young people are being placed in these settings 
without good reason and are left for far too long. Additionally, a wide 
body of national literature demonstrates that youth in-group homes face 
poor outcomes once they age out of foster care.

    The economic and social implications for these emerging adult's 
well-being are significant and affect the entire nation. The moral 
implications also force us to ask whether our country should allow 
vulnerable young people to live in placements that are detrimental to 
their own well-being and that of the surrounding community. If the 
answer to that question is ``no'' then we must work quickly to ensure 
that government policies, such as those that govern group homes, align 
with our nations values.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today issued the following statement during a committee hearing 
examining how Congress can best address the challenges facing foster 
children in group homes:

    As my colleagues know, last year, Congress passed and the President 
signed important legislation that improved the adoption incentives 
program, updated child support enforcement, and made a number of 
significant reforms to our nation's child welfare system.

    A number of these reforms addressed issues associated with the 
sexual trafficking of children and youth out of foster care. These 
provisions were first introduced in legislation that I drafted, the 
Improving Outcomes for Youth at Risk for Sex Trafficking, which I 
referred to as I.O. Youth.

    I am very pleased that key provisions in my bill are now the law of 
the land.

    But our work to improve outcomes for youth at risk of being 
trafficked for sex remains incomplete.

    Groups home, sometimes referred to as ``congregate care,'' are 
literally breeding grounds for the sexual exploitation of children and 
youth. As the committee heard during a hearing on domestic sex 
trafficking of children and youth in foster care, traffickers know 
where these group homes are and target the children placed in them for 
exploitation.

    While the provisions included in my bill will help improve outcomes 
for children and youth in foster care, a key feature of that bill--
which was not enacted--would refocus federal priorities on connecting 
vulnerable youth with caring, permanent families. This would be 
accomplished by eliminating the federal match to group homes for very 
young children and, after a defined period of time, for older youth.

    I know that some might have concerns about limiting federal funds 
for any type of placement. Here's how I look at it: No one would 
support allowing states to use federal taxpayer dollars to buy 
cigarettes for foster youth. In my view, continuing to use these scarce 
tax payer dollars to fund long terms placements in groups homes is 
ultimately just as destructive.

    As Chairman, I will be working with Ranking Member Wyden and other 
members of this committee to come to a consensus on reducing the 
reliance on group homes. I hope we can put together draft legislation 
within the next few months.

    I realize that in crafting the committee bill, members will bring 
their own priorities to the table. I want to encourage all Senators on 
the committee to do so.

    The Ranking Member has recently introduced legislating that would 
promote the practice of intervening to keep children and youth safely 
at home before a difficult situation escalates and the child needs to 
be removed. I hope to work with the Ranking Member on his proposal as 
part of this exercise.

    Additionally, we will attempt to address policies and practices 
that, as detailed in a BuzzFeed Media series, led to a number of 
horrific cases of severe abuse, neglect, and the tragic death of a 
little three year girl.

    In order in inform the committee's work on how to address the 
policies and practices that contributed these horrific outcomes, 
Ranking Member Wyden and I wrote a letter to all 50 Governors 
requesting responses to a series of questions related to the oversight 
of private child welfare service providers.

    I look forward to receiving answers to our inquiry and moving 
forward on this matter.

    This hearing is an important first step in making progress on a 
number of key policy initiatives.

                                 ______
                                 
   Prepared Statement of Jeremy Kohomban, Ph.D., President and Chief 
   Executive Officer, The Children's Village, and President, Harlem 
                        Dowling Westside Center
    My name is Jeremy Kohomban, and I am President and CEO of The 
Children's Village and our affiliates, Harlem Dowling and Inwood House. 
We are members of the Child Welfare League of America, Crittenton 
Foundation and the Alliance for Strong Families and Communities. The 
Children's Village is also a founding member of the Annie E. Casey 
Foundation's Provider Exchange, which offers private providers peer 
consultants to help shift their business models toward home- and 
community-based services.

    Founded in 1851 to serve New York City's children, The Children's 
Village has been home to some of the earliest examples of residential 
programs in the nation. By the 1950s, facilities like ours had 
developed into what are now known as residential treatment centers. 
Today, our organizations provide a broad continuum of both residential 
and community-based services to more than 17,000 children and families 
each year.

    I am here to tell you why, in the last decade, The Children's 
Village has been on a journey to undo our recent history. And why we 
are certain that, by doing so, we are doing a better job of keeping 
children safe and families together. I will tell you why we have moved 
with urgency to shift the mix of services we offer to children and 
their families. In 1998, nearly all our children were in residential 
settings. Today, 60 percent of our efforts are in the community and 
with families, and residential is used sparingly, like an emergency 
room.

    The reason for this shift at The Children's Village is simple. We 
now know that residential care is not an effective long-term solution 
for children and families. In fact, it is often exactly the wrong 
intervention for most children, including teens, as two new reports 
underscore. One is the HHS report, A National Look at the Use of 
Congregate Care in Child Welfare. The other is the new policy report, 
released today, by the Casey Foundation, called Every Kid Needs a 
Family: Giving Children in the Child Welfare System the Best Chance at 
Success.

    Today, I will share four crucial lessons The Children's Village has 
learned that align with findings from these recent reports. Those 
lessons are that:

  1.  Children belong in families, not in residential care.

  2.  States can and should invest in broad, community-based service 
        arrays that provide brief, effective help for children and 
        families facing crisis.

  3.  Providers can and should change their business models for helping 
        children and families by moving away from residential care and 
        investing in models that wrap our services around children and 
        families in the community. And, crucially,

  4.  The federal government can serve an important role by acting as a 
        catalyst for change. It can provide incentives and real 
        supports for strong systems of community-based care.
                      children belong in families
    The Children's Village has its roots in the reform school movement 
of the 1800s. From 1851, when we first opened our doors, until a decade 
ago, our primary prescription was to remove and treat children away 
from families and neighborhoods that were considered ``bad,'' often 
severely weakening or permanently severing family ties. We followed the 
best practices at the time. We had the very best of intentions.

    But when we looked at our results, we found something profoundly 
unsettling. While we sought to help, often we did not. Despite our best 
intentions and desire to help, often we failed.

    Our practices, like the practices of child welfare nationwide, 
managed to do the opposite of what was intended. Instead of helping 
children, often we unwittingly fed an intergenerational cycle of 
hopelessness and disconnection that fueled very poor outcomes. One 
result is children and parents who are despondent and struggling to 
gain the critical skills they need to support themselves, including the 
internal skills of resilience and hope. Children and families became 
system dependent; they never learned how to belong to each other and to 
act in a family, with the necessary give and take and tolerance for one 
another's successes and shortcomings.

    Beginning in the early 1970s, our good intentions went even further 
astray as we became a primary pipeline for the dramatic and increasing 
overrepresentation of African American and children of color in long-
term government-supported systems.

    As the HHS report notes, today we know better. As it describes, 
there is now ``a consensus across multiple stakeholders that most 
children and youth . . . are best served in a family setting.'' \1\ 
Among the evidence for this: Data indicate that, in many communities, 
there is a poor fit between children's needs and available child 
welfare placements and services.
---------------------------------------------------------------------------
    \1\ D'Andrade, A.C. (2005). Placement stability in foster care. In 
G. Mallon and P. McCartt Hess (Eds.), Child welfare for the twenty-
first century, New York: Columbia University Press.
    Gleeson, J.P. (2012). What works in kinship care? In P.A. Curtis 
and G. Alexander (Eds.), What works in child welfare (Rev. Ed.) (pp. 
193-216). Washington, DC: CWLA Press.
    O'Brien, V. (2012). The benefits and challenges of kinship care. 
Child Care in Practice, 18(2), 127-146.
    Walsh, W.A. (2013, winter). Informal kinship care most common out-
of-home placement after investigation of child maltreatment (Fact Sheet 
No. 24). Durham, NH: Carsey Institute.

    Today, not enough kids in the child welfare system live in 
families. One in every seven kids in state custody--nearly 57,000 
children nationwide--are languishing in group placements when many of 
them could be and should be living in families.\2\ Data indicate that 
African American and Hispanic children are more likely to spend the 
most time in group placements. Adolescents in residential care are more 
likely to be older, male and children of color; they are likely to have 
higher rates of socio-economic, behavioral and juvenile delinquency 
challenges.\3\
---------------------------------------------------------------------------
    \2\ A sample of research on the developmental importance of family: 
Barth, R.P., Greeson, J.K.P., Guo, S., Green, R.L., Hurley, S.H., and 
Sisson, J. (2007). Outcomes for youth receiving intensive in-home 
therapy or residential care: A comparison using propensity scores. 
American Journal of Orthopsychiatry, 7(4), 497-505, doi: 10.1037/0002-
9432.77.4.497.
    Dozier, M., Zeanah, C.H., Wallin, A.R., and Shauffer, C. (2012). 
Institutional care for young children: Review of literature and policy 
implications. Social Issues and Policy Review, 6(1), 1-25. doi: 
10.1111/j.1751-2409.2011.01033.x.
    James, J.S., Zhang, J.J., and Landsverk, J. (2012). Residential 
care for youth in the child welfare system: Stop-gap option or not? 
Residential Treatment for Children and Youth. 29(3), 48-65. doi: 
10.1080/0886571X.2012.643678.
    Lee, B.R., Bright, C., Svoboda, D., Fakunmoju, S., and Barth, R. 
(2011). Outcomes of group care for youth: A review of comparative 
studies. Research on Social Work Practice. 21(2), 177-189. doi: 
10.1177/1049731510386243.
    Wulczyn, F., Chen, L., and Hislop, K.B. (2007). Foster care 
dynamics 2000-2005: A report from the multistate foster care data 
archive. Chicago, IL: Chapin Hall Center for Children at the University 
of Chicago. Retrieved from www.chapinhall.org/sites/default/files/
old_reports/406.pdf.
    \3\ Berrick, J.D., Courtney, M., and Barth, R.P. (1993). 
Specialized foster care and group home care: Similarities and 
differences in the characteristics of children in care. Children and 
Youth Services Review, 15, 453-473.
    Curtis, P.A., Alexander, G., and Lunghofer, L.A. (2001). A 
literature review comparing the outcomes of residential group care and 
therapeutic foster care. Child and Adolescent Social Work Journal, 
18(5), 377-392.
    Handwerk, M.L., Field, C.E., and Friman, P.C. (2001). The 
iatrogenic effects of group intervention for antisocial youth: 
Premature extrapolations? Journal of Behavioral Education, 10(4), 223-
238.
    Knapp, M., Baines, B., Bryson, D., and Lewis, J. (1987). Modelling 
the initial placement decision for children received into care. 
Children and Youth Services Review, 9, 1-15.
    Mech, E.V., Ludy-Dobson, C., and Hulseman, F.S. (1994). Life-skills 
knowledge: A survey of foster adolescents in three placement settings. 
Children and Youth Services Review, 16(3/4), 181-200.
    McMillen et al (2005). Prevalence of Psychiatric Disorders Among 
Older Youths in the Foster Care System. Journal of the American Academy 
of Child and Adolescent Psychiatry, 44(1), 88-95.
    U.S. Department of Health and Human Services. (2001). Youth 
violence: A report of the Surgeon General. Rockville, MD: U.S. 
Department of Health and Human Services, Substance Abuse and Mental 
Health Services Administration, Center for Mental Health Services, 
National Institutes of Health, National Institute of Mental Health.

    Residential care cannot continue to be a default intervention. We 
have to stop thinking about the majority of children in foster care as 
children with chronic and persistent mental illness who need to be 
separated from society. Forty percent of children in residential 
placements have no clinical reason for being there. Forty percent! As 
one researcher noted, it is time for systems to become more rational, 
driven more by the needs of the child and family than the needs of 
programs and systems.\4\
---------------------------------------------------------------------------
    \4\ Lyons, J., Woltman, H., Martinovich, Z., and Hancock, B. 
(2009). An outcomes perspective of the role of residential treatment in 
the system of care. Residential Treatment for Children and Youth, 
26(2), 71-91.

    My experience tells me there are better ways to help these 
children, whether they have a diagnosis or not. Children in child 
welfare systems may be traumatized. They may have really tough 
challenges that require skilled attention. But, as the Children's 
Bureau has said, children with behavioral concerns, trauma symptoms and 
mental health disorders can heal, recover and become happy, successful 
adults.\5\ Children heal and develop better in the context of belonging 
and family. Children need a different mix of placements and services 
than what we are now offering, including more kin and non-relative 
foster family placements and more supportive home-and community-based 
services.
---------------------------------------------------------------------------
    \5\ U.S. Department of Health and Human Services, Administration on 
Children, Youth, and Families (2012). Information memorandum on 
promoting social and emotional well-being for children and youth 
receiving child welfare services (ACYF-CB-IM-12-04, issuance date 04-
17-2012). Downloaded from https://www.acf.hhs.gov/sites/default/files/
cb/im1204.pdf.

    Evidence indicates that children fare best in families. As a recent 
policy statement by the American Psychological Association noted, 
``Healthy attachments with a parental figure are necessary for children 
of all ages and help to reduce problem behaviors and interpersonal 
difficulties.'' \6\
---------------------------------------------------------------------------
    \6\ Dozier, M., Kaufman, J., Kobak, R., O'Connor, T.G., Sagi-
Schwartz, A., Scott, S., Shauffer, C., Smetana, J., Van IJzendoorn, 
M.H., and Zeanah, C.H. (2014). Consensus statement on group care for 
children and adolescents: A statement of policy of the American 
Orthopsychiatric Association. American Journal of Orthopsychiatry, 
84(3), 219-225. doi: 10.1037/ort0000005. Retrieved from www.apa.org/
pubs/journals/features/ort-0000005.pdf.

    At The Children's Village, we recognize that children need--indeed 
have a developmental requirement for--family relationships. We have 
many dedicated volunteers, talented, caring caseworkers, social 
workers, supervisors, medical staff, therapists and mental health 
professionals who make a real difference in each child's life every 
day. But they are not family. I am a strong proponent of residential 
care, because I understand from experience that responsive residential 
care plays a very important role in our child welfare system--but only 
as a time-sensitive safety net for the very small percentage of 
children who are in acute crisis and at risk of harm to themselves or 
---------------------------------------------------------------------------
to others.

    In the end, we must recognize that help provided by people in the 
child welfare system, even when it is effective, is only temporary--it 
should be only temporary. Children need stability, understanding, hope, 
and, most importantly, they need belonging. None of our systems, 
despite our best intentions and the steadfast commitment of the amazing 
people who serve alongside me, can provide belonging. Children need 
adults who stay connected to them over the long haul, through thick and 
thin. Not a state agency acting as family. Not a child welfare case 
worker--a committed adult, a place of unconditional belonging and love.

    As we say at The Children's Village, what children need is one 
willing, stable adult who provides unconditional belonging. We also 
believe that, if a family or a foster parent cannot provide this 
unconditional belonging, we must be untiring in creating a family for 
each individual child.

    That means that child-serving agencies, whether they are public 
agencies or private charities like The Children's Village, must work 
closely with children's families--their parents, grandparents, extended 
family, foster parents and prospective adoptive parents--to figure out 
how best to help and support struggling children and families.

    In fact, research shows, and the experience of The Children's 
Village certainly underscores, that the vast majority of children who 
must be removed from their homes because of abuse or neglect fare best 
when living with family--grandparents, relatives or extended family.\7\ 
Research and our experience also indicates that, in many instances, in-
home service models can increase reunification rates--the rates at 
which children can live successfully with their families after a 
temporary stay in the child welfare system--and keep children from re-
entering foster care.\8\
---------------------------------------------------------------------------
    \7\ Children placed with kin may remain in care longer, but they 
often have fewer placement changes, experience equal or lower repeat 
maltreatment rates and experience more of a sense of family than 
children in other types of foster care. Gleeson, J.P. (2012). What 
works in kinship care? In P.A. Curtis and G. Alexander (Eds.), What 
works in child welfare (Rev. Ed.) (pp. 193-216). Washington, DC: CWLA 
Press.
    O'Brien, V. (2012). The benefits and challenges of kinship care. 
Child Care in Practice, 18(2), 127-146.
    Walsh, W.A. (2013, winter). Informal kinship care most common out-
of-home placement after investigation of child maltreatment (Fact Sheet 
No. 24). Durham, NH: 20 Carsey Institute. Retrieved from http://
scholars.unh.edu/cgi/viewcontent.cgi?article=1188&context=carsey.
    \8\ Child Welfare Information Gateway. (2011). Family 
reunification: What the evidence shows. Washington, DC: Author. 
Retrieved from www.childwelfare.gov/pubs/issue--briefs/
family_reunification/family_reunification.pdf.

    Even when children need residential treatment, systems need to 
focus sharply on ensuring that treatment is targeted and brief. 
Treatment must be customized to the child's needs. Whenever family is 
available, treatment must involve family. Research also indicates that 
the benefits of even the best residential services can plateau \9\--
that after they benefit from intensive, evidence-based interventions, 
children can lose hard-earned gains because they miss their families 
and feel abandoned, labeled and forgotten.\10\ Basically, the longer 
they stay, even in the best residential care facility, the more 
children begin to lose hope and regress to risky and self-harmful 
behavior.
---------------------------------------------------------------------------
    \9\ Lyons, J., Woltman, H., Martinovich, Z., and Hancock, B. 
(2009). An outcomes perspective of the role of residential treatment in 
the system of care. Residential Treatment for Children and Youth, 
26(2), 71-91.
    \10\ One example: Jackson, D., Keir, S., Ku, J. and Mueller, C. 
(2012). Length of treatment in CAMHD programs: Using the CAFAS and MTPS 
assessment instruments for decisions regarding discharge. Retrieved 
April 29, 2015, http://hawaii.gov/health/mental-health/camhd/resources/
index.html.

    Research indicates that kin and foster families can be found for 
children of all ages. Many opponents of reform will tell you that we do 
not have enough foster families to care for children in their custody, 
especially teens. I would say to those who don't believe foster 
families are available: It is not easy, but we can do it. We are doing 
it. In fact, we now know, thanks to research, how to do a much better 
job of finding kin to care for children. It is time to instill what we 
know into our child welfare systems, to update practices and 
significantly enhance our ability to find and support kin who will care 
---------------------------------------------------------------------------
for young family members.

    We can also do a much better job of recruiting and supporting non-
relative foster parents. Let's ask agencies to update their practices 
to significantly expand their pool of willing and able foster parents. 
A decade ago, The Children's Village had fewer than 50 foster families. 
Today, we have almost 400, and many of our foster families are 
selectively recruited, trained and supported to serve teens. Because of 
the sacrifice and commitment of these foster parents, hundreds of 
teenagers have experienced a family and are no longer at risk for long-
term system dependence.

    How does The Children's Village walk this talk? Not by being 
perfect. We are not. Not by getting everything right. We don't. We do 
it by working hard every day to find families for children with even 
the most challenging histories. Because that's the job of public and 
private child welfare agencies. Again, it's hard--but it is what our 
donors expect us to do, it is what we are paid to do, and it is what we 
believe is right.

    Let me tell you about two children in our care. Although he is only 
11, Jose has had a difficult life, as have so many children in our 
care. He had been freed for adoption twice, once by his mother and 
again when the aunt who had adopted him returned him to the system 
after a violent incident in her home. In addition, Jose lived for a 
year with a pre-adoptive family--a relationship that eventually failed. 
That is a lot of rejection for one child, since termination of parental 
rights often means a total shutdown in relationships.

    By the time he was sent to The Children's Village, Jose's family 
connections were almost entirely severed. We immediately focused on 
identifying as many family members as we could. We connected him with 
more than 10 relatives and family friends, including his birth mother 
and his siblings. He hadn't seen or heard from them in 5 years. We 
found a pre-adoptive family willing to build a support team for Jose, 
help him develop a relationship with his birth family and work toward 
being adopted.

    Then there is Sammy. Sammy's history would give you pause. At age 
16, he was placed at The Children's Village because of a history of 
sexually aggressive behavior that included assaulting his sister, three 
cousins and a family friend. Sammy also experienced auditory 
hallucinations and suicidal thoughts. Because he abused his sister, and 
because of abuse he suffered at the hands of his mother, we needed to 
find family who could do the hard work of recovery alongside Sammy.

    Sammy's paternal grandfather was up to the task. While Sammy was at 
The Children's Village, his grandfather and he participated in family 
therapy. They worked in an ongoing Multifamily Group that provided 
psycho-education.

    Then, there was a wrinkle. Sammy's father was in prison and was 
scheduled to be released to live with Sammy's grandfather at about the 
same time Sammy would be released from The Children's Village. The 
family believed Sammy's father, who did not know about Sammy's 
offenses, could harm Sammy. Sammy and his Children's Village social 
worker had phone sessions with Sammy's father to disclose information 
about Sammy's actions, help the father process what had happened, and 
share evidence that Sammy was growing healthier.

    At The Children's Village, Sammy was weaned off his psychotropic 
medications; he engaged in TV production and other positive activities. 
Upon his release, he went to live with his grandfather and father and 
continued to participate in family therapy. It has been a year since he 
was discharged, and Sammy has not engaged in any delinquent acts nor 
has he been sexually aggressive or abusive.

    These are just two examples of the children that child welfare 
systems take on every day. While the responsibility we shoulder is 
immense and our efforts don't always succeed, our success with children 
like Jose and Sammy bolster my certainty that we can do better by 
children by meeting their needs, whenever possible, in family settings. 
If a brief residential stay is necessary, children can improve when 
family members are closely involved in the child's treatment. In the 
absence of available family, as in Jose's case, it is incumbent on us 
to be untiring in our efforts to identify family and/or create a family 
for each child.
                         state action is needed
    Beyond changing how agencies handle care for children in their 
custody, what else can be done to ensure that children grow up in 
families, not in residential care?

    This change will require state and local action. To improve how 
they fare in the long run, children and families must be treated as 
individuals. That means communities need to know how to assess local 
needs and develop or install effective programs and interventions to 
meet those needs. Communities must work across agency silos, with 
public and private providers like The Children's Village, to build 
broad, effective service arrays that fit local needs and change as 
needs change.

    Crucially, communities must have sufficient funds, and sufficient 
public will, to provide needed services. In a national sample, more 
than one quarter of child welfare directors across the nation reported 
they had inadequate access to children's substance abuse services; more 
than a quarter did not have access to needed mental health services for 
children. Services for parents were insufficient as well, with 37 
percent of child welfare directors reporting too little access to adult 
mental health services and 24 percent noting too little access to 
substance abuse services for parents.\11\ We also know that the 
supports offered to kin, foster and adoptive families, both personal 
and financial, remain woefully inadequate.
---------------------------------------------------------------------------
    \11\ Casanueva, C., Horne, B., Smith, K., Dolan, M. and Ringeisen, 
H. (2011). NSCAW II baseline report: Local agency (OPRE Report #2011-
27g). Washington, DC: Office of Planning, Research and Evaluation, 
Administration for Children and Families, U.S. Department of Health and 
Human Services.

    There is another important benefit of reducing inappropriate use of 
residential care. It frees up dollars that, when managed strategically 
and with a long-term commitment to re-investing in families, can be 
invested in effective preventive and supportive services to meet the 
child and family needs in the community. It would be irresponsible to 
cut residential care without a systematic and long-term plan for 
---------------------------------------------------------------------------
investing in community services.

    We are not faced with easy decisions, but I can say with confidence 
that family and community-based services, in addition to costing less, 
are most effective for a child. Also, inappropriate long-term 
residential placement is often personally destructive for children.

    What does a broad service array look like? At Children's Village, 
we now provide a variety of programs that help the city and state of 
New York meet child and family needs while children live at home. In 
addition to our committed and effective residential staff who work with 
teens in acute crisis, our greatest source of pride is our large number 
of foster families who provide temporary care to some of the oldest 
teens in the child welfare system. The needs of these foster families, 
of the kids they parent and of children and parents in the community 
are met by neighborhood-based programs as varied as classes, support 
groups, crisis response, food pantries and workshops.

    We also offer, in different locations, supportive housing, 
evidence-based preventive family therapies, family court assistance, 
community activities, mentoring, even free classes in the humanities. 
In short, we strive to wrap ourselves around our children and families. 
We want to be there for them during crises and walk alongside them to 
celebrate their successes.

    Notice that when I mention what states and localities can do to 
update child welfare practices and policies I reference effective 
programs. I agree with the Children's Bureau, which has made the case 
that we should scale down and stop funding programs that don't 
work.\12\ Often, the ability to do that--to shift to more effective 
approaches--resides within local and state child welfare agencies.
---------------------------------------------------------------------------
    \12\ U.S. Department of Health and Human Services, Administration 
on Children, Youth, and Families (2012). Information memorandum on 
promoting social and emotional well-being for children and youth 
receiving child welfare services (ACYF-CB-IM-12-04, issuance date 04-
17-2012). Downloaded from https://www.acf.hhs.gov/sites/default/files/
cb/im1204.pdf.
---------------------------------------------------------------------------
         private providers need to change their business models
    State and local agencies also need to better collaborate with 
private providers to make the changes that are needed. I am often in 
meetings in which public child welfare systems complain about private 
providers. They say they can't get the services they need. Or they 
don't feel they are receiving quality services. This is difficult work 
that we do together. There are no easy answers, but the only path to an 
effective solution requires that we work together. My response to state 
and local agencies is straightforward. Hold us accountable. And invite 
us into the room when you are making decisions. If you expect us to be 
innovative, we will be innovative or we will be forced to close our 
doors.

    In fact, the time has come for private providers to make a change 
in how we do business, and more providers than you might think are 
rising to this challenge. Just as public agencies must change, so must 
private agencies. Our business models must move away from mostly 
residential care and toward community-and family-based care that is 
targeted, effective and short-term--including, of course, short-term 
effective residential care as needed for emergency interventions.

    You may hear complaints from private providers in your district. 
They may say this kind of change is hard. Or that the needs of children 
and families cannot be met using these new models of care. But the 
evidence is not on their side. And we know that this kind of evolution 
is challenging to the tradition of ``rescuing'' children from their 
families and communities.

    For many years, Children's Village was a reform school on a leafy 
green residential campus. It looks lovely--like a safe place for kids. 
And it is a safe place for youth to live temporarily to stabilize and 
be treated.

    But leafy green trees do not make a whole child. Belonging and 
family does. And please remember: Generally speaking, children do not 
benefit from being miles away from their families. Even when their 
families are poor or struggling with problems such as addiction. If you 
help the parents, you help the children--and build a working family. It 
is time that private providers look beyond our campuses and our in-
patient medical models and find effective ways to meet the needs of 
children while they live with their families or foster families.

    If providers complain, it is because the task before us is 
immensely challenging. It is: I live it every day. But change is 
required, for the sake of our children. Because we know that in 
community after community, taxpayers are paying a lot of money to house 
children away from their families, when significantly better results 
are possible through well designed, appropriately funded, performance-
focused community-and family-based care. Local, state and federal 
systems need to invest in those services. By doing so, we will also 
improve the outlook for the economically isolated and often segregated 
communities where most of our children reside.
                             a federal role
    The federal government can play a crucial role in moving the 
nation's child welfare system away from residential care and toward 
children living in families. Washington can be the catalyst for change 
by creating incentives and providing real supports for strong systems 
of community-based care.

    How can this be done? Through fiscal mechanisms that incentivize 
placement of children with families rather than in institutions, and 
through mechanisms that concurrently invest in supports that allow us 
to wrap ourselves around the child and family to ensure safety and 
stability for families. Once implemented, these fiscal incentives 
should be coupled with limits on residential care for most children.

    We believe that, with the right levels of investment in a family 
driven system, 90 percent of the children in residential care today can 
be safely cared for in family. To do this means changing the perverse 
incentives of the current funding methodology. When residential 
providers get paid by the day for each child, those of us who are 
successful are penalized financially. Each time we move children toward 
stability and independence by returning them expeditiously to their 
families or foster/adoptive families, we lose money. This simply has to 
change in order to do better by children. A financial model that 
incentivizes safe and expeditious discharge from residential care, with 
adequate funding to provide the effective community-based support 
children need, will begin to move us in the right direction.

    The federal government can also promote high-quality, cost-
effective services that meet children's needs for permanent, loving 
families and enhance children's well-being. That includes effective 
prevention services to address needs early. Evidence-based services 
that support children and families at home. Services to support kin and 
non-relative foster parents who step up to the plate to care for 
children. And, for the small number of children who need it, intensive, 
targeted, evidence-based residential services that involve children's 
families or create a family as part of their recovery.

    None of this will be easy. It is already too late for many in the 
generation of children languishing in residential care. Their 
childhoods are lost. But, if we begin now, we can make sure that future 
generations of children will grow up knowing the love and unconditional 
belonging of family. That is what it will take to break the 
intergenerational cycle and system dependence we have experienced for 
the last four decades.
                               conclusion
    Let me end by sharing one last lesson that The Children's Village 
has learned. And that is to become educationally proficient, 
economically productive and socially responsible, children and families 
cannot be isolated, labeled or vilified. Rather, they must be given 
hope. They must be encouraged to grow within themselves a sense of 
belonging--the kind of belonging one can only gain through our 
connections with family, no matter how imperfect our families may be.

    Recently I was at a conference that included a young man--a very 
extraordinary young man--who had beaten the odds. He had aged out of 
foster care and gone on to college, as only the smallest number of 
former foster kids do. He had two important messages about residential 
care. One was simple. He said, ``Group homes lead to broken souls.'' 
The other message, I hope, will rally you to action. He said, ``We can 
fix this.''

    Systems are no substitute for family. The children we serve today 
deserve our urgent action.

                                 ______
                                 
 Prepared Statement of Matthew J. Reynell, Adoptive Father of Two, and 
         Member, Board of Directors, Children Awaiting Parents
    Chairman Hatch, Ranking Member Wyden and all members of the Finance 
Committee thank you for inviting me to testify today on this important 
topic highlighting ways to safely reduce the overreliance on group and 
congregate care. My name is Matthew Reynell, and I am from Rochester, 
NY. I am excited to tell you about my family's story of adoption and 
the integral role that a residential treatment facility plays in an 
adopted child's transition from foster care to their ``forever'' home.

    I met my son James on December 31st in 2008. Thanks to the help of 
a diligent representative at Children Awaiting Parents who was able to 
locate him and press the case worker to interview us as a potential 
match. He had just turned 8 years old and was living at Crestwood 
Children's Center, a residential treatment facility in Rochester, NY. 
James had been brought into the foster care system 4 years earlier with 
his siblings. Prior to residing at Crestwood, James had been moved 
around to several foster homes and schools. The foster parents at his 
last home had given the promise to adopt all of them together, but 
later decided that James was too much for them to handle and had him 
removed. This is how James became separated from his siblings and 
placed into the treatment facility.

    I have always believed that no matter the reason, children should 
not end up in group homes or congregate care facilities. I viewed them 
as places where ``problem children'' were dumped and then forgotten 
about. After learning that James resided at Crestwood, I became very 
upset and thought I needed to get him out of that environment as soon 
as possible. After going through the process of getting to know James 
through his case workers and treatment team, my attitude and beliefs 
about this ``awful'' place were quickly changing. James had been 
severely neglected and received minimal schooling prior to arriving 
into care at Crestwood. James was a child who had always been labeled 
``the problem kid.'' He was the one who didn't listen like the other 
children at home or in school. He had a history of outbursts that made 
people think of him as uncontrollable.

    As a child, not only did James have a difficult and grim family 
history with many of the foundations of early childhood development 
absent in his young life, he was born with Fetal Alcohol Syndrome (FAS) 
and suffered severe neglect mentally, physically, and educationally. 
When he arrived at Crestwood, a treatment team consisting of 
therapists, psychologists, clinicians, doctors, teachers, and 
occupational therapists were assigned to him. I learned to view these 
dedicated individuals as part of James's extended family and discovered 
the vital role that this team would play in my life as well. However, I 
can't help but think about where James would be if I weren't identified 
to be a part of his life, his treatment recovery team and now his proud 
adoptive father.

    The care and attention he received from these amazing people were 
crucial to his success in moving forward through his heartbreaking and 
tragic home life that had caused him to mistrust and fear his 
surroundings as well as the individuals who cared for him to where he 
could open his heart and truly accept that he was part of a family. I 
spent 5 months visiting James while he lived at Crestwood, and worked 
closely with our team. James received the attention he both needed and 
deserved to be able to start reading and writing, functioning in a home 
environment, and most importantly, dealing with his past traumas.

    Through my experiences with James at Children's Facility, it is my 
belief that there needs to be a set timeframe for a child to reside at 
a treatment facility. Please, if you take anything away from what I've 
shared thus far, please understand that I think Crestwood is the 
exception, in regards to what youth experience in congregate or 
residential, rather than the rule. If a child should need any type of 
residential inpatient therapeutic support, it should be in conjunction 
with a team of people where the facility is trained to work with and/or 
identify people who love the child to be a part of the child's 
treatment plan. Facilities should be required to have family inclusion 
policies and they should not be solely focused on their emotional and 
behavioral issues. These are breading grounds for failure, because 
these children have no identified exit strategy. Some people believe 
that treatment must be sustained and then permanency found and in my 
experience youth need to feel loved and protected by people who care 
about them in order to heal from their hurts, i.e., the ``behaviors'' 
that landed them in a treatment facility in the first place.

    My recommendation is that these facilities be required to have 
agency policies that support family involvement in the child's care. In 
the event a foster child enters one of these facilities, both the 
agency responsible and the facility protocol needs to include the 
identification of someone that knows this child and loves this child, 
and will be dedicated to this child's safe return from residential 
treatment. Unfortunately, otherwise, we see the poor outcomes we know 
and dread: youth sit hopeless, sometime loveless, and almost always 
miss out on their childhood.

    In my case, I had known James for 5 out of the 10 months he had 
been living at Crestwood, and he had made tremendous progress both 
mentally and socially during this time. After getting to know James I 
made the decision to start the process to have him move into my home. 
But because his transition from residing at Crestwood to living with me 
was pushed back, as the staff was hesitant to make the move, James 
started to regress back to old behaviors due to his fears of both 
disappointment and abandonment. I believe that James wanted to test us 
and see if we were going to stick it out with him--justifiably so given 
all he had been through. One time after one of our nightly phone calls, 
a ritual that James grew to anticipate daily and looked forward to, he 
called 911 and asked that he be taken to my home out of desperation and 
fear that I was not going to follow through on my promises to him. We 
both knew that we needed to take the next step and bring him to my 
house--his ``forever'' home.

    After moving into our home, James and I were still able to keep our 
team through Crestwood. We needed this support; it was vital to James' 
continued recovery and our family transition. By having the same 
therapists, doctors, and other professionals who knew of James' 
history, it made his transition into his new surroundings easier. We 
had already established bonds with these individuals that reinforced 
our feelings of trust and security. Our family was now able to continue 
to receive many of the same services from the people we already knew, 
and more importantly, James felt safe with. Again, this should be the 
norm and not the exception; I'll stress that continuity in care and 
trained providers go such a long way for children who have experienced 
trauma and foster care, it also gives us parents the tools needed to 
respond when triggers and stressors come up for our kids.

    Our aim and dream for all children in the foster care system should 
always be to find each child the love and security of a ``forever'' 
family, when they cannot safely return home to their own. Now having 
gone through this process, I understand and believe that to reach this 
goal may require the intervention of a residential treatment facility 
and the services that it can provide to both the child and the adoptive 
parents. We need to have the group home staff; counties and others 
involved with the child's case all working collectively towards the 
goal of a forever family. I believe residential treatment is something 
that is sometimes needed for children, but we can't get the outcomes we 
desire if they are set up only to treat the child, and not include or 
support parents and caretakers to assist in the healing of these 
children.

    I'll conclude with remembering a conversation James and I 
frequently had when he was little. We used to sing along in the car to 
what was popular on the radio at the time. After our singing sessions I 
always asked, ``James, what am I going to do with you, silly boy?'' And 
James replied, changing the mood just slightly with his tone, still 
partly jovial but also very serious, he said, ``Keep me please, 
Daddy!'' And I did. It is still the best decision I ever made.

    To summarize:

    These facilities should always be trying to identify a permanent 
        home resource.

    Facilities should be required to have family inclusion policies 
        and they should not be solely focused on the child's emotional 
        and behavioral issues, but the family as a unit.

    Continuity in care and support to families is vital.

    Adoption and foster care competent trained providers goes such a 
        long way for children who have experienced trauma.

    The facility staff and case workers should have a planned timeline 
        in which to find an adoptive family for the children who are 
        freed.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
WASHINGTON--Senate Finance Committee Ranking Member Ron Wyden (D-Ore.) 
delivered the following statement at a hearing to discuss how to safely 
reduce reliance on foster care group homes:

    Thank you Chairman Hatch. You have been a real leader on this 
topic, and I'm grateful for that.

    As the title of this hearing suggests, foster care group homes are 
``no place to grow up.''

    There's no question that residential care can play a crucial role 
in the foster care system. But there is wide consensus that children 
and youth, especially young children, are best served in a family 
setting. Stays in residential care should be based on the child's 
specialized behavioral and mental health needs or a child's clinical 
disabilities. They should be used only for as long as necessary to 
stabilize the child or youth before returning to a family setting.

    This notion is catching on. Over the last decade, states have cut 
by over one-third the number of children living in congregate care. 
However, there has been wide variation in states' success in this 
area--with some even increasing their use of congregate care over the 
last decade.

    To further reduce residential foster care, the conversation must 
focus on transforming the old group home model into one that is nimble 
and flexible--able to meet the needs of each child and family rather 
than forcing an inappropriate and ineffective one-size-fits-all 
approach.

    As this committee will hear today, this transformation is possible, 
even within the current lopsided funding system. But, the federal 
government can make innovation much easier by providing greater 
flexibility in the use of title IV-E foster care funds--flexibility 
that accepts the reality that there is no single approach that will 
work for each and every child and family.

    To spur these innovations, more information and more ideas are 
needed. That's why this hearing is so important and why we need to hear 
from today's witnesses about their on-the-ground experiences with 
congregate care. I'm especially grateful to Associate Commissioner 
Chang for coming to discuss the Administration's proposal to reduce the 
use of these settings.

    I'd like to make three observations on this topic. First, there's 
no question that high quality, residential care plays a crucial role in 
the foster care continuum. But at the same time, it's clear that not 
everybody's on the same page when we talk about congregate care. The 
terms ``congregate care,'' ``group homes'' and ``residential 
treatment'' are often used interchangeably; but the structure and 
quality of these settings varies widely as our witnesses will show.

    Second, it's important that the discussion over safely reducing 
congregate care commensurately focuses on building the capacity for 
foster parents, kin, adoptive parents and entire communities to care 
for children in family settings.

    And third, the best way to reduce reliance on congregate care is to 
prevent children from entering foster care at all. For decades 
lawmakers, practitioners and advocates have talked about the need to 
provide support and prevention services for children and families in 
crisis. These investments can help keep children safe in their homes or 
with other family members while reducing the need for costly and 
traumatic transfers to the foster care system.

    For this reason, I've drafted legislation to reform the foster care 
finance structure to give states and tribes the ability to use federal 
dollars that are now reserved only for foster care placements to 
finance new tools to keep families together.

    It's time to consider new approaches, new ways of funding, and new 
ways of thinking that serve the goal we all want--ensuring all kids 
grow up in healthy, nurturing, and safe environments.

    It's no understatement to say children are counting on us to get 
this right. I look forward to working with you, Chairman Hatch, my 
colleagues, and others to make sure we accomplish this goal.

                                 ______
                                 

                             Communications

                              ----------                              


              Alliance for Strong Families and Communities

                    1020 19th Street N.W., suite 500

                          Washington, DC 20036

    Statement for United States Senate Committee on Finance hearing:

  ``No Place to Grow Up: How to Safely Reduce Reliance on Foster Care 
                             Group Homes''

                              May 19, 2015

Susan N. Dreyfus
President and CEO

OFFICERS

Dennis Richardson
Chair

Randal Rucker
Vice Chair

Dominick Zarcone
Treasurer

Mary Hollie
Secretary

    A network of more than 400 nonprofit human-serving organizations 
nationwide, the Alliance for Strong Families and Communities is 
dedicated to achieving a vision of a healthy society and strong 
communities for all children, adults and families. The Alliance network 
is the largest membership of provider organizations in the country, and 
thus represents a crucial voice in child welfare reform. We lead our 
members to engage in improving opportunity for children and families, 
and encourage them to play an active role in strengthening our child 
welfare system. Our members work on the frontlines of child welfare 
issues and bring powerful experiences to the goal of supporting the 
very policies and practices through which they can act in the best 
interest of children and youth to connect them with safe, secure 
families and permanent homes.

    We appreciate the opportunity to share our sector's voice in 
discussions around residential care and its role in the child welfare 
continuum of care. At the recent congressional hearing, ``No Place to 
Grow Up,'' we heard personal testimonies from youth, families, and 
providers, discussing the crucial importance of family connections in 
helping children and families in crisis get back on the path to 
success, including Alliance board member Jeremy Kohomban of The 
Children's Village. We wholeheartedly agree with statements emphasizing 
that residential settings should not be long-term solutions for 
children. Indeed, residential settings should be used as treatments, 
essential to a child's well-being, and not as placements at all. A 
residential setting as a placement is an outdated model, which evidence 
and experience clearly shows are not in a child's best interest.

    Alliance member organizations are leading the transformation of the 
sector from primarily residential to one that must be home and 
community based. In fact, a cohort of Alliance members that have 
successfully made that transition is currently mentoring their peers 
through the same process. We know from experience that this 
transformation can be difficult for the systems, providers, and even 
the individual children and families involved. Therefore, we are quite 
concerned by the rhetoric and policy proposals that paint residential 
as uniformly bad for children, or seek to make it difficult for systems 
to place children in residential settings. When needed for crisis, 
stabilization, or other reasons deemed clinically necessary, these 
placements must be accessible, or some of our most vulnerable children 
will be hurt. High-quality, child-focused residential care is a 
critical part of our country's system of care for some children in the 
child welfare system.

    We must not go too far in our restriction of residential care. 
Policy solutions need to focus on eliminating residential care that is 
of poor quality or that is used for the wrong reasons. Anything else 
risks artificially reducing the supply of services and forcing children 
into settings that cannot meet their most critical needs. We urge 
policy makers to remember the dissolution of our institutions of mental 
health. Though it was the right and important decision, it was done 
without ensuring the adequate supply of alternate care settings, and 
led to significant increases in homelessness for our nations mentally 
ill. As we now contemplate limiting inappropriate residential care, we 
must be sure to provide appropriate alternatives, be they foster care, 
guardianship, or reunification. Limitations on one form of supply must 
come with help to states that will ensure parallel increases in other, 
preferable settings.

    The Alliance for Strong Families and Communities urges lawmakers 
and advocates to remember that the needs of children and families 
should always be our number one priority. At every decision point on a 
child's stay in the child welfare system, decisions about their care 
must be made by caring, clinically trained individuals with first-hand 
knowledge of their individual needs. To get there, we need two things:

    First we need a validated capacity plan by state, much like 
hospitals now use, based on utilization, population trends and 
projections, so we know how many residential beds the children's 
behavioral health system needs, where they are needed and by what type 
and quality. We also need to understand that to move our country 
forward we must employ a more flexible federal financing model that 
allows states to create more homes and community based behavioral 
health services and family supports, find more relatives to care for 
kids, recruit and support more foster families and modernize child 
protection systems for the 21st century. Quality, evidence based 
residential treatments are essential and serve as a critical part of 
the community based system of care, and should not be artificially 
limited through time or age limits or made bureaucratically difficult 
through procedural barriers.

    Our network of members encompasses a change agent that is moving 
our country forward. We know that this will not be easy and we know 
that it requires transformation in our thinking, our policies and our 
practices. But if we, as a country, can commit to making a strong 
investment in the tools and resources needed, we are confident that we 
will be successful in our mutual goal of lifting up children and 
families facing crisis, as well as helping to promote safety, 
permanency and improved well-being for all children who are served by 
the child welfare system.
_______________________________________________________________________

National Headquarters: 1020 19th St. N.W., Suite 500, Washington, DC 
20036-5527 | 202-429-0400 | 800-220-1016 | Fax 202-429-0178

National Operations Center: 11700 W Lake Park Drive, Milwaukee, WI 
53224-3099 | 414-359-1040 | 800-221-3726 | Fax 414-359-1074

http://alliance1.org

                                 ______
                                 
         American Association of Children's Residential Centers

 11700 W. Lake Park Drive, Milwaukee, WI 53224  Phone (877) 33AACRC  
                           FAX (877) 36AACRC
             E-mail <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="650e160c16160a0b2504040617064801064b0a1702">[email&#160;protected]</a>  www.aacrc-dc.org

                                    Kari Sisson, Executive Director

May 29, 2015

U.S. Senate Committee on Finance
Attn. Editorial and Document Section
Rm. SD-219
Dirksen Senate Office Bldg.
Washington, DC 20510-6200

Members of the Senate Finance Committee:

The American Association of Children's Residential Centers (AACRC) is a 
national membership organization with members across the United States 
dedicated to providing high-quality therapeutic interventions to 
children and adolescents with mental and behavioral health challenges. 
Our members serve the individual needs of youth and families in a range 
of settings--in the home and community as well as in schools and 
residential treatment programs. We are the longest standing national 
association focused exclusively on the needs of children and families 
in need of residential interventions and our members are keenly focused 
on evolving quality programming that implements evidence-based 
practices to achieve positive outcomes for children and youth.

Over the past decade, our membership has worked to achieve the highest 
standards in providing care to youth in residential treatment by 
seeking continuous improvement in the provision of care to respond to 
the changing treatment needs and care requirements of some of the 
nation's most vulnerable children. AACRC members have authored a series 
of ``Redefining Residential'' papers \1\ that instruct and emphasize 
the importance of best practice service delivery including family-
driven, youth-guided care, community-integrated and trauma-informed 
care. As a result, today's residential providers work with youth, 
parents, and extended family as equal partners in identifying needs and 
developing the individualized services and supports that are essential 
to help youth and families recover from adversity and trauma.
---------------------------------------------------------------------------
    \1\ http://www.aacrc-dc.org/public_policy.

AACRC has also worked closely with the Substance Abuse and Mental 
Health Services Administration's (SAMHSA) National Building Bridges 
Initiative (BBI) to affirm and better integrate residential treatment 
as a key element of the continuum in community systems of care, and has 
developed standards, characteristics, and research to support the 
refinement of programs. Guided by a steering committee inclusive of 
national youth and family associations (Federation of Families for 
Children's Mental Health, YouthMOVE), Georgetown National Technical 
Assistance Center, major associations that have residential members 
(AACRC, National Council for Community Behavioral Health, Child Welfare 
League of America, Alliance for Strong Families and Communities, 
National Association for Children's Behavioral Health), BBI has engaged 
policymakers at the state and national level, as well as providers, in 
the effort to transform and integrate comprehensive community systems 
---------------------------------------------------------------------------
inclusive of all levels of response a child and family might need.

BBI sought to address a long-standing tension that drives a wedge 
between community-based resources and out of home resources that is the 
subject of this hearing. This tension is due to several factors arising 
from a shortage of financial resources and at times a misunderstanding 
of how each level of care contributes to the continuum that a youth and 
family may need based on the acute nature of their mental health needs. 
BBI resulted in an advanced understanding of each of the elements of an 
effective continuum of care for children and families. From this 
framework, the initiative developed standards for each level of care in 
the continuum, including residential treatment. The initiative 
findings, recommendation s and standards are available online.\2\ 
Additionally a recently published book \3\ contains a wealth of 
strategies that have been successful in programs around the country and 
is an invaluable resource for program and system change.
---------------------------------------------------------------------------
    \2\ http://www.buildingbridges4youth.org.
    \3\ ``Residential Interventions for Children, Youth, and Families: 
A Best Practice Guide,'' ed. Gary M. Blau, Beth Caldwell, and Robert E. 
Lieberman, June 2014.

The AACRC membership and broader child welfare field have responded to 
these initiatives and innovations by integrating a host of evidence-
based and research-informed strategies to teach coping, relational and 
cognitive skills to support youth in recovering from trauma, while also 
providing academic, vocational, and independent living supports to help 
youth function successfully in home and community settings, and achieve 
permanency. Through these efforts, residential treatment programs have 
become highly sophisticated in their response to the evolving best 
practice and the acute mental health and behavioral needs of youth, and 
are achieving a range of successes, including improving outcomes, 
providing a positive and safe experience for youth and families, 
shortening lengths of stay, and achieving timely and sustainable 
permanency.

Current Role of Residential Care

As these many efforts make clear, AACRC supports the Committee's 
commitment to the appropriate use of residential treatment and shares 
the goal of ensuring that children and youth live in the least 
restrictive, most family-like settings whenever possible. We write 
today to ensure that the Committee deliberates strategies to advance 
these goals in full consideration of an accurate understanding of the 
current use of residential care and the needs of children placed in 
residential treatment programs.

Research from the Centers for Disease Control shows that 90% of youth 
in the foster care system have experienced multiple adverse childhood 
experiences (ACE), increasing their risk for a range of struggles, 
including substance abuse, academic delays, runaway behaviors and 
episodes of homelessness, early pregnancy, and involvement with the 
criminal justice system. You with these challenges not only require 
significant supervision to ensure their safety, but also the support of 
highly qualified staff and research or evidence based residential 
interventions to address their complex needs and help them safely 
stabilize, improve their functioning, and ultimately improve outcomes. 
In addition, youth need support in developing a healthy system of 
supports in the community to help them maintain positive outcomes over 
time and achieve permanency. When it comes to residential treatment, 
youth with such complex needs are not at all the exception, but rather 
represent the typical population served in residential treatment 
centers. Undoubtedly, there are cases in which youth with lesser 
challenges are placed in residential settings by child welfare 
agencies, but those, in fact, are the exceptions.

Unfortunately, due to the higher cost associated with group home and 
residential care, youth are often placed in these services only after 
being bounced among placements in other forms of care, often when past 
assessments had indicated a need for a higher level of care months or 
years earlier. Thus, rather than utilizing residential care when a 
child first demonstrates a clear need for that intervention, youth 
frequently continue to be placed in less restrictive levels of care. It 
is often only after they have suffered further trauma due to 
insufficient services and placement disruptions that they placed in 
residential settings where levels of supervision and support are equal 
to their needs.

As a result, residential settings must bear the burden and address the 
challenges associated with youth traumatized by earlier insufficient 
levels of care. We know that children with multiple foster placements 
and/or who age out of the foster system tend to not do well later in 
life. Instead, outcomes are improved when children are placed in the 
correct treatment setting at the earliest and most appropriate time. In 
addition, research clearly indicates that children in congregate care 
achieve better outcomes depending on the degree of family engagement 
and participation; that is, when their families are supported in 
developing the skills to address trauma and provide stable and healthy 
homes. As Mr. Reynell's testimony demonstrated, residential services 
play a critical role not only in stabilization but also in ensuring 
long-term permanency for children and families.

Concerns About Recent Proposals

We believe there are a number of practical and rational approaches to 
meeting the laudable goal of improving outcomes for youth in the foster 
care system, from bolstering the capacity of families and communities 
to identify and serve children with intensive needs, to increasing 
federal oversight to ensure that states are being held accountable for 
undertaking appropriate efforts to prevent the unnecessary placement of 
children into group homes. We were particularly struck by Ms. Gruber's 
testimony and the failure of the system to respond to her ability and 
right to live with her extended family or in another less-restrictive 
setting. Our organization is eager to support the Committee in its 
work, and has the organizational capacity to support the development of 
effective policy and strategies to prevent the recurrence of Ms. 
Gruber's experience. However, we are concerned that certain policy 
proposals under consideration will have significant unintended 
consequences that can negatively impact the achievement of this goal, 
challenge the ability of state and local systems to support children 
with the most intensive needs, and have adverse effects on the children 
and families in our communities. Our concerns are outlined below.

Definitional confusion: Group care is not well defined in the current 
system, with over 100 references in literature and federal policy to 
various types of residential and congregate care. Too often all types 
of congregate care are treated as equivalent, from single-site, family 
or faith-based group homes to sophisticated intensive psychiatrically 
oriented treatment settings. These definitional ambiguities can lead to 
misinterpretations of legislative intent and poor matching between 
programs and identified needs, unintentionally denying children the 
services and supports that they need. Previous proposals considered by 
the Committee (including S. 1518) have shared this flaw, failing to 
differentiate ``group homes'' from quality residential treatment, 
conflating these into the ``congregate care'' category. While we 
understand that the intent is to prevent unnecessary congregate 
placements for children and youth like Ms. Gruber whose needs can be 
met in the community, the proposed approach would limit the ability to 
provide residential interventions to children and adolescents with 
acute and complex mental and behavioral health challenges. While 
previous proposals built in exemptions from the time limits for some 
subsets of children and youth, including those with severe physical 
disabilities, they did not exempt children and adolescents with mental 
or behavior health problems, who represent the majority of those 
needing residential interventions and who are entitled to this 
treatment by existing parity laws.

Arbitrary timeframes: Legislation introduced in the previous Congress 
(S. 1518) proposed limiting federal Title IV-E reimbursement for 
children under age 13 placed in a broadly defined category of 
``congregate care'' after just 15 days. For those over 13, federal 
funding would be cut off after 12 months of continuous care (and/or 18 
months of non-continuous care). We expect this proposal to be 
reintroduced this year and most likely discussed at tomorrow's hearing. 
While time limits may create a sense of urgency for child welfare 
workers in communities across the country to work toward family 
reunification, they also can create perverse incentives. They establish 
arbitrary metrics that are not based on the immediate need of the child 
or the immediate ability of the family to respond to those needs, and 
are inconsistent with a commitment to addressing the diverse and unique 
challenges and needs of children in foster care. They are also not 
sensitive to the variety of stressors over the course of a child's life 
that can result in out of home placements that can accumulate to the 
limits being met before safe and permanent family resources can be put 
into place. While we recognize and share the desire to reduce lengths 
of stay and our members havemade great strides in doing so, the reality 
is that some highly traumatized children with acute mental health needs 
will require longer courses of treatment than are supported by these 
timeframes.

Insufficient family based alternatives: Resources to support families 
remain inadequate to meet the growing need across the country. As 
poverty and its concomitant stresses increase, supports that can help a 
family respond effectively to the needs of its children are often 
sparse and poorly matched to individual needs. While in-home and 
community based programs are productive, service arrays across the 
country are not currently robust enough to ensure that children with 
the most acute needs will be adequately supported. Families are thus 
often able to access few resources to respond to the very real crises 
they and their children face. Furthermore, the infrastructure is not 
currently sufficient to absorb children turned out from congregate care 
and very few community-based programs have any evidence of consistent 
success in addressing the acute mental health needs of highly 
traumatized children with poor family supports. While we certainly 
support developing and expanding these approaches, it will take 
considerable time and resources, and if we simply de-fund currently 
available, proven programs, we risk creating a sub-generation of 
children and families left to suffer the poor life-long outcomes 
associated with trauma and unmet needs.

Indeed, recent examples from other countries highlight the negative 
impacts of eliminating access to residential treatment. In the 1980s, 
Warwickshire County, England closed down all of its residential 
treatment facilities, only to see increased placement disruptions, less 
family connectedness, reduced permanency, worse educational outcomes, 
higher levels of emergency medical admissions and juvenile justice 
involvement, and, tellingly, the placement of many youth in residential 
programs in other counties.\4\ Australia implemented a similar policy 
in the 1990s and found that closing residential facilities overburdened 
the foster care system and resulted in increased youth homelessness and 
involvement with the juvenile justice system, which ultimately 
increased taxpayer costs. Ten years later they found themselves needing 
to reestablish residential treatment capacity, but without the 
advantage of the expertise that had previously been in place and that 
could have been built upon.\5\ A number of important lessons can be 
learned from these experiences, including simply limiting the options 
available to support youth with serious mental or behavioral health 
challenges without first establishing a proven set of alternative 
supports in the community is likely simply resigning ourselves to worse 
outcomes. Failing to address youth's needs all but ensures that they 
will end up disconnected from society, leading to increased criminal 
behavior and reliant on homeless shelters, hospitals, and prisons.
---------------------------------------------------------------------------
    \4\ Cliffe D, Berridge D. Closing children's homes: An end to 
residential childcare? 1992. London, National Children's Bureau.
    \5\ Ainsworth F, Hansen P. A dream come true--no more residential 
care: A corrective note. International journal of Social Welfare 2005; 
14: 195-199.

Cost shifts and impact on Medicaid: We are also concerned that limiting 
IV-E reimbursement for residential treatment will result in shifting 
costs to the states that continue to be responsible for responding to 
the immediate needs of children and families. This would undoubtedly 
have the effect of causing states to prioritize cost-saving over the 
individual needs of children and families, likely eroding the quality 
of care provided in residential interventions and resulting in the 
early discharge of children and adolescents before treatment is 
complete. Prematurely returning young people with mental and behavioral 
health challenges to communities absent a robust system of care is 
essentially forcing them to rely on the resources that had previously 
proven inadequate to their needs. This will extend the progressive 
impact of adversity that has been shown in research to guarantee poor 
outcomes for these children and youth, including increased 
homelessness, victimization, hospitalization, and incarceration, all of 
---------------------------------------------------------------------------
which ultimately have very significant costs to government.

Furthermore, limiting IV-E reimbursement is likely to simply shift 
costs to Title XIX, increasing the demand on Medicaid. As Medicaid 
authorizes services based on medical necessity, if foster youth are 
reliant solely on Medicaid programs to receive adequate care, we'd 
expect to see an expansion of diagnosis, potentially unnecessarily 
stigmatizing children who have already experienced significant stress 
and trauma in their lives. A further consequence of a shift to Title 
XIX would be to strain the availability of rehabilitation options to 
provide funding for Wraparound services, shown to help support and 
restore families, and an essential foundation for the development of 
community based alternatives.

The need for new investment: Recent research conducted by Yale 
University and The University of Southern California indicates that 
child maltreatment is significantly more prevalent than previously 
understood, with one in every eight American children being 
substantiated as a victim of abuse or neglect by age 18.\6\ Not only is 
the scope of the problem much larger than we thought, it's impact is 
profound. According to the CDC, adverse childhood experiences are the 
leading determinant of negative social and physical health outcome in 
the United States, including early death.\7\ The CDC has identified 
this research, replicated repeatedly across the country over the past 
17 years, to equal or exceed the most robust epidemiological data it 
has gathered; its researchers term adverse childhood experiences ``the 
smoking gun''--the most major public health problem we face as a 
nation. We also have in-depth understanding of the progressive impact 
of adversity from childhood into adulthood, and that it cuts across the 
full range of social problems that we face. Emerging knowledge in the 
domain of neuroscience sheds light on how trauma affects the brain, 
thus impacting to every aspect of development and life trajectory.\8\ 
When a public health challenge has this level of predictability, it 
creates an ethical imperative to create interventions that will 
mitigate or reverse negative outcomes and yield significant societal 
and fiscal improvements that will vastly outweigh any up-front, short-
term cost.
---------------------------------------------------------------------------
    \6\ Wildeman C, Emanuel N, Leventhal JM, Putnam-Hornstein E, 
Waldfogel J, Lee H. The Prevalence of Confirmed Maltreatment Among US 
Children, 2004 to 2011. JAMA Pediatr. 2014;168(8):706-713. doi:l0.1001/
jama pediatrics.2014.410.
    \7\ CITE.
    \8\ CITE.

This knowledge creates a responsibility as a nation to not short change 
our future, in this case our children and the families raising them. A 
return on investment approach, involving strategic and targeted 
investment in interventions shown to be effective, with rigorous 
accountability provisions, would afford our society the opportunity to 
address this most difficult and challenging issue. This would avoid the 
``robbing Peter to pay Paul'' potential of budget neutrality and 
promise a robust system ranging from prevention and family preservation 
supports and services up through the most intensive interventions. Done 
thoughtfully and accountably, relatively small investments in the scope 
---------------------------------------------------------------------------
of the national budget can yield disproportionately large effects.

Precedent setting: Lastly, we are concerned that imposing time limits 
on residential treatment for foster children sets a dangerous precedent 
and ultimately endangers federal funding for other forms of out-of-home 
care, including family-based foster care. None of us wants any child to 
spend a day longer away from home than is necessary, but foster care is 
nonetheless an essential part of the safety net for children and 
families. Stays in foster care are not only about providing a short-
term substitute family, but also about treating the significant 
emotional, social, and behavioral challenges created by severe trauma. 
Addressing these needs requires intensive support over time. We all 
wish that children did not suffer from maltreatment, neglect, horrific 
abuse and then face a wide range of physical, mental, emotional, and 
behavioral challenges. But it happens far too often and requires a 
comprehensive and adaptable continuum of care capable of providing them 
with the services and supports they need. Their families similarly need 
recourse to an extensive and diverse array of services and supports if 
they are to recover, restore their families, and confidently provide 
the care their children need. Restricting the child welfare system's 
ability to serve those with the most acute needs is simply resigning 
them and their families to unacceptable outcomes.

Better Alternatives

Fortunately, there are other more promising current proposals for how 
to reduce unnecessary utilization of congregate settings while 
facilitating the development of community-based resources. In his 
Fiscal Year 2016 (FY 2016) Budget, President Obama proposes a two-
tiered approach involving enhanced federal oversight of states and 
increased federal funding to support alternative placements for 
children who can be served in the community. The President's proposal 
recognizes that given the diverse needs of children in foster care, 
there cannot be a one-size-fits-all approach.

Specifically, President Obama's plan would require a documented 
assessment justifying why any child is placed in congregate care. In 
addition, it would require a judicial determination to be made after a 
child has been in a congregate care setting for 6 months (and every 
subsequent 6 months) confirming the appropriateness of the placement to 
meeting the child's needs and documenting the progress that is being 
made in transitioning the child to a more family-like setting. 
Crucially, though, the President recognizes the need to concurrently 
bolster the ability of other settings to meet children's needs, and 
would provide new funding through IV-E to support capacity building in 
the community, including specialized case management, expansion of 
therapeutic foster care, and reimbursement for daily supervision of 
children who are in need of specialized services.

Additionally, Senator Ron Wyden (D-OR) has drafted legislation that 
would bolster funding for prevention and services to families. It cites 
state and tribal innovations implemented through Title IV-E Waivers to 
suggest that investing in front-end prevention and family services can 
help reduce the prevalence of foster care. This would in turn reduce 
the need for residential interventions. Wyden's bill would provide for 
a host of time-limited family services and supports, including parent 
training and mentoring, counseling, trauma-informed care, crisis 
intervention services and assistance, and other evidence supported 
interventions. This approach seeks to create the healthy infrastructure 
of services and supports in communities and provide evidence that these 
services can over time achieve the goal of the Committee and reduce 
reliance on group homes/residential treatment, without the danger of 
creating the immediate gaps that would occur from the imposition of 
arbitrary time limits.

In conclusion, AACRC applauds the Senate Finance Committee for its 
dedication to preventing states from placing children and youth in 
group care whenever their needs can be met in a family or community 
setting. We appreciate your leadership in elevating these 
conversations, and trust that you will ground your consideration of 
specific policy proposals in an understanding of the complex needs of 
children and families, and the reasons why quality residential 
interventions have an essential role in the continuum of care for 
foster children. Our membership shares your objectives and is committed 
to working with you to craft workable policies that will hold states 
accountable and develop viable alternatives while also preserving the 
entitlement to residential interventions for children and adolescents 
in need of intensive care.

Thank you for the opportunity to submit this statement for the record.

Sincerely,

Kari Sisson
Executive Director
American Association of Children's Residential Centers (AACRC)

                                 ______
                                 

                     The Annie E. Casey Foundation

                        Every Kid Needs a Family

          Statement Submitted to the Senate Finance Committee

                              May 19, 2015

                          By Patrick McCarthy

            President and CEO, The Annie E. Casey Foundation

                          701 St. Paul Street

                       Baltimore, Maryland 21202

The Annie E. Casey Foundation appreciates the opportunity to submit 
written testimony for today's hearing, ``No Place to Grow Up: How to 
Safely Reduce Reliance on Foster Care Group Homes,'' on the important 
subject of where children should live when they have been temporarily 
removed from their homes by our child welfare systems. As we explain in 
a new KIDS COUNT policy report called Every Kid Needs a Family: Giving 
Children in the Child Welfare System the Best Chance for Success, every 
kid needs a family to nurture and support his healthy development 
during the fleeting and critically important years of growing up.

Research shows that families are essential to children's healthy 
development--and that even children who cannot live with their own 
parents because of abuse and neglect can develop nurturing, beneficial 
relationships with relatives, close family friends or caring foster 
parents who step in as caregivers. These relationships make a big 
difference in a child's ultimate path in life. Young people who grow up 
in families do better in school, are more likely to graduate from high 
school and are less likely to be arrested than those who grow up in 
group placements.

While federal law has long required that children in the child welfare 
system live in the least restrictive placement possible--the setting 
most like a family--more than one in seven children removed from home 
lives in a group placement, not a family. For teenagers in the system, 
the number is one in three. What's more, a recent U.S. Department of 
Health and Human Services report, A National Look at the Use of 
Congregate Care in Child Welfare, found that more than 40 percent of 
young people in group placements had no mental health diagnosis, 
medical need or behavioral problem that might warrant such a 
restrictive setting, and that still others could live in families with 
the right services. While residential treatment is a beneficial, short-
term option for the small percentage of young people whose clinical 
needs can't be met in a home setting, its goal should be to help kids 
heal and prepare them to return to live safely in a family as soon as 
possible.

As the data in the Casey Foundation's policy report and the HHS report 
show, states have been making progress in placing more children in 
families. But this progress is inconsistent among and sometimes even 
within states, and we know still more progress can be made. 
Policymakers at the federal, state and local levels, along with child 
welfare agency leaders and judges, can make changes in policies and 
practices that enable more young people to live in families during 
their transitional time in child welfare.

The Casey Foundation's report outlines recommendations for these 
changes in three main areas:

    Expand the service array to ensure that children remain in 
        families. Communities that provide a broader range of services 
        have more options that enable children to remain safely in 
        families, including returning home to their own parents if 
        appropriate.

    Recruit, strengthen and retain more relative and foster families. 
        Child welfare agencies should exhaust all means to find 
        available kin and remove barriers that would keep kin from 
        being licensed and financially supported as foster parents. In 
        addition, engaging and equipping caring foster families--
        including increased investments in foster parent recruitment, 
        licensing and support to maintain a robust census of available 
        beds for emergencies and children with complex needs--should be 
        a top priority for states.

    Support decision making that ensures the least restrictive 
        placements. Policymakers, public agency leaders and the courts 
        should require substantial justification for more restrictive 
        placements, as envisioned in federal law.

In addition to these recommendations from the Casey Foundation's policy 
report, which can be downloaded at www.aecf.org, Casey has proposed 
ways to restructure federal child welfare financing to promote best 
practices that help more kids grow up in families. Also, the Foundation 
has captured success stories from jurisdictions that have made 
deliberate efforts to increase family placements. In particular, I 
commend to your attention the following resources:

    When Child Welfare Works: A Proposal to Finance Best Practices. 
        This policy proposal outlines recommendations for strategic 
        reinvestments of federal dollars that can encourage states to 
        adopt best practices, including the placement of children in 
        families. An accompanying infographic, The Cost of Doing 
        Nothing, shows how federal funding streams for state child 
        welfare systems will continue to decline without restructuring 
        of the outdated financing system.

    Too Many Teens: Preventing Unnecessary Out-of Home Placements. Too 
        often, teenagers enter the child welfare system because they 
        simply aren't getting along with their parents. This paper 
        traces the Foundation's efforts to learn from communities that 
        are preventing teens from landing in the system by helping 
        families while the teen remains at home.

    The Connecticut Turnaround: Case Study. Over 5 years, Connecticut 
        has made substantial progress in reducing the number of 
        unnecessary child removals and ensured that children entering 
        state custody live in families whenever possible, not in group 
        placements. This report presents the new policies and practices 
        that have led to this turnaround, including a focus on kin.

    10 Practices: A Child Welfare Leader's Desk Guide to Building a 
        High-Performing Agency. This guide outlines best practices for 
        child welfare leaders and offers tools for measuring 
        improvement.

As these examples and recommendations show, positive change is within 
in our grasp--and children are depending on us to deliver. Thank you 
for your attention to this issue.

                                 ______
                                 

                       Children Awaiting Parents

          Waiting Foster Youth Linger in Residential Treatment

             Statement for inclusion in the hearing record:

  ``No Place to Grow Up: How to Safely Reduce Reliance on Foster Care 
                             Group Homes''

                      Hearing held on May 19, 2015

                        Melanie M Schmidt, LMSW

                       Children Awaiting Parents

                    274 N. Goodman St., Suite D-103

                          Rochester, NY 14607

                              May 19, 2015

                              Introduction

    Older children that have been legally freed for adoption in the 
United States are a hidden and vulnerable population. Some of the 
current child welfare practices are inadvertently preventing them from 
finding a timely connection with a permanent, forever family. Working 
as a Wendy's Wonderful Kids (WWK) Recruiter at Children Awaiting 
Parents in Rochester, NY from 2008-2013, I had a unique perspective on 
``the system.'' To me, ``the system'' was made up of caring social 
workers all trying to help foster youth, but never able to replicate 
the life-long stability of a permanent family. I believe part of the 
reason waiting youth remain hidden in foster care is a result of 
prolonged stays in group homes where they are isolated and unable to 
form new connections with permanent families.

    Children Awaiting Parents (CAP) is a private, non-profit 
organization that has been committed to finding families for waiting 
foster youth for 43 years. CAP's mission is to find adoptive families 
across the United States for youth who are in the greatest danger of 
aging out of the foster care system. CAP's waiting children are often 
older, minorities, sibling groups who wish to be placed together, or 
children with emotional, mental and/or physical disabilities--children 
who are typically categorized as ``special needs,'' ``hardest to 
place'' or even to some, ``unadoptable.'' CAP's national photolisting 
has brought awareness to the need for families and helped 6,000 youth 
find permanent homes. As a private organization, CAP has the ability to 
advocate for children and families who often ``fall through the 
cracks'' of the child welfare system.

    During my time as a WWK Recruiter at CAP, I worked with 50 of the 
``hardest to place'' youth in the Western New York area from 8 
different counties. About 40% of these youth were in congregate care 
settings and the rest were in temporary foster homes. My job was to 
implement the WWK Recruitment model that's effectiveness has been 
proven nationally. Through grants from the Dave Thomas Foundation for 
Adoption, over 200 WWK recruiters are stationed at child welfare 
agencies across the country. WWK recruiters find adoptive homes for a 
small caseload of waiting youth. The Dave Thomas Foundation has found 
that children over the age of 15 in the WWK program are up to three 
times more likely to be adopted than youth not served by the 
program.\1\ The program achieves success by employing a worker whose 
sole purpose is to advocate that adoption be pursued for each youth on 
their caseload. As part of the WWK program, I met with foster children 
monthly to build a relationship with them, I reached out to birth 
family members who may be able to adopt, advocated for adoption and 
implemented child-specific recruitment within their network of county 
workers, therapists, group home staff and educators. I found that many 
of the children on my caseload seemed to get ``stuck'' in congregate 
care longer than necessary. Their stay in congregate care lengthened 
their stay in foster care and in some cases, they became 
``institutionalized'' making it very difficult for them to ever 
function in a family setting.
---------------------------------------------------------------------------
    \1\ Child Trends, ``Dave Thomas Foundation for Adoption: A national 
evaluation of Wendy's Wonderful Kids'' https://
www.davethomasfoundation.org/about-foster-care-adoption/research/read-
the-research/fact-sheet/.

    Even though congregate care can be effective in teaching family-
appropriate behavior, children who are freed for adoption need a 
different approach. Usually children with behavioral or mental health 
problems are admitted to group homes for a specific amount of time to 
complete treatment, when treatment is finished (as proven by their 
behaviors) they return home. However, children who do not have a home 
to return to may enter into a cycle of performing the tasks they need 
to be released, only to find that there is no home available at the 
time, getting discouraged and falling into old behavioral or mental 
health patterns and then having to start over. These children may never 
seem ``ready'' for a family, but we have to remember that a family can 
function as part of their lifelong ``treatment'' and be part of what is 
needed to provide true healing. Children who have been permanently 
removed from their family of origin and suffered abuse, neglect and 
years of loss, need more than group home treatment to help them cope. 
They need and deserve every opportunity at stability and connectedness 
we can offer them--especially a family.

     The Problem: Foster Youth Linger in Congregate Care Facilities

                               Statistics

    According to the U.S. Children's Bureau, there are approximately 
402,378 children in foster care in the United States. Out of those 
402,378 children in foster care, 101,840 have had their parental rights 
terminated and are waiting to be adopted. The need for permanent, 
loving families for those thousands of waiting children is great. 
Children who are waiting to be adopted are either living in non-
relative, temporary foster homes, kinship foster homes, group homes or 
residential treatment facilities. Many children linger in foster care 
for years and eventually age out at age 18 or 21. According to the 2009 
AFCARS report posted on the Children's Bureau website, 11% of children 
currently in foster care have spent 5 years or more in care (48,088 
children), 12% or 49,122 children have spent 3-4 years in care, 5% have 
spent 30-35 months in care, 7% have spent 24-29 months in care, 9% have 
spent 18-23 months in care, 13% spend 12-17 months in care, 18% have 
spent 6-11 months in care, 19% have spent 1-5 months in care and 5% 
have spent less than one month in care. The average length of time U.S. 
children spend in foster care in 2009 was 26.7 months and the median 
was 15.4 months. According to a recent 2015 Children's Bureau report, 
the overall time in foster care is longer for children who spent time 
in congregate care, with an average of 28 months compared to 21 months 
total time in foster care. Some children have spent upwards of 10 years 
in foster care without a permanent, loving family connection.

  Negative Outcomes of Prolonged Foster Care and Residential Treatment

    Without caring, committed families to advocate for them, foster 
youth may unnecessarily linger in group homes or congregate care 
facilities. ``Nationally, about one fifth of children in foster care 
are in congregate care settings,'' Freundlich and Avery (2005). AFCARS 
reports that 16% of children in foster care or 65,804 children were 
placed in a group home or residential treatment facility in 2009.

    Youth in foster care who are freed for adoption are at risk for a 
multitude of problems. They may bounce around from home to home, never 
establishing permanency. They may fall into some of the same patterns 
of their birth family: teen pregnancy, poverty, drug use, 
incarceration, etc. ``Studies from around the country show that a 
disproportionately large number of post-foster care young people do not 
receive high school degrees, do not have jobs, or are dependent on 
welfare, become homeless, become involved in the criminal justice 
system, and suffer health problems,'' Youth Advocacy Center (2001).

    The risk level for foster children is compounded if they are in a 
group home or residential treatment facility, as opposed to a family 
setting. In a group home, foster children are unable to form lasting 
connections with adults who may be able to adopt them as part of their 
family (Freundlich and Avery, 2005). Foster children are also at risk 
for being over-medicated, becoming institutionalized, being subject to 
unfair treatment, being victimized by other residents or staff, 
receiving poor education and not being prepared for life after foster 
care. ``Many group homes and residential treatment centers (RTC's) view 
control of teens and behavior management as the main priority. This 
leads to practices that range from absurdly counterproductive through 
harmful to clearly illegal,'' Youth Advocacy Center (2001). In a 2003 
Children's Rights study, Freundlich found that: in general congregate 
care does not meet the permanency needs of youth, the quality of staff 
at congregate care facilities is frequently quite poor, there is a lack 
of focus on education and mental health treatment, youth are often 
unsafe because of peer violence, inadequate attention is given to 
identifying extended family members or caring adults who could be 
permanent resources for the youth, youth are not involved in planning 
for their future, youth are not prepared for life after foster care.

    When foster youth in group homes are not provided with 
opportunities to connect with potential adoptive families or prepare 
for life after care, they are at risk for aging out of foster care with 
very limited resources. The longer a child is in congregate care, the 
more likely they are to experience the negative outcomes of congregate 
care. Without family or caring adult there to advocate for them, foster 
youth may find themselves spending an unnecessary amount of time in 
congregate care facilities. If allowed to stay in congregate care until 
their 18th birthday, many foster youth may age out of the system 
without a family. In 2006, 26,181 youth aged out of care in the United 
States. ``On average, youth who aged out of foster care in 2006 spent 5 
years in the system, compared with less than 2 years for children who 
left through reunification, adoption, guardianship or other means,'' 
(The Pew Charitable Trusts, 2008).

    According to Freundlich (2003), there are a number of negative 
outcomes for children who age-out of foster care: They often need 
highly intensive and specialized mental health services but do not know 
where to receive them, they tend to be at an educational disadvantage, 
appear to face unemployment and underemployment in significant numbers, 
are at high risk of poverty, are at risk of victimization, are likely 
to be arrested or spend time in jail, and often face homelessness.

        Current Measures to Address the Problem Need Improvement

    To address the problem of children lingering in foster care, 
policies were put into place to follow up on a regular basis and be 
sure that permanency goals were being pursued for foster children. The 
Social Security Act first developed ``dispositional hearings'' where 
county case workers were forced to document ``reasonable efforts'' to 
find a permanent family for children in foster care. The dispositional 
hearings were to be held no longer than 12 months after the child 
entered foster care and then every 12 months after that.

    According to the Children's Bureau, the first purpose of a 
dispositional hearing is to develop a permanency plan. The Permanency 
plan could in include goals of: return to parent, termination of 
parental rights and then adoption, legal guardianship, placement with a 
fit and willing relative, or placed in another planned permanent living 
arrangement. After a permanency plan is established, additional 
dispositional hearings would ensure that reasonable efforts were made 
to place the child in a timely manner in accordance with their 
permanency plan.

    An update to the Social Security Act, The Adoption and Safe 
Families Act (Public Law 105-89) was enacted on November 19, 1997. The 
Adoption and Safe Families Act changed the name of the hearing required 
from ``dispositional'' to ``permanency.'' The Act also changed the 
requirement for what must be determined in the permanency hearings to 
emphasize that these hearings must determine a specific permanency plan 
for a child. This change more clearly defines the purpose of the 
permanency hearing (Children's Bureau). The act also included adoption 
incentive payments to county DSS offices who had an increase in the 
number of adoptions in their county.

    The permanency hearings were further strengthened by Governor 
Pataki's 2005 Permanency Bill. The Permanency Bill requires permanency 
hearings every 6 months, instead of 12, in New York State. Workers in 
New York are now required to justify what is being done to move a child 
from foster care to a permanent family setting every 6 months.

    Florida's Guardian Ad Litem Program clearly outlines the federal 
policy of Permanency Hearings: At the Permanency Hearing the court must 
determine: (1) whether the current permanency goal for the child is 
appropriate or should be changed, (2) when the child will achieve one 
of the permanency goals and (3) whether the department has made 
reasonable efforts to finalize the permanency plan currently in effect. 
The following permanency goals are available--listed in the order of 
preference: (1) Reunification, (2) Adoption, (3) Permanent 
Guardianship, (4) Permanency Placement with a Fit and Willing Relative 
or (5) Placement in Another Planned Permanent Living Arrangement 
(APPLA).

    Permanency hearings give the court a chance to mandate that certain 
actions be followed by the county workers or other agencies involved 
with the child. The goal of permanency hearings is to prevent children 
from being in foster care longer than necessary. Ideally, the foster 
child would also get a chance to make their voice heard and express 
their satisfaction with movement toward their goal.

    This policy was created to meet the agenda of children in foster 
care, to be sure that their best interest is being pursued. The policy 
also benefits tax payers and state agencies because it costs the state 
less to move children out of residential treatment or foster care and 
into a permanent family.

                      Critique of Current Measures

    Permanency Hearings are an excellent policy, and if used correctly, 
they could help a child achieve permanency more quickly. However, there 
are some shortcomings to this policy and somehow, some children 
continue to linger in congregate care. The first shortcoming is that 
permanency hearings do not fully address the need to get children who 
are freed for adoption out of group homes. Caseworkers can continue to 
ask for extensions to keep children in foster care and they are not 
pushed to move the children out of congregate care by the court. As 
long as the county workers can prove that they are continuing to be 
open to adoptive families while the child is in the group home, the 
child does not have to be moved. In order for the child to be moved, 
the county caseworker or the group home staff needs to make the 
decision that the child is now ready be moved to a lower level of care 
or a family setting. Many times, the point at which the child is ready 
to be moved to a family setting is very arbitrary and unclear. It is 
also somewhat unethical that the people making the decision about 
whether or not the child is ready to be moved on from the group home 
are the group home staff themselves who are getting paid every day that 
the child is in their care.

    I propose that each child be represented by a third party who can 
advocate that they be moved out of group homes or residential treatment 
facilities as soon as possible. There is already a very successful 
program called CASA, or Court Appointed Special Advocates, that does 
just that. CASA are a group of volunteers who advocate on behalf of 
foster children to see that they do not languish in foster care or 
group homes. Each child should be appointed a CASA who they meet with 
on a regular basis and who is well informed of why they are in a group 
home and what requirements they need to meet in order to be discharged 
to a family setting.

    I also propose that there be a deadline imposed upon congregate 
care facilities that is enforced by the court during permanency 
hearings. Most group homes and residential treatment facilities have an 
average length of time for treatment. I propose that once a child is 
treated for the decided length of time, be it 8 months or even 1 year, 
they are automatically given the chance to prove themselves in a family 
setting, despite their behavior. I do not feel that behaviors should 
determine their ability to move to a lower level of care or a family 
setting. After a certain amount of time, I believe that the group home 
has done all they can to ``treat'' a child and the child should be 
allowed to move on and try living in a family setting once more. The 
transition should be slow and well planned, giving the child time to 
adjust to family life once again.

    The second shortcoming with the permanency hearings is the goal of 
Another Planned Permanent Living Arrangement (APPLA). APPLA is a loop 
hole that allows caseworkers to change a child's goal and no longer 
recruit foster or adoptive families. A child may also decide to change 
their goal to APPLA because they do not believe a family will ever 
adopt them and they want to ``live independently'' after they age out 
of care. However, children are often not given enough education about 
how difficult it is to live without the support of a family, especially 
after becoming institutionalized in congregate care settings. Although 
children should be given the right to choose not to be adopted, they 
need to be fully educated about what APPLA means and still allowed to 
live in a foster home or kinship foster home that will better equip 
them to transition out of care than a residential facility. Caseworkers 
need to take the time to unpack a child's resistance to adoption 
instead of quickly changing their goal to APPLA.

                               Conclusion

    Foster youth must be moved out of congregate care facilities as 
soon as possible in order to avoid the numerous negative mental health 
and social outcomes associated with long-term residential treatment and 
aging out. Policies must be put into place to use Permanency Hearings 
more effectively so that congregate care placements are strictly 
monitored. Using Permanency Hearings to keep congregate care facilities 
in check will help more children be moved into family settings in a 
timely manner. Policy must make permanency and family connections the 
first priority for foster children instead of only focusing on 
treatment in group home settings. If foster children are moved out of 
congregate care quickly, their mental health will be improved not only 
in the short term, but they will be less likely to tax the social 
welfare system as adults who have aged out of foster care.

                                Sources

Courtney, M. (2005). Youth aging out of foster care. Network on 
        Transitions to Adulthood, Issue 19.
Freundlich, M. and Avery, R. (2005) Planning for permanency for youth 
        in congregate care. Children and Youth Services Review, Vol 27, 
        115-135.
Freundlich, M. (2003). Time is running out: Teens in foster care. 
        Children' s Rights, Juvenile Rights Division of the Legal Aid 
        Society, Lawyers for Children.
Laws and Policies (2011). The Children's Bureau. U.S. Department of 
        Health and Human Services, Administration for Children and 
        Families. Retrieved from http://www.acf.hhs.gov/programs/cb/
        laws_policies/.
Permanency Hearing. Dependency Practice Manual. Florida Statewide 
        Guardian ad Litem Office. Retrieved from http://
        guardianadlitem.org/att_practice_manual
        .asp.
The AFCARS Report Preliminary FY 2009 Estimates as of July 2010 (2010). 
        Adoption and Foster Care Analysis and Reporting System 
        (AFCARS), The Children's Bureau. U.S. Department of Health and 
        Human Services, Administration for Children and Families. 
        Retrieved from http://www.acf.hhs.gov/programs/cb/
        stats_research/afcars/tar/report17.htm.
The future for teens in foster care: The impact of foster care on teens 
        and a new philosophy for preparing teens for participating 
        citizenship. (2001). Youth Advocacy Center.
Time for reform: Preventing youth from aging out on their own. (2008). 
        The Pew Charitable Trusts. Retrieved from http://
        www.pewtrusts.org/uploadedFiles/wwwpewtrustsorg/Reports/
        Foster_care_reform/Aging-Out-2008AL.pdf?n=2515.

                                 ______
                                 

                   First Focus Campaign for Children

  ``No Place to Grow Up: How to Safely Reduce Reliance on Foster Care 
                             Group Homes''

           Written Testimony for Senate Committee on Finance

                          United States Senate

                              May 22, 2015

        Shadi Houshyar, Vice President for Child Welfare Policy

                              First Focus

                   1110 Vermont Avenue, NW Suite 900

                         Phone: (202) 657-0678

                      Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cebda6afaaa7a68ea8a7bcbdbaa8a1adbbbde0a1bca9">[email&#160;protected]</a>

                     www.FFCampaignforChildren.org

Chairman Hatch, Ranking Member Wyden, and members of the Committee, 
thank you for this opportunity to submit a statement for the record on 
behalf of the First Focus Campaign for Children, in response to the May 
19 hearing titled ``No Place to Grow Up: How to Safely Reduce Reliance 
on Foster Care Group Homes.'' We appreciate the attention that your 
Committee is bringing to the widely used practice of housing children 
and youth in the foster care system in restrictive group care settings. 
As you consider proposals aimed at reducing our overreliance on group 
homes for children in foster care, we respectfully ask that you 
consider including the following proposals:

(1)  eliminating the use of federal funds for group home placements for 
    children ages 6 and younger, and requiring additional oversight 
    when congregate care placements are used for older children;

(2)  requiring title IV-E agencies, as a condition of a child's 
    eligibility, to justify congregate care as the least restrictive 
    foster care placement setting (for children older than 6) through a 
    documented assessment and requiring a judicial finding initially 
    and every 6 months thereafter to confirm that the placement in the 
    congregate facility is the best option for meeting the child's 
    needs and that the child is progressing towards readiness for a 
    more family-like setting;

(3)  supporting specialized training and compensation for foster 
    parents who provide a therapeutic environment for a child with 
    behavioral and mental health challenges, and allowing for title IV-
    E reimbursement for the supervision costs for children who may need 
    specialized services during the day;

(4)  time-limiting federal reimbursements for group care to reflect our 
    understanding of the short-term benefits of restrictive placements 
    including residential treatment settings; and

(5)  authorizing the demonstration program outlined in the 
    Administration's federal fiscal year 2016 budget which would 
    allocate $750 million to improve federal and state efforts to curb 
    overmedication of children in foster care. As part of this 
    initiative, the Centers for Medicare and Medicaid Services (CMS) 
    would allocate $500 million as incentives to states that 
    demonstrate reductions in inappropriate prescribing practices and 
    over utilization of psychotropic medications, increased use of 
    psychosocial treatments, and improved outcomes for foster children. 
    These dollars would support state's efforts to provide effective 
    home and community-based interventions to young people in foster 
    care, reducing the use of residential treatment and other 
    restrictive settings for this population.

The First Focus Campaign for Children is a bipartisan organization 
advocating for legislative change in Congress to ensure children and 
families are a priority in federal policy and budget decisions. Our 
organization is dedicated to the long-term goal of substantially 
reducing the number of children entering foster care, and working to 
ensure that our existing system of care protects children and 
adequately meets the needs of families in the child welfare system. We 
are especially focused on increasing attention to the health and 
behavioral health needs of children in the foster care system and 
identifying policies and practices to effectively address the unique 
challenges faced by this vulnerable population.

In the past decade, the percentage of children placed in congregate 
care settings has significantly decreased at a greater rate than the 
overall foster care population.\1\ This trend reflects a growing 
consensus within the child welfare field that restrictive institutional 
settings for foster children should be used sparingly, for short 
periods of time, and only when necessary. With varying success, most 
states have made efforts to move in that direction and many have seen 
significant reductions in the number of children in congregate care 
settings, including New Jersey, Maryland, Maine, Louisiana, and 
Virginia.\2\<SUP>,</SUP> \3\In Oregon, Kansas and Maine, the percentage 
of foster children in congregate care is now as low as 4 to 5 
percent.\4\ Several states with above-average percentages of foster 
children in congregate care are now striving to reduce those numbers.
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Children's Bureau. A National Look at the 
Use of Congregate Care in Child Welfare. May 13, 2015.
    \2\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Children's Bureau. A National Look at the 
Use of Congregate Care in Child Welfare. May 13, 2015.
    \3\ The Annie E. Casey Foundation. (2009). Rightsizing congregate 
care: A powerful first step in transforming child welfare systems. 
Baltimore, MD. Retrieved from
    http://www.aecf.org/resources/rightsizing-congregate-care/.
    \4\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Children's Bureau. A National Look at the 
Use of Congregate Care in Child Welfare. May 13, 2015.

While these trends suggest that child welfare practice is moving toward 
more limited use of congregate care, practice is still not consistent 
across states and more work remains to be done. Several states, 
including West Virginia, Rhode Island and Colorado, still house more 
than 25 percent of their foster care populations in group homes.\5\ 
Shifting away from a reliance on group homes also makes fiscal sense 
for states, as monthly costs of congregate care can be 6-10 times 
higher than foster care and 2-3 times higher than treatment foster 
care.\6\
---------------------------------------------------------------------------
    \5\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Children's Bureau. A National Look at the 
Use of Congregate Care in Child Welfare. May 13, 2015.
    \6\ Barth, R.P. (2002). Institutions vs. Foster Homes: The 
Empirical Base for the Second Century of Debate. Chapel Hill, NC: UNC, 
School of Social Work, Jordan Institute for Families.

Admittedly, children who have been abused or neglected often have a 
range of unique physical and mental health needs, physical disabilities 
and developmental delays, far greater than other high-risk populations. 
For instance, foster children are more likely than other children who 
receive their health care coverage through Medicaid to experience 
emotional and psychological disorders and have more chronic medical 
problems. In fact, studies suggest that nearly 60 percent of children 
in foster care experience a chronic medical condition, and one-quarter 
suffer from three or more chronic health conditions.\7\<SUP>,</SUP> \8\ 
Roughly 35 percent have significant oral health problems.\9\ In 
addition, nearly 70 percent of children in foster care exhibit moderate 
to severe mental health problems,\10\ and 40-60 percent are diagnosed 
with at least one psychiatric disorder.\11\
---------------------------------------------------------------------------
    \7\ Simms, M.D., Dubowitz, H., and Szailagyi, M.A. (2000). Needs of 
children in the foster care system. Pediatrics, 106 (Supplement), 909-
918.
    \8\ Leslie, L.K., Hurlburt, M.S., Landsverk, J., Kelleher, K., et 
al. ``Comprehensive Assessments of Children Entering Foster Care: A 
National Perspective.'' Pediatrics, July 2003.
    \9\ Healthy Foster Children America (2010). ``Dental and Oral 
Health.'' Available at http://www.aap.org/fostercare/
dental_health.html.
    \10\ Kavaler, F. and Swire, M.R. (1983). Foster Child Health Care. 
Lexington, MA: Lexington Books; 1983.
    \11\  dosReis, S., Zito, J.M., Safer, D.J., and Soeken, K.L. 
(2001). Mental health services for foster care and disabled youth. 
American Journal of Public Health, 91, 1094-1099.

Youth entering group homes often present with multiple complex needs 
and exhibit behavioral problems. In a nationally representative sample 
of youth in care, 55% of youth in group care scored in the clinical 
range of the Child Behavior Checklist delinquency subscale, compared to 
48% in non-kin foster care.\12\ For youth entering group care, rates of 
conduct disorder or oppositional defiant disorder diagnoses have also 
been reported to be as high as 75% \13\--which is significantly higher 
than the rate reported for youth in foster family settings.\14\ While 
youth placed in group home settings often exhibit behavioral problems, 
many could benefit from therapeutic mental health services provided in 
less-restrictive community-based settings rather than group care.
---------------------------------------------------------------------------
    \12\ U.S. Department of Health and Human Services. National Survey 
of Child and Adolescent Well-Being: One Year in Foster Care Report. 
Washington, D.C.: Administration for Children, Youth and Families; 
2001a.
    \13\ Handwerk, M.L., Field, C.E., and Friman, P.C. The iatrogenic 
effects of group intervention for antisocial youth: Premature 
extrapolations? Journal of Behavioral Education. 2001;10(4):
223-238.
    \14\ McMillen, J.C., Zima, B.T., Scott, L.D., Jr., Auslander, W.F., 
Munson, M.R., Ollie, M.T., and Spitznagel, E.L. Prevalence of 
psychiatric disorders among older youths in the foster care system. 
Journal of the American Academy of Child and Adolescent Psychiatry. 
2005;44(1):88-96. [PubMed]

In a recent Consensus Statement on Group Care for Children and 
Adolescents, a panel of internationally recognized researchers in child 
and adolescent development noted that ``children and adolescents have 
the need and right to grow up in a family with at least one committed, 
stable, and loving caregiver. In principle, group care (referring to 
large- and small-scale institutions and group home settings) should 
never be favored over family care. Group care should be used only when 
it is the least detrimental alternative, when necessary therapeutic 
mental health services cannot be delivered in a less restrictive 
setting.'' \15\ Even in such instances, group care should end when it 
is no longer beneficial to the child or youth. Accordingly, placement 
in group homes should be treated as a time-limited respite or a time-
limited therapeutic intervention with defined treatment goals, but not 
as a long-term place to live.
---------------------------------------------------------------------------
    \15\ Dozier, M., Kobak, R., Sagi-Schwartz, A., Shauffer, C., van 
IJzendoorn, M.H., Kaufman, J., O'Connor, T.G., Scott, S., Smetana, J., 
and Zeanah, C.H. (2014). Consensus statement on group care for children 
and adolescents: A statement of policy of the American Orthopsychiatric 
Association. American Journal of Orthopsychiatry. Vol. 84, No. 3, 219-
225.

In practice, children are often placed in group homes because an 
appropriate foster family or kinship caregiver cannot be found, home-
based therapeutic services are not maximized, or in some cases, result 
from inadequate placement and utilization review processes. In fact, 
according to a recently published Kids Count policy report, one in 
seven children in the child welfare system is placed in a group setting 
even though more than 40 percent of these children have no documented 
clinical or behavioral need for placement outside a family setting.\16\ 
This practice is especially concerning.
---------------------------------------------------------------------------
    \16\ The Annie E. Casey Foundation (2015). Every kid needs a 
family: giving children in the child welfare system the best chance at 
success. Kids Count Policy Report. Baltimore, MD.

In addition, youth, mostly teenagers, may enter the system because they 
have developed behavioral challenges that their parents can no longer 
manage. For these young people, a group home may seem like an 
appropriate setting given that they appear ``difficult to place,'' will 
be reaching an age of majority soon, and should prepare to live 
independently. The reality is that these young people can still benefit 
from living in a family, and group placements should not be used as a 
long-term or permanent placement simply because it is easier to house a 
---------------------------------------------------------------------------
child or teen there.

Admittedly, some youth do have complex clinical and behavioral health 
needs that warrant a short-term stay in a residential treatment 
facility. In these cases, group placements should serve solely as a 
short-term intervention and should not be viewed as a destination. 
Children should only be placed in these settings when clinically 
indicated and for brief periods of time--no longer than 3 to 6 months--
to allow them to receive the therapeutic interventions and services 
they need. Ultimately, when possible, children should receive treatment 
and services within their own homes, through services provided in their 
communities that focus on keeping children with their families.

A number of effective therapeutic alternatives to group homes including 
Therapeutic Foster Care (TFC), Cognitive-behavioral, family systems and 
motivational enhancement therapies, Multisystemic therapy (MST), 
multidimensional treatment foster care (MTFC), and Functional Family 
Therapy (FFT) are all designed to effectively treat youth within 
community-based settings. The Surgeon General's report (1999) 
highlighted TFC as an effective intervention, noting ``youth in 
therapeutic foster care made significant improvements in adjustment, 
self-esteem, sense of identity, and aggressive behavior. In addition, 
gains were sustained for some time after leaving the therapeutic foster 
home.'' \17\ Other studies have also reported on TFC's effectiveness in 
preventing violence among youth with a history of chronic 
delinquency,\18\ as well as improvements in behavior, lower rates of 
institutionalization and also, lower costs as compared to other types 
of residential care.\19\ Additionally, MST has been adapted for 
juvenile sexual offenders and found to be effective in reducing sexual 
behavior problems, delinquency, substance use, externalizing problems 
and out of home placements.\20\<SUP>,</SUP> \21\ MTFC has also been 
found to be an effective community-based treatment for chronic, serious 
juvenile offenders. In comparison to youth receiving group care 
interventions, youth who received MTFC were found to have higher 
treatment completion rates, lower recidivism and fewer subsequent days 
in detention centers.\22\ Also, FFT is a type of family therapy 
provided for 3 to 5 months in a clinic or home and has been proven 
successful in decreasing violence, drug abuse, conduct disorder and 
family conflict.\23\
---------------------------------------------------------------------------
    \17\ U.S. Surgeon General (1999). Mental health: A report of the 
surgeon general. Rockville, MD: U.S. Department of Health and Human 
Services, Substance Abuse and Mental Health Services Administration, 
Center for Mental Health Services, National Institutes of Health, 
National Institute of Mental Health.
    \18\ Hahn, R.A., Bilukha, O., Lowy, J., Crosby, A., Fullilove, 
M.T., Liberman, A., Moscicki, E., Snyder, S., Tuma, F., Corso, P., and 
Schofield, A. (2005). The effectiveness of therapeutic foster care for 
the prevention of violence: a systematic review. American Journal of 
Preventive Medicine, 28 (2S1), 72-90.
    \19\ Burns, B.J., Hoagwood, K., and Mrazek, P. (1999). Effective 
treatment for mental disorders in children and adolescents. Clinical 
Child and Family Psychology Review, 2, 199-254.
    \20\ Letourneau, E.J., Henggeler, S.W., Borduin, C.M., Schewe, 
P.A., McCart, M.R., Chapman, J.E., and Saldana, J. (2009). 
Multisystemic therapy for juvenile sexual offenders: 1-year results 
from a randomized effectiveness trial. Journal of Family Psychology, 
23, 89-102. doi: 10.1037/a0014352.
    \21\ Swenson, C.C., Schaeffer, C.M., Henggeler, S.W., Faldowski, 
R., and Mayhew, A.M. (2010). Multisystemic therapy for child abuse and 
neglect: A randomized effectiveness trial. Journal of Family 
Psychology, 24, 497-507. doi:l0.1037/a0020324.
    \22\ Schaeffer, C.M., Swenson, C.C., Tuerk, E.H., and Henggeler, 
S.W. (2013). Comprehensive treatment for co-occurring child 
maltreatment and parental substance abuse: Outcomes from a 24-month 
pilot study of the MST-Building Stronger Families program. Child Abuse 
and Neglect, 37, 596-607. doi:10.1016/j.chiabu.2013.04.004.
    \23\ Mercer Government Human Services Consulting. (2008). White 
Paper, Community Alternatives to Psychiatric Residential Treatment 
Facility Services, Commonwealth of Pennsylvania, Office of Mental 
Health and Substance Abuse Services.

As Dozier and colleagues (2014) note in the aforementioned Consensus 
Statement on Group Care for Children and Adolescents, ``although there 
are indications in which psychiatrics hospitalizations or locked care 
facilities may be necessary for safety, most serious problems can be 
treated effectively with community-based interventions.'' Yet the 
reality is that availability of such effective home and community-based 
interventions is limited and states are struggling to increase their 
capacity to offer such services to children and youth in foster care. 
We urge you to consider authorizing a demonstration program outlined in 
the Administration's federal fiscal year 2016 budget which would 
allocate $750 million to improve federal and state efforts to curb 
overmedication of children in foster care. As part of the initiative, 
the Centers for Medicare and Medicaid Services (CMS) would allocate 
$500 million as incentives to states that demonstrate reductions in 
inappropriate prescribing practices and over utilization of 
psychotropic medications, increased use of psychosocial treatments, and 
improved outcomes for foster children. These dollars would support 
states' efforts to provide effective evidence-based or evidence-
informed home and community-based interventions to young people in 
foster care, reducing the use of residential treatment and other 
---------------------------------------------------------------------------
restrictive settings for this population.

There is general agreement that group care, and specifically 
residential treatment, should be viewed as a necessary part of a 
continuum of interventions. Recognizing that there are instances in 
which such a placement may be a needed intervention, we should ask 
when? for whom? and, for how long?, when determining whether a group 
home setting should be considered for a young person.

When?

As noted earlier, we believe that group home placements should only be 
used when a documented mental health diagnosis, medical disability or 
behavioral problem cannot be adequately and effectively treated with 
community-based interventions. We urge you to consider requiring title 
IV-E agencies as a condition of a child's title IV-E eligibility to 
justify congregate care as the least restrictive foster care placement 
setting through a documented assessment, and further requiring a 
judicial finding initially and every 6 months thereafter to confirm 
that the placement in the congregate facility is the best option for 
meeting the child's needs and that the child is progressing towards 
readiness for a more family-like setting.

Importantly, as part of an effort to reduce our reliance on group 
homes, it is essential to provide additional targeted training and 
support for kinship caregivers and foster parents. The Administration's 
2016 budget proposal would provide specialized training and 
compensation for foster parents who provide a therapeutic environment 
for a child with behavioral and mental health challenges, and allowing 
for title IV-E reimbursement for the supervision costs for children who 
may need specialized services during the day. This proposal reflects a 
concerted effort to limit the use of congregate care facilities for 
children in foster care by increasing investments in family-based care 
for children who have mental, social, or behavioral health needs. It 
recognizes the importance of building up supports, training and 
resources for kinship caregivers, foster parents and specialized 
caregivers. We urge your support and leadership to ensure passage and 
adequate funding for these critical improvements outlined in the 
Administration's FY 2016 budget.

For Whom?

Children belong in families. For children 12 and younger, it is 
especially important that their developmental needs are met in a family 
setting. A number of studies have documented the detrimental effects of 
group care on young children.\24\ Knowing that healthy attachments are 
essential, especially in younger children, those raised in group care 
settings are vulnerable to disturbances of attachment and 
development.\25\ Despite what we know about the devastating impacts of 
group settings for younger children, nearly a third of children placed 
in group facilities are younger than 13.\26\
---------------------------------------------------------------------------
    \24\ Dozier, M., Zeanah, C.H., Wallin, A.R., and Shauffer, C. 
(2012). Institutional care for young children: Review of literature and 
policy implications. Social Issues and Policy Review, 6, 1-25.
    \25\ Nelson, C.A., Bos, K., Gunnar, M.R., and Sonuga-Barke, E. 
(2011). The neurobiological toll of early human deprivation. In R.B. 
McCall, M.H. van IJzendoorn, F. Juffer, C.J. Groark, and V.K. Graza 
(Eds.), Children without permanent parents: Research, practice, and 
policy. Monographs of the Society for Research in Child Development, 
76, 126-127.
    \26\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Children's Bureau. (2015).

We believe that young children should not be placed in group home 
settings, and strongly urge you to consider disallowing the use of 
federal funds for group home placements for children younger than 6, 
and requiring additional oversight when congregate care placements are 
used for older children, including those outlined in the 
---------------------------------------------------------------------------
Administration's 2016 child welfare budget as follows:

    As noted earlier, if a child older than 6 must be placed in a 
        congregate care facility, Title IV-E agencies should be 
        required to justify congregate care as the least restrictive 
        foster care placement setting through a documented assessment. 
        Additionally, a judicial finding initially and every 6 months 
        thereafter to confirm that the placement in the congregate 
        facility is the best option for meeting the child's needs and 
        that the child is progressing towards readiness for a more 
        family-like setting;
    Providing support for specialized case management using smaller 
        caseloads and specialized training so caseworkers can focus on 
        supporting family-based care specialized casework.

For How Long?

Shorter lengths of stay in group care have been associated with better 
outcomes for youth.\27\ Research has shown that youth placed in 
residential treatment make most of their gains during the first 6 
months, and that because of the adverse impacts of extended stays, 
including a loss of connection to natural supports, long-term 
residential stays are often not in the best interest of children and 
youth.\28\ Other studies have similarly found reductions in at-risk 
behaviors during the first 6 months of residential programs with 
benefits waning beyond that point, suggesting that shorter, repeatable 
periods of stay are more appropriate than longer stays.\29\ We urge you 
to consider time-limiting federal reimbursements for group care to 
reflect our understanding of the short-term benefits of restrictive 
placements including residential treatment settings.
---------------------------------------------------------------------------
    \27\ Hoagwood, K. and Cunningham, M. Outcomes of children with 
emotional disturbance in residential treatment for educational 
purposes. Journal of Child and Family Studies. 1993;1:129-140.
    \28\ Magellan Health Services Children's Task Force (2008). 
Perspectives on Residential and Community-Based Treatment for Youth and 
Families. Retrieved from http://www.magellanhealth.com/media/876271/
childrens_residential_white_paper_2008.pdf.
    \29\ Hair, H.J. (2005). Outcomes for children and adolescents after 
residential treatment: A review of the research from 1993 to 2003. 
Journal of Child and Family Studies, 14(4), 551-575.

Again, recognizing that group care is part of a continuum of 
interventions, it is important to emphasize that effective residential 
treatment programs include several key components \30\ such as:
---------------------------------------------------------------------------
    \30\ Leichtman, M., Leichtman, M.L., Barber, C.C., and Neese, D.T. 
(2001). Effectiveness of intensive short-term residential treatment 
with severely disturbed adolescents. American Journal of 
Orthopsychiatry, 71 (2), 227-235.

---------------------------------------------------------------------------
    individualized treatment planning;

    use of evidence-based therapies;

    attending to problems precipitating entry into treatment;

    intensive family involvement;

    commitment to monitoring outcomes; and

    strong focus on discharge planning and reintegration back into the 
        community.

Among the family services that should be provided to ensure that a 
young person's relationships are maintained and families are engaged 
are:

    regular visitation;

    sibling therapy;

    referrals to parenting assessments and bonding assessments; and

    case management to promote regular contact and continuity of care.

With respect to reintegration after treatment, it is critical that 
post-treatment services are identified within the community. This means 
ensuring supports such as a case manager, therapist, psychiatrist and 
mentor services. It is also important that as part of a plan for 
reintegration into the community, efforts are made to locate a 
specialized foster home or find relatives that would be an appropriate 
step-down placement for the child. Additionally, meetings should take 
place to map out this transition for a young person. Ultimately, 
permanency work should be prioritized while the child is in group care 
and the goal should be to safely and quickly transition children to 
families.

Lastly, in order to reduce our reliance on group home placements, we 
need to concentrate efforts on:

    finding family placements and foster families for children with 
        complex needs;

    training and supporting parents and caregivers effectively;

    designing and implementing more flexible and trauma informed 
        treatments to meet the needs of these children;

    systematically evaluating congregate care settings;

    implementing evidence-based and evidence-informed interventions 
        and engaging state leadership in developing such community-
        based programs to meet the needs of children and youth;

    working with congregate care providers to shift programs toward 
        more community-based services;

    developing partnerships and interventions with other systems 
        within communities to care for this population;

    training caseworkers to ensure our workforce is highly skilled and 
        clinically informed to work with all children, especially 
        children who may be at risk of entering congregate care;

    creating thorough assessment and review processes in the care of 
        children with complex needs; and

    ensuring states are monitoring congregate care facilities through 
        their licensing departments and their contract review 
        processes.

We thank you again for the opportunity to submit this statement for the 
record and look forward to working with you to ensure that children are 
not unnecessarily placed in restrictive settings and in the care of 
families whenever possible. It's never too late for a family and our 
mission should be to ensure that every child in the child welfare 
system can benefit from a permanent supportive relationship with a 
caregiver.

Should there be any questions regarding this statement, please contact 
Shadi Houshyar, Vice President for Child Welfare Policy at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="36455e57525f5e76505f444542505955434518594451">[email&#160;protected]</a> or (202) 657-0678.

                                 ______
                                 

                          Generations United 
                    Donna Butts, Executive Director

  ``No Place to Grow Up: How to Safely Reduce Reliance on Foster Care 
                             Group Homes''

                    Tuesday, May 19, 2015, 10:00 AM

Generations United is pleased to submit written testimony to the Senate 
Committee on Finance. We applaud Chairman Hatch, Ranking Member Wyden, 
and Senator Grassley, among others, for their leadership to improve 
foster care, to foster family connections, and to prevent sex 
trafficking of youth in foster care. We further applaud this hearing 
and the acknowledgment that the foster care system relies too heavily 
on group placements. According to the latest report from the Annie E. 
Casey Foundation, one in seven children under the care of the child 
welfare system is placed in a group setting.\1\ More than 40 percent of 
these children do not have a documented behavioral or clinical need 
that would warrant placing them outside a family.\2\ These comments 
focus on kinship care as the best way to safely reduce reliance on 
foster care group homes.
---------------------------------------------------------------------------
    \1\ Annie E. Casey Foundation. (2015). Every kid needs a family: 
giving children in the child welfare system the best chance for 
success. Retrieved from http://www.aecf.org/resources/every-kid-needs-
a-family/.
    \2\ Ibid.

Generations United is the national membership organization focused 
solely on improving the lives of children, youth, and older people 
through intergenerational strategies, programs, and public policies. 
Since 1986, Generations United has been the catalyst for policies and 
practices stimulating cooperation and collaboration among generations. 
We believe that we can only be successful in the face of our complex 
future if generational diversity is regarded as a national asset and 
fully leveraged. For almost 20 years, Generations United's National 
Center on Grandfamilies has been a leading voice for issues affecting 
families headed by grandparents or other relatives.

Children fare well with relatives

Research shows that children do best in families. Common sense also 
dictates that children do best with families, because children age out 
of a system, they don't age out of a family. Among family settings, as 
federal law has provided since 1996,\3\ relatives should be the first 
placement choice.
---------------------------------------------------------------------------
    \3\  42 U.S.C. 671(a)(19).

Research affirms that Congress is right to consider relatives first, 
---------------------------------------------------------------------------
because placement with relatives:

    - Reinforces safety, stability, well-being
    - Reduces trauma
    - Reinforces child's sense of identity
    - Helps keep siblings together
    - Honors family and cultural ties
    - Expands permanency options
    - Can reduce racial disproportionality \4\
---------------------------------------------------------------------------
    \4\ Center for Law and Social Policy. (2007). Is Kinship Care Good 
for Kids? http://www.clasp.org/resources-and-publications/files/
0347.pdf; Generations United. (2007). Time for reform: support 
relatives in providing foster care and permanent families for children. 
Retrieved from http://www.gu.org/LinkClick.aspx?fileticket=2MRzy-
qRhqo%3D&tabid=157&mid=606; ChildFocus, Inc. (2015). Children in 
Kinship Care Experience Improved Placement Stability, Higher Levels of 
Permanency, and Decreased Behavioral Problems: Findings from the 
Literature. Retrieved from
    http://www.grandfamilies.org/Portals/0/
Kinship%20Outcomes%20Review%20v4.pdf.

Kinship care as a way to reduce reliance on group homes for those 
---------------------------------------------------------------------------
already in the foster care system

Over a quarter of the foster care system already relies on relatives to 
care for children.\5\ Based on the research and how we know children 
fare, a key way to reduce reliance on group homes is to prioritize and 
support placements with kin when children cannot remain with the birth 
parents. Congress has enacted several provisions in the last few years 
to increase placements with relatives, including mandatory 
identification and notification of relatives when a child is removed 
from a parent's care. We applaud these advancements and encourage 
efforts to further strengthen these provisions and increase the 
licensing and support of relatives by:
---------------------------------------------------------------------------
    \5\ Generations United. (2014). The State of Grandfamilies in 
America: 2014. http://www.grandfamilies.org/Portals/0/14-State-of-
Grandfamilies-Report-Final.pdf.

    - Improving identification and notification of relatives
    -  Encouraging the use of model licensing standards for family 
        foster homes
    - Improving access to comprehensive supports for relatives

Improving identification and notification of relatives

The Fostering Connections to Success and Increasing Adoptions Act of 
2008 requires the states to exercise ``due diligence'' to identify and 
notify relatives within 30 days of a child's removal from his/her 
parent's home. Moreover, the notification requirement includes that the 
state ``explains the options the relative has under Federal, State, and 
local law to participate in the care and placement of the child, 
including any options that may be lost by failing to respond to the 
notice.'' 42 U.S.C. Sec. 671(a)(29). Anecdotally, when we provide 
training to states, most audience members seem to know very little 
about this requirement and do not seem to be providing information 
concerning options, including foster care.

Generations United recommends changes to help ensure that relatives 
receive meaningful identification and notification. We recommend that 
Congress require that the notice to relatives be in writing and include 
information about additional community resources to help kinship 
families (other than the child welfare agency); that states define the 
steps necessary to constitute ``due diligence'' in identifying and 
notifying relatives; and that states document their efforts and 
responses identifying and notifying relatives.

Encouraging the use of model licensing standards for family foster 
                    homes

Federal law allows states a great deal of flexibility in creating 
family foster home licensing standards. The Social Security Act at 42 
U.S.C. Sec. 671(a)(10) tells states that it must establish and maintain 
standards for foster family homes and child care institutions that are 
``reasonably in accord'' with recommended standards of national 
organizations. The problem is that up until now there were no 
comprehensive national standards. Due to this lack of guidance, 
licensing standards vary dramatically among the states and often pose 
unnecessary barriers.

Appropriate relatives are often denied licensure causing children to be 
placed unnecessarily in group settings or in the limited pool of non-
related family foster homes. In other cases, children are placed in 
unlicensed homes with relatives and consequently receive inadequate 
supports, which can cause placement instability.

During fall 2014, Generations United, the American Bar Association 
Center on Children and the Law, The Annie E. Casey Foundation, and the 
National Association for Regulatory Administration (NARA) released the 
first set of comprehensive model family foster home licensing 
standards. NARA, as the nation's association of human service 
regulators, took the added step of adopting them as its standards.

This model does away with artificial barriers, such as requirements to 
own vehicles, be no older than age 65, have high school degrees, and 
live in homes with certain square footage. In their place are 
reasonable standards that lead to safe and appropriate homes and 
families. For example, functional literacy is required, rather than 
high school diplomas, capacity standards are based on home studies, and 
other methods of transportation, including public transportation, may 
be used. Generations United recommends that Congress direct states to 
assess and make any necessary changes to their existing standards, 
using the NARA model as a tool.

Improving access to comprehensive supports for relatives

In many jurisdictions, even when relatives are licensed foster parents, 
they are not provided the same level of financial or supportive 
services as non-relatives. Generations United recommends that Congress 
require states to designate a kinship care ombudsman or a primary 
kinship resource liaison at the child welfare agency who provides 
relatives with information about placement and visitation options, the 
role of the child welfare agency in each option, and how each option 
corresponds to which benefits, resources, and services would be 
available. This person should help ensure that relatives get access to 
the same types of comprehensive supports that non-relative foster 
parents receive, such as therapeutic kinship foster care when children 
have significant physical and/or mental health issues. The kinship 
resource person also acts as a liaison with the caseworker assigned to 
the family, and other agencies and community organizations that provide 
resources and assistance to relatives.

Kinship care as a way to reduce reliance on group homes by preventing 
entry into the foster care system

For every one child in foster care with a relative there are about 23 
outside the system being raised by a grandparent, other extended family 
member or close family friend without a parent present.\6\ These 
families save taxpayers more than $4 billion each year by preventing 
these children from entering foster care.\7\ The problem is that these 
families face unique challenges and need support.
---------------------------------------------------------------------------
    \6\ Ibid.
    \7\ Ibid.

Grandparents or other relatives often take on the care of children with 
little or no chance to plan in advance. Consequently, they often face 
obstacles arranging legal custody, addressing the children's education 
needs, accessing affordable housing, ensuring financial stability, and 
obtaining adequate health care for the children and themselves. Under 
current child welfare financing laws, these families do not receive any 
preventative or supportive services to keep them together and out of 
---------------------------------------------------------------------------
foster care.

The best way to reduce reliance on group care is to prevent children 
from entering foster care in the first place. Support and prevention 
services for these kinship families can prevent entry into the much 
more costly foster care system. Allowing states to flexibly use Title 
IV-E funds under the Social Security Act can prevent children from 
entering the foster care system, thereby reducing reliance on group 
homes, ensuring a family for every child, and decreasing the overall 
number of children in the foster care system.

Thank you for the opportunity to offer written testimony for this 
important hearing. Please direct questions regarding this testimony to 
Jaia Peterson Lent, Generations United's Deputy Executive Director, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94fef8f1fae0d4f3e1bafbe6f3">[email&#160;protected]</a> or 202-289-3979 or to Ana Beltran, Generations United's 
Special Advisor at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e2f2c2b223a3c2f200e293b60213c2960">[email&#160;protected]</a>

                                 ______
                                 

                         Human Rights Campaign 
                David Stacy, Government Affairs Director

               Statement Submitted for the Record to the

                          Committee on Finance

                          United States Senate

No Place to Grow Up: How to Safely Reduce Reliance on Foster Care Group 
                                 Homes

                              May 19, 2015

Chairman Hatch, Ranking Member Wyden, and Members of the Committee:

My name is David Stacy, and I am the Government Affairs Director for 
the Human Rights Campaign, America's largest civil rights organization 
working to achieve lesbian, gay, bisexual and transgender (LGBT) 
equality. On behalf of our 1.5 million members and supporters 
nationwide, I am honored to submit this statement into the record for 
this important hearing on ways to safely reduce reliance on foster care 
group homes. My comments specifically address ensuring safety, 
permanency, and well-being for lesbian, gay, bisexual, transgender, and 
questioning (LGBTQ) youth in such settings,

While data on the prevalence and experiences of LGBTQ youth in foster 
care is limited, research to date has demonstrated that LGBTQ youth are 
over-represented in foster care and they face a greater likelihood of 
being placed in group home settings. For example, a recent study in Los 
Angeles conducted by the Williams Institute found that nearly 1 out of 
5 (19.1%) LA-based foster youth are LGBTQ and the percentage of youth 
in foster care who are LGBTQ is between 1.5 and 2 times that of youth 
living outside of foster care.\1\ This study also found that LGBTQ 
youth are living in group homes at a much higher rate than their non-
LGBTQ peers--25.7% compared to 10.1% respectively.
---------------------------------------------------------------------------
    \1\ Wilson, B.D.M., Cooper, K., Kastansis, A., and Nezhad, S. 
(2014). Sexual and Gender Minority Youth in Foster Care: Assessing 
Disproportionality and Disparities in Los Angeles: The Williams 
Institute, UCLA School of Law. Available at
    http://williamsinstitute.law.ucla.edu/wp-content/uploads/
LAFYS_report_final-aug-2014.pdf.

Many LGBTQ youth enter foster care after experiencing rejection, abuse, 
and/or neglect by their families of origin because of their LGBTQ 
status. In other words, these youth have been rejected by their 
families because of an aspect of who they are--their sexual 
orientation, gender identity, or gender expression. Far too many of 
these LGBTQ youth then go on to experience further rejection at the 
hands of incompetent or biased caseworkers, social workers, foster 
parents, and staff or peers in group homes. One youth in care explained 
the severity of this problem when he described his experiences. ``I got 
jumped by a bunch of guys in my group home, and when I told the 
director, he said, `Well, if you weren't a faggot, they wouldn't beat 
you up.' '' \2\ A survey of LGBTQ youth in group home settings in New 
York City found that 100% of these youth experienced verbal harassment 
related to their LGBTQ status and 70% reported physical violence. 
Seventy-eight percent had been removed or run away from placements due 
to LGBTQ-related hostility, and 56% stated they lived on the streets 
for periods of time because they felt safer there than in their group 
or foster homes.\3\ These experiences of hostility within systems of 
care force many LGBTQ youth to make difficult decisions in order to 
meet their most basic needs, including engaging in ``survival sex'' or 
``couch surfing'' that involves sexual exchange.\4\ This can be 
especially true for transgender youth who are at risk of physical and 
sexual abuse while in group homes. Mariah, a young transgender woman, 
explained her experiences of hostility in a group care setting, ``I 
came in to the detention center dressed as I always did, and they 
ripped the weave out of my hair, broke off my nails, wiped my makeup 
off, stripped me of my undergarments, and made me wear male 
undergarments and clothes.'' \5\
---------------------------------------------------------------------------
    \2\ https://www.lambdalegal.org/sites/default/files/publications/
downloads/out-of-the-margin
s.pdf.
    \3\ Feinstein, Randi et al. Justice for All? A Report on Lesbian, 
Gay, Bisexual and Transgendered Youth in the New York Juvenile Justice 
System. (New York City: Urban Justice Center, 2001).
    \4\ NYCAHSIYO (New York City Association of Homeless and Street-
Involved Youth Organizations). 2012. State of the City's Homeless Youth 
Report 2011. New York: NYCAHSIYO. As cited in: Urban Institute (2015). 
Surviving the Streets of New York: Experiences of LGBTQ Youth, YMSM, 
and YWSW Engaged in Survival Sex. Available at http://www.urban.org/
sites/default/files/alfresco/publication-pdfs/2000119-Surviving-the-
Streets-of-New-York.pdf.
    \5\ Marksamer, J. (2011). A Place of Respect: A Guide for Group 
Care Facilities Serving Transgender and Gender Non-Conforming Youth. 
National Center for Lesbian Rights and Sylvia Rivera Project. Retrieved 
from http://www.nclrights.org/wpcontent/uploads/2013/
07IA_Place_of_Respect.pdf.

As these statistics and stories demonstrate, decreasing the child 
welfare system's utilization of group homes while simultaneously 
expanding family- and community-based supports is especially important 
for ensuring the safety, permanency, and well-being of LGBTQ youth in 
---------------------------------------------------------------------------
care.

One part of this work is increasing child welfare agencies' capacity to 
recruit, train, and retain LGBTQ-affirming foster parents. LGBTQ youth 
are often placed in group home settings because there is a lack of 
potential foster home placements for these youth.\6\ Even the most 
LGBTQ-inclusive agencies can struggle to find qualified foster parents 
who are ready and willing to welcome LGBTQ youth into their homes. 
Child welfare agencies must actively assess the readiness of current 
foster parents to affirm LGBTQ youth and include LGBTQ issues in foster 
parent training. Recognizing that LGBTQ adults are one potential group 
that could provide affirming foster homes for LGBTQ youth, agencies 
should engage LGBTQ adults who may be interested in becoming foster 
parents.
---------------------------------------------------------------------------
    \6\ Jacobs, J. and Freundlich, M. (2006). Achieving Permanency for 
LGBTQ Youth. Child Welfare, 85(2), 299-316.

As stressed by several of the others submitting testimony today, 
effective prevention services that address the needs of children and 
families early is another important part of the solution. For LGBTQ 
youth and their families, this means ensuring that agency intake and 
family preservation case workers have the training and skills necessary 
to assess whether a young person's sexual orientation, gender identity, 
or gender expression is a factor in a family's involvement with the 
system. Once this is identified, these workers should provide family-
based services utilizing best practice resources, such as SAMHSA's ``A 
Practitioner's Resource Guide: Helping Families to Support Their LGBT 
Children.'' Research shows that when given the appropriate education 
and support, families can shift from behaviors of rejection to 
acceptance toward their LGBTQ children.\7\ And this shift, even if 
small, can have an immediate and significant positive impact on that 
child's well-being.
---------------------------------------------------------------------------
    \7\ Ryan, C., Huebner, D., Diaz, R., and Sanchez, J. (2009). Family 
Rejection as a Predictor of Negative Health Outcomes in White and 
Latino Lesbian, Gay, and Bisexual Young Adults. Pediatrics, 123, 346-
352.

Policy solutions to improving outcomes for LGBTQ youth in group homes 
and other out-of-home care settings are necessary on the federal and 
---------------------------------------------------------------------------
state levels.

    Congress should protect LGBTQ youth from discrimination by passing 
        legislation prohibiting discrimination based on sexual 
        orientation and gender identity by recipients of federal funds, 
        including foster care group homes receiving funding under title 
        IV-E of the Social Security Act.

    The Administration for Children and Families (ACF) should issue 
        separate guidance clarifying the obligations of state child 
        welfare agencies that receive federal funds, including foster 
        care group homes, to adopt and implement policies prohibiting 
        discrimination based on sexual orientation and gender identity.

    ACF should continue to offer federal financial participation under 
        the title 
        IV-E program for high quality LGBT cultural competency training 
        and technical assistance.

    ACF and state agencies should assess local and state programs as 
        potential models such as those in California, New York, 
        Massachusetts, and Pennsylvania that have implemented LGBTQ 
        nondiscrimination policies, adopted data collection on sexual 
        orientation and gender identity, and mandated associated 
        training or are in the process of doing so.

I appreciate the opportunity to offer this testimony today and urge 
Congress to act to reduce reliance on foster care group homes to ensure 
all foster youth, including LGBTQ youth, have the best chance possible 
to belong to a loving, stable, and affirming family.

                                 ______
                                 

                        Rachel's Tears Ministry

No Place to Grow Up: How to Safely Reduce Reliance on Foster Care Group 
                                 Homes

               United States Senate Committee on Finance

                         Tuesday, May 19, 2015

                 Statement for the Record prepared by:

        Cheri Campbell  President and Founder of Rachel's Tears

                       Submitted in agreement by:

       Pastor Joseph Campbell  Senior Pastor  Church of Morongo

                          50865 29 Palms Hwy.

                        Morongo Valley, CA 92256

                              Introduction

Thank you for the opportunity to have some impact on achieving better 
outcomes for children and their families. Front loading funding to 80% 
Family Preservation and 20% department services will provide immediate 
relief for the greater good of society and, at the same time, be 
extremely cost-effective.

This preventative measure eliminates the need for more group or foster 
homes and it protects children from the greater risk of abuse, neglect 
and/or death from substitute placements. The unending request for more 
money, by CPS and related service providers to solve the problems being 
discussed, will never alter outcomes for children or their families 
because the appropriated funds are not properly utilized.

Currently 80% of Federal funding goes to foster care, adoption bonuses 
and the related services while a child is in State's custody. Only 20% 
of the funding goes to Biological Family Preservation. This action 
directly violates the Welfare and Institutions Code 300 Series and the 
Legislative intent to ``protect the child in the least intrusive 
manner.''

The Title IV-E Funding Waiver program (which ended in Dec. 2014) did 
give some flexibility for the few states that applied for it but does 
not address the root of this poisonous policy. The main problem is that 
a child can be removed for minor infractions and unsubstantiated 
allegations. This easily proceeds to Termination of Parental Rights 
(TPR) and adoption if the child is considered ``adoptable.'' Parents 
are then placed in the Child Abuse Central Index (CACI) without Due 
Process.

CPS non-compliance and lack of moral compass, either by choice or 
threat, along with Juvenile Court agents appear to be unseemly 
motivated in protecting federally appropriated funding. By simply 
redirecting the funding to Family Preservation can spare a child the 
life-altering trauma of being forcibly removed from their biological 
family.

                       Seeking Redress and Remedy

The following observations and solutions are written from a trifold 
perspective: victim, family advocate and one of many who have spent 
personal time and treasure trying to alter or abolish the current 
system.

We have sought remedy from the local level up to the federal level to 
no avail since January 2003. We attended Congressman Joe Baca's forum 
in San Bernardino, CA on CPS abuse in March 2004. Please reference: 
Statement of Hon Joe Baca, ``Government Bureaucrat Abuses in Child 
Protective Services (DSS) and the `Legal System' '' (https://
www.gpo.gov/).

My husband, Pastor Joseph Campbell gave the opening prayer. We were 
scheduled speakers but time prevented it due to so many out of state 
speakers. Congressman Baca sent 163 evidence notebooks of CPS abuse 
under color of law to Washington D.C., was told they would be placed in 
the Congressional Library for law students to study but they were 
eventually sent back.

We arranged a meeting with former San Bernardino CPS Director Cathy 
Cimbalo. During the many pleas for help at San Bernardino County Board 
of Supervisors, we often heard Ms. Cimbalo ``invite the sunshine'' so 
we accepted. My husband taped this meeting and several legislative 
representatives attended. In response to Pacific Justice Institute' s 
inquiry regarding a conflict of interest by allowing department agents 
to foster or adopt, Ms. Cimbalo stated ``there is none.'' Listed below 
are a few examples that rise to the threshold of cruel and unusual 
punishment and further solidify the need to keep children with their 
families whenever possible.

(1) 4 year old Logan Marr's death resulting from her social worker 
foster mother duct taping her to a high chair in the basement because 
Logan refused to call her ``mom.'' (http://www.pbs.org/)

(2) San Bernardino Superior Court Judge Kamansky who gained custody of 
Jason Wayne Bumpus and then used his position as Bumpus' court 
appointed guardian to sexually molest him. Jason eventually committed 
suicide.
(http://law.justia.com/)

(3) March 31, 2015 Former No. Carolina CPS department Supervisor Wanda 
Sue Larson pled guilty to child abuse charges where officials say the 
child was found chained to the porch with a chicken tied around his 
neck in 2013.
(http://www.wsoctv.com/)

I submitted 16 Official Grand Jury Complaints, detailing abuse under 
color of law, to San Bernardino County on two separate occasions. We 
were denied a hearing. I then hand-delivered the same Official 
Complaints to District Attorney Mike Ramos and requested an 
investigation. We received no answer from his office.

I submitted a statement for inclusion in the Record of the June 9, 2005 
House Committee on Ways and Means. Congressman Herger was seeking 
better outcomes for children and Congresswoman Nancy L. Johnson wanted 
funding front loaded to help keep biological families intact.

My husband and I submitted a packet for the Record of The Citizens 
Commission on Human Rights--Inquiry for Violations of Human Rights by 
Child Protective Services--May 20, 2006 held in San Jose, CA.

I have gone to the State Capitol two times to address my concerns 
regarding CPS abuse and met with many Legislators. I spoke with former 
Georgia Senator Nancy Schaefer several times seeking solutions. She was 
deeply grieved by the many pleas for help and actively sought remedy on 
behalf of children and their families. We also spoke about these 
problems at the CA Performance Review at UCC Riverside sponsored by 
former Gov. Schwarzenegger who offered no remedy.

We spoke at the rally in Washington, D.C. in 2007. Please listen to our 
words of hope and encouragement to the families and children that have 
been so easily torn apart by CPS and Juvenile Court at: dcrally2007.com

Due to the heinous nature of ``actual'' child abuse or neglect, 
altering the system by forcing Child Protective Services (CPS) 
compliance and redirecting funding is the most reasonable solution.

                            Follow the Money

When funding streams are determined by need for services, or 
incentivized bonuses for adoption, children can easily be viewed as 
``chattel or merchandise'' by some whose jobs depend on ``quantity.'' 
CPS, Juvenile Court judges, public defenders, foster/group homes and 
all other shareholders receive compensation from the same appropriation 
based on the number of children in the system.

In 1974 Walter Mondale (with Hillary Clinton's help) created the Child 
Abuse and Prevention Act which began feeding massive amounts of federal 
funding to states to set up programs (CPS) to combat child abuse and 
neglect. After the bill passed, Mondale was rightly concerned that it 
could be misused to create a ``business'' in dealing with children.

In 1997 the Adoption and Safe Families Act was created due to the 
massive number of children languishing in foster care. President 
Clinton's Adoption 2002 Initiative and the adoption law of 1997 created 
the first-ever financial incentive for states to increase adoptions of 
children. This created a bounty on our children's heads and the 
adoption rate quickly doubled. (Report--Kentucky Youth Advocates) 
Therefore, using the basic ``Follow the Money'' principle, the problem 
is easily identified.

                        Profound Non-Compliance

Decades of State imposed fines for non-compliance, dozens of 
recommendations from recognized think tanks and million dollar lawsuits 
have not adequately altered current patterns and practices of the 
department. These costly lawsuits have no punitive consequences for 
those found guilty and offer little remedy for the emotional injuries 
this Nation's most vulnerable are forced to endure. A request for the 
Department of Justice to open a Federal pattern and practice case into 
CPS abuse under color of law should be forthcoming.

California Judges Benchguide (CAB)100.56 states ``court finds 
preplacement preventive efforts were made to avoid removing child OR 
Reasonable Efforts were not made'' which results in returning the 
child. The Judicial Tip under the CAB is, ``If the child has been 
removed, it is essential to make the `contrary to the child's welfare 
finding' the first time the court considers the case. . . . Failure to 
make this finding may result in permanent loss of federal funding for 
foster care.'' This provides insight from top to bottom that Federal 
funding and job security trumps the child's 4th and 14th Amendment 
rights, Constitutional protections and the child's best interests.

As we look further into the court process, it is evident that judges 
are reminded to protect the funding which is only available based on 
the number of children being processed. CAB 100.24 gives parents the 
opportunity to provide exculpatory evidence but it's very difficult to 
get it on the record and the hearing is only a few minutes long. 
EXAMPLE: Just before our Contested Hearing in 2003, our attorneys took 
us aside and told us, ``If you continue with this hearing, `they' will 
separate your grandchildren, adopt them out and you'll never see them 
again! '' After years of confronting each of them, they both admitted 
to me that ``County Counsel Patty Campbell told them to tell us that.'' 
Threat, duress and coercion are very effective ways to stop fundamental 
Due Process.

                          Additional Solutions

    No child shall be removed prior to Reasonable Efforts and 
        Preplacement Efforts actually being made to prevent removal 
        unless the child is in Exigent circumstances which must be 
        substantiated with evidence
    Video tape all removals to prevent false statements
    Case plans shall not be made until allegations are substantiated 
        with evidence
    The accused must be allowed to confront the accuser
    False and malicious calls must have punitive consequences
    Open Juvenile Court to ensure Due Process rights
    Attorneys must zealously defend our basic and God given 
        inalienable rights, including familial integrity
    Presumption of guilt must be eliminated
    Due Process must be upheld before being placed in CACI
    Punitive consequences must be made for inaccurate social worker's 
        reports signed under penalty of perjury
    Lawsuits against the department or its agents shall be paid by the 
        defendant(s) not from State coffers
    Whistleblowers must be protected

                               Conclusion

Negative results of current patterns and practices used to ``protect 
children'' are easily identified in higher drop out rates and academic 
loss (State Impact). This negative impact is also noted in undesirable 
outcomes for children aging out of the system and in over-populated 
prisons (Alliance). Therefore, it is imperative to provide every 
protection available for the child and their biological family. This 
includes fundamental Due Process before the current cruel and unusual 
punishments are imposed upon familial integrity. Reasonable use of 
Preventive measures must be applied before a child is removed.

We must remove the cloak of secrecy behind which CPS currently 
operates, open Juvenile Courts and fire bad actors to effectively stop 
unnecessary removals. As the 19th century British historian, statesman 
and philosopher John Emerich Edward Dalberg-Acton eloquently 
proclaimed, ``Everything secret degenerates, even the administration of 
justice: nothing is safe that does not show how it can bear discussion 
and publicity.''

These cost-effective solutions are easily implemented. They will 
curtail the department's ability to pervert the Legislative intent, 
designed to protect children, into frameworks for crimes against 
humanity. We must remain steadfast in the best solution to achieve 
better outcomes for children, and that is to prevent them from entering 
foster care at all.

The ruin of a Nation begins with the destruction of its family units 
and injustice creates seeds of distrust. This opportunity for redress 
will bring some remedy to those already victimized and it will prevent 
future meaningful, committed family life from being unnecessarily 
disrupted.

May Wisdom be granted as solutions are considered for better outcomes 
for children and the greater society.

Sincerely,

Cheri Campbell

Joseph F. Campbell

                               References

    (1)  http://kids-alliance.org/facts-stats/

    (2)  http://www.gpo.gov/fdsys/pkg/CHRG-108hhrg99673/html/CHRG-
108hhrg99673.htm

    (3) http://law.justia.com/cases/federal/appellate-courts/F3/73/368/
556869/

    (4) http://www.pbs.org/wgbh/pages/frontline/shows/fostercare/marr/

    (5) Report--Kentucky Youth Advocates
    http://www.google.com/
url?sa=t&rct=j&q=&esrc=s&source=web&cd=2&cad=rja&
uact=8&ved=0CCgQFjAB&url=http%3A%2F%2Fkyyouth.org%2Fwp-content%2Fup
loads%2F2014%2F11%2FKYA_JeffCoBook_WebFinal.pdf&ei=715dVbCKBYmmoQT
5r4LoCw&usg=AFQjCNG75JCb1NIfXLCamKeWq3z04eFGrw&sig2=2Zjsg535Bfj-
6aTf156xUA&bvm=bv.93990622,d.cGU

    (6) http://stateimpact.npr.org/ohio/2014/08/04/the-impact-of-
foster-care-on-students-education/

    (7) http://www.wsoctv.com/news/news/local/former-union-co-dss-
supervisor-be-released-jail/nkpmH/

                                 ______
                                 

   Statement Submitted for the Record by Nancy Young and Sid Gardner

        Adoptive Parents and Child Welfare Policy Professionals

                 22202 Wayside, Mission Viejo, CA 92692

                Phone: (714) 345-6293 and (714) 402-6085

             Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bef0d5c7d1cbd0d9fedfd1d290ddd1d3">[email&#160;protected]</a> and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="53203a37343221373d362113303c2b7d3d3627">[email&#160;protected]</a>

No Place to Grow Up: How to Safely Reduce Reliance on Foster Care Group 
                                 Homes

         Written Testimony for the Senate Committee on Finance

                          United States Senate

                              May 22, 2015

Chairman Hatch, Ranking Member Wyden, and Members of the Senate 
Committee on Finance:

While we have more than six decades of combined professional experience 
in child welfare practice, policy and research, we submit the following 
testimony to you today primarily as the adoptive parents of two 
children with prenatal substance--exposure based on our perspectives in 
caring for them over the past 21 years.

From our experiences, and the challenges and successes they have 
brought, we are convinced that first-rate residential care is an 
essential part of a healthy continuum of care in the child welfare and 
mental health systems. When a child is properly assessed and the 
residential setting is targeted to meet a child's specific needs, it 
can make a critical and often lifesaving difference for children and 
families as they face critical challenges in their lives.

As parents and as policy and research professionals working at the 
intersection of the child welfare, mental health and substance abuse 
systems, we have seen both the best and worst of residential care. We 
have seen our children, both of whom have experienced mental health and 
substance abuse challenges, cared for in some excellent agencies and 
helped by excellent therapists who have equipped them with the skills 
they need to return to us and become productive members of their 
communities. At the same time, we have also experienced some of the 
extraordinary incompetence and the bewildering programmatic and 
financial thickets that parents must endure and navigate on behalf of 
their children. We have concluded that first-rate group care can exist 
and does exist--and that it must continue to exist as an option for a 
segment of children and youth at critical points in their development. 
However, it should be balanced with the public policy that supports 
birth families to prevent placement and discourages poor group homes 
that are used as a default placement for children who could otherwise 
return home, be cared for by loving family members, or be placed in 
supportive foster families with the right training and support to meet 
their needs.

In framing our response to recent Congressional proposals to decrease 
the over-reliance on group care, we agree with the Members of the 
Committee that the fundamental starting point should be that all 
children should grow up in families, not institutions. At present, it 
is undeniable that, in making choices about how to best care for 
children and youth in the child welfare system, group homes are too 
often used as a default placement. We have witnessed first hand that 
some child welfare systems find it easier to rely on group care instead 
of providing parents with the prevention and treatment supports needed 
to keep families together, support kin, and recruit and support quality 
foster families. In the longer run, however, congregate care that is 
not customized to meet the short-term needs of the child and that do 
not have the ingredients of excellence may end up costing the system 
more and, even more tragic, miss the opportunity to make a positive 
difference in the lives of children and families dealing with serious 
challenges.

At the same time, however, recent policy discussions at the federal 
level have made too little distinction between poorly regulated and 
overused group homes that warehouse young people and the alternative: 
therapeutic settings that provide substance use and mental health 
services needed to stabilize some children so they can return to their 
families and communities.

High-quality group care does exist. The quality and appropriateness of 
these setting depend on whether providers and staff under stand the 
requisite ingredients of group care for those children who need 
structure and therapy, who have suffered high levels of abuse, neglect, 
and trauma and, in many cases, prenatal exposure to drugs and alcohol 
that have left them in need of more than family-based care can provide 
at critical junctures in their development. While Federal policy can 
discourage the inappropriate use of congregate care, we must ensure 
that it does not swing too far away from providing appropriate 
residential care when children need treatment and an opportunity to 
heal. Just as residential care cannot be used to raise children when 
they would be better off in families, we cannot pretend that the 
families of children who are facing serious challenges such as those 
stemming from prenatal alcohol exposure, their own substance abuse or 
serious mental health problems are adequately equipped to care for and 
protect them when what they really need is a structured environment and 
the treatment of highly skilled professionals. While we support 
strategies that would eliminate the over-reliance on inappropriate non-
therapeutic group homes, we want to make sure that these would not 
adversely impact young people's access to the substance use and mental 
health treatment they need to achieve recovery, address trauma and 
other mental health issues.

Ironically, it is often the inability of systems to match young people 
and their families with the right treatment when they first come to the 
attention of the child welfare or mental health systems that makes them 
more even vulnerable to placement in poor quality group homes over 
time. When children and their parents do not get the right help from 
the beginning, problems can easily and quickly turn into a crisis that 
families simply do not have the expertise to handle. In too many cases 
due to funding and treatment access complexities, these families have 
no choice but to rely on the child welfare system to secure the care 
that they need for their child.

Moreover, many foster and adoptive families lack the information about 
the full extent of the harm done to children they are seeking to care 
for which makes their task as caretakers a series of unexpected shocks 
for which they are often ill-prepared. A recent review of adoptive 
parent training and orientation, both pre-adoption and post-adoption, 
indicated that the few fine models that exist to adequately prepare 
adoptive, foster and kinship families to care for children serve far 
too few parents and children. As a result, this lack of parental 
preparation and understanding, particularly regarding the impact of 
prenatal alcohol exposure on cognitive and behavioral effects, can 
leave children even more likely to end up in group care as a last 
desperate, end-of-the-line placement.

Whatever incentives are suggested in legislation to reduce or eliminate 
inappropriate group care settings must also be careful to ensure that 
young people have full access to residential treatment options when 
they are clinically appropriate and, moreover, that funding is also 
available to support the continuum of services that prevent children 
from coming into the system in the first place. In addition, post-
permanency services should include specialized substance abuse training 
and supports for parents, kin and foster families who are caring for a 
young person in recovery once the young person returns home and 
community-based services to help the young person maintain sobriety.

As other witnesses testified in the May 22 hearing, the trajectory of 
substance abuse and mental health treatment can often be difficult to 
predict. Research shows that, particularly with addiction, recovery 
timelines differ significantly based on individual circumstances and 
that relapse is often part of the recovery process--a reality that may 
necessitate multiple stays in residential treatment over the course of 
a young person's lifetime and during their time in foster care. 
Limitations on group care must never interfere with a young person's 
access to needed treatment, especially when that support make a 
critical and even life-saving difference in an individual--and a 
family's--current and future stability.

We understand that creating a balanced federal policy is difficult. We 
also recognize that different funding streams come under the 
jurisdiction of different Congressional Committees and federal 
agencies. Despite these realities, however, we are particularly 
interested in better coordination between federal child welfare, 
Medicaid and private insurers to ensure that youth receive the full 
range of substance abuse and mental health treatments that they need to 
recover. In too many cases, limited child welfare funding is used to 
pay for clinical interventions that Medicaid and private insurers under 
parity requirements should already be covering. This supplanting of 
funds takes valuable dollars away from other necessary interventions 
that do not have alternative funding streams to support them and, as a 
result, are not made available to the families who need them. Child 
welfare systems should not be held solely accountable for addressing 
the costs and services needed by the most severely affected children--
especially during the largest potential expansion of funding available 
for treatment of mental and substance use disorders.

We would also urge those reviewing these policies to access the 
excellent video recently produced by Ira Chasnoff and his colleagues at 
NTI Upstream. Entitled Moment to Moment, the documentary chronicles the 
stories of three sets of prenatally exposed youth, carefully focusing 
on the family and institutionally based care that these youth 
experienced. The video shows both how the most severely affected of 
these children need a genuine alternative to family-based care and how, 
at the same time, families play a fundamental and ongoing role in their 
children's recovery and well-being.

In closing, we would like to share with the Committee that we also 
approach this issue as policy researchers who have spent most of the 
past 20 years working at the intersection of child welfare and 
substance abuse issues, familiar with both the data and the program 
models in this field. From that experience, we are convinced that a 
critical segment of children and youth need effective institutional 
care for at least a portion of their lives. We also have come to 
believe that institutions exist and can be replicated that are not 
warehouses, but caring places in the best traditions of social work and 
with the commitment to working with families to return children to 
their homes and communities once they have received the specialized 
treatment and care they need.

We thank you again for the opportunity to submit this statement for the 
record and look forward to working with the Committee to ensure a 
balanced approach to the reduction of residential care--one that honors 
the role of families by providing them with the full range of supports 
they need to help their children thrive.

Please do no hesitate to contact us with any questions by calling (714) 
345-6293 or (714) 402-6085 or emailing us at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bdf3d6c4d2c8d3dafddcd2d193ded2d093">[email&#160;protected]</a>

                                   [all]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
